<html>
<title> - VETERANS' PREFERENCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                          VETERANS' PREFERENCE

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2007

                               __________

                           Serial No. 110-41

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
39-450                     WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               JERRY MORAN, Kansas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 6, 2007

                                                                   Page

Veterans' Preference.............................................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    48
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    48

                               WITNESSES

U.S. Merit Systems Protection Board, Hon. Neil A.G. McPhie, 
  Chairman.......................................................    24
    Prepared statement of Hon. McPhie............................    60
U.S. Department of Defense, Hon. Patricia S. Bradshaw, Deputy 
  Under Secretary of Defense (Civilian Personnel Policy).........    26
    Prepared statement of Hon. Bradshaw..........................    63
U.S. Department of Agriculture, Hon. Boyd K. Rutherford, 
  Assistant Secretary for Administration.........................    28
    Prepared statement of Hon. Rutherford........................    65
U.S. Office of Personnel Management, Anita R. Hanson, Outreach 
  Group Manager..................................................    37
    Prepared statement of Ms. Hanson.............................    67
U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary, Veterans' Employment and Training Service...........    40
    Prepared statement of Mr. McWilliam..........................    70
U.S. Department of Veterans Affairs, Willie Hensley, Deputy 
  Assistant Secretary, Human Resources Management, Office of 
  Resources and Administration...................................    41
    Prepared statement of Mr. Hensley............................    73

                                 ______

American Federation of Government Employees, AFL-CIO, Mary Jean 
  Burke, First Executive Vice President, National Veterans 
  Affairs Council................................................    14
    Prepared statement of Ms. Burke..............................    54
American Postal Workers Union, AFL-CIO, C.J. ``Cliff'' Guffey, 
  Executive Vice President.......................................    15
    Prepared statement of Mr. Guffey.............................    57
Disabled American Veterans, Brian E. Lawrence, Assistant National 
  Legislative Director...........................................    17
    Prepared statement of Mr. Lawrence...........................    59
National Veterans Legal Services Program, Meg Bartley, Senior 
  Staff Attorney.................................................     3
    Prepared statement of Ms. Bartley............................    49
Tadsen, Roger, Wetumpka, AL......................................     5
    Prepared statement of Mr. Tadsen.............................    50

                       SUBMISSIONS FOR THE RECORD

American Legion, Ronald F. Chamrin, Assistant Director, Economic 
  Commission, statement..........................................    76
National Association of Postal Supervisors, Ted Keating, National 
  President, letter..............................................    81

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Hon. Neil A.G. McPhie, Chairman, U.S. Merit Systems 
      Protection Board, letter dated September 17, 2007..........    83
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Hon. Patricia S. Bradshaw, Deputy Under Secretary of 
      Defense (Civilian Personnel Policy), U.S. Department of 
      Defense, letter dated September 17, 2007...................    85
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Hon. Boyd K. Rutherford, Assistant Secretary for 
      Administration, U.S. Department of Agriculture, letter 
      dated September 17, 2007...................................    88
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Ms. Anita R. Hanson, Outreach Group Manager, U.S. Office of 
      Personnel Management, letter dated September 17, 2007......    89
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Willie Hensley, Deputy Assistant Secretary, Human Resources 
      Management, U.S. Department of Veterans Affairs, letter 
      dated September 17, 2007...................................    91


                          VETERANS' PREFERENCE

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Donnelly, 
McNerney, Hall and Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Veterans' Affairs Economic Opportunity Subcommittee hearing 
on veterans' preference will come to order. Before I begin with 
my opening statement, I would like to call attention to the 
fact that Mr. Ted Keating, President of the National 
Association of Postal Supervisors, has asked to submit a 
written statement for the record. If there is no objection, I 
ask unanimous consent that his statement be entered for the 
record.
    Hearing no objection, so entered.
    [The statement of Mr. Keating appears on p. 81.]
    When called to duty, service members must make a sacrifice 
by leaving behind loved ones and a way of life for an extended 
period of time. As four of our most recent Subcommittee 
hearings have highlighted, many of these service members have 
returned home to find themselves having a difficult time 
securing employment.
    In the early years of our Republic, veterans returning from 
war have been provided assistance in their reintegration back 
into civilian life to include being given preference in Federal 
Government hiring so they may succeed after military service. 
Generally, to qualify for such preference, a veteran must have 
been discharged or released from active duty in the U.S. Armed 
Forces under honorable conditions and be eligible under one of 
the preference categories. These categories apply to certain 
veterans who served during war; veterans with less than or a 
greater than 30 percent service-connected disability; veterans 
who have a service-connected disability and are receiving 
benefits due to that disability, but do not qualify for other 
preferences; and family members of veterans.
    Unfortunately, as we will hear today, there are some 
concerns that still exist, have existed over the past years. 
Some of these include veterans improperly denied appointments 
and veterans targeted during a reduction in force (RIF).
    I hope this hearing will allow the Subcommittee to 
determine the success rate of veterans' preference; if 
veterans' preference has assisted our Nation's heroes in 
acquiring jobs at Federal agencies; and if these agencies have 
implemented veterans' preference properly.
    I applaud the Federal agencies that have made strong 
efforts in hiring veterans, especially disabled veterans. I 
would also like to take the time to recognize the steadfast 
dedication of all our panelists today and their willingness to 
bring to light the serious issues that are being faced by many 
of our veterans today. I know that those of us here in the 
Congress, and the Administration officials on the third and 
fourth panels, look forward to hearing today's testimony so 
that we may all work together to properly recognize the 
sacrifice of those who have answered the call to duty. This is 
especially true at a time when our country is experiencing an 
increased retirement rate among Federal employees, and the 
military operations that are creating a larger population of 
veterans.
    I now yield to our distinguished Ranking Member, Mr. 
Boozman, for his opening remarks.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 48.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair. I want to thank you 
and your staff, my staff for bringing this very important issue 
before the Subcommittee.
    The Federal Government has a special obligation to make 
veterans part of its workforce, and I know that many Federal 
agencies make a real effort to hire and promote veterans. For 
example, the military services led by the Army with 43 percent, 
Air Force with over 41 percent, Navy with 38 percent, and the 
U.S. Department of Veterans Affairs (VA) with over 23 percent 
led the Federal Government in hiring veterans in fiscal year 
2005. Unfortunately there are also agencies that make little or 
no effort.
    I hope that today's hearing will provide us with insights 
as to how veterans' preference laws are working and in some 
cases not working. I would say that overall numbers show the 
Federal Government is making an effort. For example, according 
to the U.S. Office of Personnel Management (OPM) report on 
veterans in the Federal workforce for 2005, veterans comprised 
27 percent of the Federal full-time permanent employees, and 
veterans hiring is up in all areas. If I am disappointed, it is 
that agencies did not make better use of the special hiring 
authorities, such as veterans recruitment authority, VRA, to 
hire even more veterans.
    I must say reading OPM's Web site sections devoted to 
veterans' preferences is not an easy task, probably because of 
the multiple laws, hiring authorities and programs in effect 
for veterans and nonveterans.
    Madam Chair, since we have no direct authority over Title 5 
in the rest of the government, and again, I am thinking out 
loud but, I wonder if we should consider using our jurisdiction 
to simplify veterans' preference for the VA in the same manner 
as we did for small business in Public Law 109-461.
    VA has a good overall record relative to hiring veterans, 
but I think that we could help them do even better without 
tying the hands of the human resources staff.
    Again, I appreciate very much the panelists here, and I am 
very glad to hear the testimony. Thank you, Madam Chair.
    [The prepared statement of Congressman Boozman appears on 
p. 48.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman, for your 
suggestions and ideas on how we can best utilize our 
jurisdiction in our work here together to ensure that other 
agencies can meet the higher standard that the VA has in a 
number of instances, and that we can share that information 
with our colleagues on other Committees but also look to 
simplify these procedures. I'm also interested in the 
testimony, or the questions you may have, for our witnesses 
along that line or thoughts they provide in their opening 
statements.
    I want to welcome on our first panel Ms. Meg Bartley, 
Senior Staff Attorney of the National Veterans Legal Services 
Program (NVLSP); and Mr. Roger Tadsen, a disabled Air Force 
veteran, residing in the State of Alabama. Thank you both for 
being here today.
    I do want to remind you that your entire written statements 
will be made part of the record. Please summarize your remarks, 
you will be recognized for 5 minutes. We will have some 
questions for you as well. We have two additional panels, so 
please keep your opening statement to 5 minutes, we would 
appreciate that.
    Ms. Bartley, let us begin with your testimony. You are 
recognized for 5 minutes.

  STATEMENTS OF MEG BARTLEY, SENIOR STAFF ATTORNEY, NATIONAL 
VETERANS LEGAL SERVICES PROGRAM; AND ROGER TADSEN, WETUMPKA, AL 
                       (DISABLED VETERAN)

                    STATEMENT OF MEG BARTLEY

    Ms. Bartley. Madam Chair and Members of the Subcommittee, 
on behalf of the National Veterans Legal Services Program. I am 
honored to provide this testimony. And I hope it assists you in 
ensuring that all veterans receive the preference to which 
their service entitles them.
    During the past 8 years, NVLSP has reviewed and 
investigated complaints concerning veterans' preference 
violations. During that time we have filed amicus briefs with 
the U.S. Merit Systems Protection Board (MSPB) and the Federal 
circuit on behalf of the American Legion and on behalf of our 
own organization in important veterans' preference cases. Based 
on discussions with individual veterans and review of numerous 
complaints, we believe there are currently many violations of 
both the spirit and the letter of veterans' preference laws.
    I want to summarize three problems with the current system. 
In the interest of time, I will omit the recommendations that I 
have included in my written testimony. These are not the only 
problems with how veterans' preference works, but I believe 
they best illustrate the systemic weaknesses in the system. 
They show us that agencies currently avoid consistent and even-
handed application of veterans' preference in appointments to 
the competitive service.
    I will first address the practice of canceling a 
certificate of eligibles in order to avoid hiring a preference 
eligible. And I have a little overview in my written testimony 
of what can happen when an agency posts a vacancy. Usually 
applicants apply. A certificate of eligibles is generated. 
Sometimes there is more than one certificate, and I will get to 
that in a minute.
    But let's look at a case where there is a single 
certificate. Let's assume it is headed by a preference 
eligible. The hiring official doesn't want to hire that 
veteran. They may request a passover from OPM, and if their 
request for a passover is denied, the law currently provides 
that if the agency decides to subsequently cancel the entire 
announcement in order to avoid hiring the preference eligible, 
veterans' preference rights are not violated. That is from the 
Scharein case and also the Abell case of the Federal Circuit. 
That outrageous statement is the current state of the law, and 
allowing that situation to continue allows an agency to 
intentionally foil veterans' preference laws.
    A second problem that shows the systemic weakness of the 
current system is that under veterans' preference laws, 
emphasis is placed on the rank or rating of a preference 
eligible on a single competitive examining certificate. That is 
in chapter 33 of Title 5 USC. For many positions, the 
preference eligible is at the top of the certificate. And years 
ago when there was only one certificate, that provided 
meaningful preference, right, because the veterans at the top 
end would have to be chosen, or the agency would be required to 
get authorization for a passover.
    However, at the current time, agencies have the ability to 
choose a candidate from among multiple certificates and 
programs. The existence of multiple certificates and programs, 
any of which may be used to fill a single vacancy, renders the 
rank or rating assigned to the preference eligible on the 
competitive open certificate potentially meaningless. What is 
the benefit of being number one on the list if the agency has 
the ability to choose from four or five other certificates or 
programs in deciding who to hire? Veterans are completely 
confused to find that they were at the very top of a 
certificate, but someone from a completely different 
certificate was appointed to the job.
    A third problem is that agencies tend to ignore the primacy 
of the competitive examining process in Federal hiring. The 
existence of multiple hiring programs and certificates from 
which agencies can choose leads agencies to a dangerous view of 
Federal hiring, and that is that they are pretty much 
unrestricted in choosing how to hire an individual. Competitive 
examination is seen as one hiring method among several. 
However, the statutory scheme in Title 5, chapter 33 requires 
that an individual be appointed in the competitive service only 
if they have passed an examination or of necessity been 
excepted from examination.
    Deviations from that method of choosing an individual for 
the competitive service leads to serious violations of 
veterans' preference laws. This is evidenced by the fact that 
the Outstanding Scholar Program operated undisturbed for many 
years and only recently was recognized as violating veterans' 
preference. The growth of additional programs as alternative 
routes into competitive service is a serious threat to 
consistent application of veterans' preference.
    Madam Chair and Members of the Subcommittee, I appreciate 
the opportunity to present our views on this issue and look 
forward to continuing working with the Subcommittee on 
strengthening the application, oversight and enforcement of 
veterans' preference.
    [The prepared statement of Ms. Bartley appears on p. 49.]
    Ms. Herseth Sandlin. Ms. Bartley, thank you very much for 
your testimony.
    Mr. Tadsen, thank you very much for taking personal leave 
to join us today to share with us your insights and testimony. 
You are now recognized for 5 minutes.

                   STATEMENT OF ROGER TADSEN

    Mr. Tadsen. Madam Chairwoman and Members of the 
Subcommittee, I am Roger Tadsen, and I thank you for allowing 
me to speak with you concerning my experiences under the 
Disabled Veterans Affirmative Action Program (DVAAP), 
established by 5 CFR 720 Subpart C. My military career started 
when I joined the Air Force in January 1972 at the age of 17. 
While on active duty, I had surgery which left me partially 
paralyzed in both legs. The Air Force medically discharged me 
in January 1987. As a result, the Veterans Administration 
established my service-connected disability rating at 70 
percent.
    The Air Force Audit Agency hired me in June 1991 upon 
completing the VA's Vocational Rehabilitation Program. My 
previous Air Force experience paid off with my first audit, 
which resulted in over a $3 million savings to the Air Force. I 
thought I was doing well. Imagine my surprise when my region 
chief, meeting me for the first time, told me, you should be 
satisfied where you are because of your disability and that you 
could not handle being an audit manager.
    His statement took me aback. I filed an equal employment 
opportunity (EEO) complaint. And his explanation: You 
misunderstood what I said. And I gave him the benefit of the 
doubt.
    Between 1995 and 2004, I had ratings of excellent and 
superior. I self-nominated for more than 15 competitive 
promotions and was never selected. All the while, the Air Force 
Audit Agency had continuous vacancies in California, Ohio, 
Texas and the Pentagon. I watched as my peers with less time 
and grade and service were selected and wondering, why not me? 
When I asked, I was told by Agency officials, focus your 
energies on job performance, which is the primary factor to 
promotion in the Audit Agency, and apply for vacancies.
    Since January 2000, I have completed 23 audits, identifying 
over $54 million in savings for the Air Force. I have audit 
experience in acquisition field operations and information 
systems audits and am a certified fraud examiner. I have worked 
with the Air Force Audit Agency for over 15 years and have more 
than 31 years with the Air Force.
    In October of 2002, I discovered the DVAAP. On my own time 
I started to research its implementation in the Air Force Audit 
Agency. Over the next year I asked my supervisor and other 
agency officials why the Audit Agency was not following this 
affirmative action program, focusing on disabled veterans rated 
30 percent or more as outlined. My written testimony gives a 
full account of who I wrote and their response since.
    After many letters and e-mails and discussions, it became 
apparent that the Audit Agency did not want to implement this 
affirmative action program. As a result, I filed an EEO 
complaint in December of 2003 based on the lack of their 
responsiveness.
    In January of 2004, I requested a humanitarian reassignment 
for personal reasons. A Deputy Assistant Auditor General 
offered me a job, which included a promotion in February 2004, 
stating, this will kill two birds with one stone. I assumed he 
was referring to my EEO complaint and humanitarian 
reassignment. I accepted this promotion, knowing that this same 
official had previously rejected my self-nomination a few 
months earlier, and I withdrew my EEO complaint.
    After our move, I continued to ask why the Audit Agency was 
not implementing the DVAAP plan. My Associate Director said 
that a Deputy Assistant Auditor General poignantly told me in 
September of 2004, we don't want to hear any more about the 
DVAAP.
    Since January of 2006, to continue my career progression, I 
have applied 11 times for vacancy in professional military 
education since the Agency senior officials say I need depth 
and breadth of experience. Yet again, I went unselected while 
generally others with less time and experience were selected.
    In June of 2007, I provided Audit Agency senior staff 
contact information for the Supervisor of Employment Outreach 
at the national VA headquarters. None of these officials 
contacted his office even though he identified over 1,600 
potential candidates rated 30 percent or more.
    I believe my testimony has shown a pattern of deception 
concerning the implementation of this affirmative action 
program while supporting discrimination against disabled 
veterans within my own organization, especially those rated 30 
percent or more. And I just thank you for allowing me to take 
the time to come and speak with you on this issue.
    [The prepared statement of Mr. Tadsen appears on p. 50.]
    Ms. Herseth Sandlin. Thank you again, Mr. Tadsen. We 
appreciate your willingness to share your experiences, clearly 
as frustrating as they have been, so that we can help get some 
answers to try to help others avoid being in this position. 
Certainly it is our oversight role to make sure that programs 
like DVAAP are implemented in the way that we had intended.
    We have been joined by Mr. McNerney, the gentleman from 
California. Did you have an opening statement, Mr. McNerney, 
that you wanted to share with the Subcommittee?
    Mr. McNerney. No. Go ahead and go on with the questions.
    Ms. Herseth Sandlin. I will recognize the Ranking Member 
first for questions and then recognize you, Mr. McNerney.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Ms. Bartley, you mentioned the three things that were 
common barriers. In one I was a little confused. You quoted a 
case, a citing from the case. Was that quoted from the law, or 
is that a bad interpretation of the law? See what I am saying? 
Laws are made all the time, and then judges interpret what the 
law means. Is that a bad interpretation?
    Ms. Bartley. That is both the Merit Systems Protection 
Board and the Federal circuit's interpretation of the law. I 
want to make clear that the MSPB and the court seem to be 
interpreting the law correctly. It is just that the law has 
this flaw in it that it would allow an agency to go ahead and 
cancel. There is nothing to prevent that from happening. So 
that was their interpretation of the law.
    Mr. Boozman. So in your mind, there is a loophole in the 
law.
    Ms. Bartley. There appears to be a loophole in the law.
    Mr. Boozman. It wasn't intended to be that way when the law 
was written.
    Ms. Bartley. I don't think when the law was written people 
thought that that would occur.
    Mr. Boozman. In many cases when you try to write law, 
sometimes you don't cover every intended loophole.
    Ms. Bartley. Right. It is impossible to foresee that 
something like that would----
    Mr. Boozman. You describe the three most common barriers. 
What is the most common of the three?
    Ms. Bartley. I think these are all significant flaws 
structurally in the law. I did not attempt to say that they 
were the most important or the ones that occur most frequently. 
I would find it hard to choose among them or to put them ahead 
of other problems that the other service organizations are 
going to address in a little while.
    Mr. Boozman. And I know in your written testimony it is 
there, but would you summarize again, would you kind of go 
through one, two and three? And then as one who works with the 
problem, what would be your fix for the problem?
    Ms. Bartley. Well, the first problem that I mentioned was 
the cancelation of a certificate specifically in order to avoid 
hiring a preference eligible. One recommendation or idea that 
we have and that some veterans service groups and I have 
discussed, some other service group members have discussed, is 
to require an agency to request permission to cancel a 
certificate that is headed by a preference eligible. A rule 
that might be patterned after the current passover provision in 
5 USC 3318(b), which requires an agency--the current rule, the 
passover rule is if the agency wants to pass over a veteran on 
a certificate, to essentially request OPM's permission to do 
that, giving reasons why they want to do that; is the 
preference eligible not qualified, et cetera. And sometimes 
they can actually accomplish that. The OPM says, yes, go ahead 
and pass over.
    There could be a similar provision concerning the 
cancelation of a certificate. Where the certificate is headed 
by a preference eligible, they could have to give reasons to 
OPM or give reasons to some agency as to why they want to 
cancel the certificate. And OPM, if they found that there was a 
valid reason other than just because the agency wants to avoid 
veterans' preference laws, they could go ahead and approve the 
cancelation of the certificate.
    I am sure that there will be an objection, that that would 
be quite bureaucratically burdensome, and I guess that would 
have to be tailored so it wouldn't be burdensome, because I 
understand there are a lot of cancelations of certificates. The 
funding for the position might have failed, the agency may need 
to tweak how they described the position, so they cancel the 
certificate, and they add a new skill in there that needs to 
be--you know, that the applicant should have. There are all 
kinds of reasons why certificates are canceled. And I am not 
saying that this is the main reason, but this is--there are 
many cases that have--cited the Scharein case and the Abell 
case. And so our assumption is, well, this is happening with 
some frequency. And it is such an outrageous situation that it 
just calls out for some kind of action.
    As far as the second problem, the agency's ability to 
choose from multiple certificates or programs in filling a 
single vacancy, I admit that our recommendation there is a bit 
vague: basically somehow to ensure that a certificate generated 
through the competitive process, that is the open competitive--
open to all sources competitive certificate is somehow favored 
over other hiring methods and over other hiring programs.
    Again, I admit that that is a bit vague, but that is all I 
can think of, because when you look at Title 5 as a whole, the 
only place that appointments are really talked about is in 
chapter 33. That is a structured--a structured method of 
appointing someone to the competitive service. It is all in 
chapter 33, and that is where all of the veterans' preference 
rules are also.
    So that should be the primary method of hiring. But again, 
the recommendation there is admittedly a bit vague. And I am 
sure perhaps other people have other suggestions on that.
    The third problem is--and it is related to the multiple 
certificate problem--is that agencies tend to ignore that the 
competitive examination process is supposed to be the primary 
hiring method for appointments to the competitive service. This 
is routinely ignored. It is ridiculously routinely ignored, in 
my opinion. The recommendation here, again, is to ensure that 
the competitive examining process remains the primary 
appointment method for entry into the competitive service, and 
if an agency is going to use another hiring program, they 
should have reasons why that is necessary.
    Mr. Boozman. With your permission, can I ask Mr. Tadsen one 
thing?
    You told your story and then alluded to the fact that other 
veterans, other friends, acquaintances or whatever were having 
the same problem. Is it because that your supervisors feel like 
you are thrust on them in the first place? See what I am 
saying? If you are doing a good job, and if I were the 
supervisor, and you want to have a good team that does a good 
job doing these things, is it just getting off on the wrong 
foot in the first place, or----
    Mr. Tadsen. Well, most of our--most of the decisions that 
are made aren't made at my first- or second-level supervisor. 
It is upper management and at the Senior Executive Service 
(SES) level that are making these decisions and trying to 
inform the agency how they want to do it. So my first- and 
second-level supervisors, they write glowing reports.
    For example, when I put in for Air Command and Staff 
College at Maxwell, my first- and second-level supervisors, 
they wrote glowing comments. But when it got to the SES where 
they are supposed to fill out their comments on this form, 
their comments aren't supportive. And so the selecting 
officials at the Board that they choose the people that are to 
attend these professional schools, they wrote back to me saying 
that the endorsing officials' comments don't relate to how the 
Air Force would benefit from me attending this particular 
college.
    And again, I am just one. There are 13 other disabled 
veterans, and they have told me their stories as well. But 
again, they don't want to be under the gun, as it were.
    Mr. Boozman. So you feel like the upper level is based on 
the fact that you and these other folks have a disability as to 
why they are--I guess what I am saying is you want to have a 
good team of people that are doing the job, and evidently you 
are doing the job.
    Mr. Tadsen. You want to be qualified. You want to have 
qualified people in those positions.
    Mr. Boozman. So what is their motivation? What is their 
motivation?
    Mr. Tadsen. I don't know, because they have yet to respond 
to any of my inquiries. You know, they just don't respond. They 
tell my Associate Director they just don't want to hear any 
more about it, and that is it. And even under National Security 
Personnel System (NSPS) now, we have been under NSPS since 
April of 2006, we have not hired any disabled veterans, we have 
not promoted any disabled veterans, and nobody will explain 
why. And when I write the Office of Primary Responsibility at 
the Air Force level, they said, well, we have provided the Air 
Force Audit Agency with six recommendations that would help 
them to improve the disabled veterans' representation. And they 
still have not implemented those recommendations.
    Mr. Boozman. Well, thank you for coming, and we appreciate 
your service. Thank you very much.
    Ms. Herseth Sandlin. Mr. McNerney.
    Mr. McNerney. Thank you, Madam Chairwoman.
    I also want to thank the two panelists. I know it is hard 
to come forth, but this is what it takes to change the system 
so hopefully we can make some things that are going to change 
and make it better.
    Ms. Bartley, I would like to ask you, in your opinion, is 
the Office of Personnel Management capable of dealing with 
veterans' preferences across the country, or are there major 
structural changes that are needed?
    Ms. Bartley. I think there are major structural changes 
that are needed. I believe that one of the other service 
organizations later will speak about the fact that the appeal 
process and the complaint process for veterans' preference 
violations is not streamlined at all. A lot of different 
agencies have a hand in it: Office of Special Counsel, OPM, the 
MSPB, et cetera. And often veterans don't know really what is 
happening.
    I also think that with the growth of a lot of--I mentioned 
this in my written testimony--multiple student hiring programs 
and things like that, it is hard for OPM to--you know, there is 
like growth in the number of ways to hire people. It is hard 
for OPM to keep their hands on each one. And then, of course, 
sometimes all this is delegated to the agency, and OPM is just 
doing minimal supervision. And then again, they don't really 
have the--they have authority, but they don't have the 
supervisory ability to make sure that things are happening the 
right way.
    Mr. McNerney. Well, in your view, then, does the veterans' 
preference statute really help? Is there any level that it does 
help, or are we sort of not getting anywhere at this point?
    Ms. Bartley. Well, I certainly wouldn't recommend getting 
rid of it. Of course it helps in situations. What we are trying 
to highlight are the numerous violations and think about ways 
that we could improve it so that those violations don't occur. 
Sometimes, though, it seems as though you plug one hole, and, 
you know, other potential ways of hiring people appear, you 
know, and so you are busy kind of plugging holes.
    And I would point to the Outstanding Scholar Program, as 
you know, a hole that was plugged, but now--and after the--you 
know, the Outstanding Scholar hiring program was frozen. I 
believe it is still frozen. But I heard various things from 
various people on that. After that was frozen, because it was 
seen as basically a violation of veterans' preference laws and 
the competitive examining process, then we did see some advice, 
actually, among Federal hiring managers, what to use now that 
Outstanding Scholar isn't available to us. And, of course, 
there is nothing wrong with that, but a lot of these--seemingly 
what has occurred is that there has been a bit of an explosion 
in different student hiring programs, and we are not sure how 
veterans' preference is being applied there and whether anyone 
is doing any oversight or enforcement of those programs.
    Mr. McNerney. Do you think that employers find any tools 
that are useful in locating the appropriate person to hire for 
vacancies, or is that an area that could use some work as well?
    Ms. Bartley. Did they have--it is possible that an human 
resource (HR) professional might have a better view of that 
than I do because I really don't do HR work. I know they clamor 
for hiring flexibilities. And, of course, no service 
organization in this room has a problem with that as long as 
veterans' preference laws, including, you know, passover and 
enforcement, are followed.
    Mr. McNerney. Thank you.
    Mr. Tadsen, do you think that the Air Force Audit Agency 
retaliated against you in any way, or do you feel like there 
was unintentional action?
    Mr. Tadsen. Oh, I think it was well directed at me, because 
my first line supervisor and a deputy director for my region 
worked together, I think, to put me in the hospital, as it 
were. They were--the VA, they were thinking I was having heart 
trouble, but it was all stress-related, because, again, they 
were attacking my character, my work. As I said in my previous 
testimony, my ratings from 1995 until 2004 were superior or 
excellent. And since that time--now I am just average. And I 
think that is part of the process.
    And just to add with what Ms. Bartley had said as far as 
certificates being cancelled and how the preferences are given, 
in my own organization, I believe that they purposefully tried 
to do what they can so that they don't have to have a disabled 
veteran in a supervisory position or mid or upper management, 
because there are none currently.
    Mr. McNerney. Can I ask one more question? Do you have any 
specific recommendations then on what should be done to improve 
the situation or--you don't have to answer in detail now, but 
if you do, if you would submit those, I think it would be 
useful.
    Mr. Tadsen. One recommendation I would give is that the air 
staff, the A1X folks that are the Office of Primary 
Responsibility (OPR) office for the DVAAP plan, is that they 
should have the authority to not necessarily encourage my 
organization to participate in this program, but actually 
monitor how they implement the DVAAP for hiring using veterans' 
preferences or promotions under the DVAAP, because now it is 
just not satisfactory.
    Mr. McNerney. Okay. Thank you.
    Ms. Herseth Sandlin. Let me continue with you then, Mr. 
Tadsen. In your testimony you said that between 1995 and 2004 
you self-nominated 15 times?
    Mr. Tadsen. Yes, ma'am.
    Ms. Herseth Sandlin. For competitive promotions. You were 
never selected, and there were continuous vacancies at the 
time?
    Mr. Tadsen. Yes, ma'am.
    Ms. Herseth Sandlin. And you were never proffered a reason 
as to why you were not selected?
    Mr. Tadsen. No, ma'am. Well, I assume in some instances, as 
Ms. Bartley had alluded to, some certificates were withdrawn. 
We chose not to fill the position at this time. In other 
things, they just never filled the position.
    Ms. Herseth Sandlin. I think you stated this in your 
response to an earlier question. This wasn't an issue, it 
doesn't sound like, even at the outset, that was just someone's 
lack of awareness of DVAAP, right?
    Mr. Tadsen. Well, in 2003, I gave the auditor general a 
copy of the law, the 5 CFR Subpart C, and a paper I had written 
when I was attending the Professional Military Comptroller 
School on how the Air Force should implement this affirmative 
action program. So they were well aware of it in 2003. Myself, 
I wasn't aware of it until I was doing research on another 
audit project that I just happened to cross the law. Otherwise, 
I would have never even known of the DVAAP. And once I found 
out, that is when I started to ask questions.
    Ms. Herseth Sandlin. I am asking these questions so that we 
can figure out, as a Subcommittee, the best way to address 
different cases. Whether it is an agency that has some folks in 
certain positions of responsibility that aren't as familiar as 
they should be, and is, therefore, obviously not taking 
adequate steps to implement it; or do we have instances in 
which people are fully aware of it, those that are responsible 
in a particular agency for knowing about it and implementing 
it, and there is an intentional, willful refusal to implement 
the law.
    Do either you or Ms. Bartley want to respond to whether or 
not you think that we have situations in which either are true? 
Do you think in your experience with other agencies, that 
people are familiar with the various programs we have in place 
to ensure adequate enforcement of veterans' preference?
    I raise this question because we have had other hearings 
where workload issues are identified for people and primary 
responsibility to keep up with changes in the law, whether it 
is in contracting issues or what have you. Or do we have a 
systemic situation in which individuals with responsibility are 
purposefully not doing enough to implement the programs?
    Ms. Bartley. Well, that is an interesting question, and I 
tend to think it is a mixed bag. But I did want to note from 
what Mr. Tadsen said that--I believe I am correct in this, 
although I don't have all the laws memorized. veterans' 
preference doesn't apply to the SES. And he was just mentioning 
that the problem is with SES. I don't want to draw too much out 
of that--out of that connection I am making, but it is possible 
that because upper management--there may not be. I don't know a 
lot of disabled veterans there--that there may be some 
resistance to following the many parts of the veterans' 
preference or affirmative action laws. I don't know.
    But as far as your general question, I do believe it is a 
matter of both workload and ignorance, or I believe there is 
often outright resistance to applying the law and thinking of 
ways to getting around it, like canceling certificates or 
tweaking the requirements for a position so that the veteran 
may no longer qualify, things like that.
    Mr. Tadsen. If I might add, ma'am, when I was trying to 
discover how the Air Force was implementing this plan, it took 
me almost a year to get the Air Force to provide me two sheets 
of paper that looked like a Word document. It was not properly 
staffed. Most regulations that I review, they have an OPR 
identified on the face of the document whose office is 
primarily responsible, just the staffing. But the plan that 
they provided me, and they called this the Air Force fiscal 
year 2003 DVAAP plan, I provided it to my Civilian Personnel 
Office at Elmendorf. That is where I was stationed at the time. 
They had never seen it. I contacted the Civilian Personnel 
Office for the Pacific Air Command because that is where 
Elmendorf falls under. They had never seen it.
    So as she has alluded to, I think it is a mixed bag of just 
knowledge and knowing that it is there. So I--again, I think it 
is a mixed bag. But in my own organization, I gave them a copy 
of the law. I gave them a copy of the Air Force plan in 2003, 
and we have yet to hire or promote disabled veterans within my 
organization. We remain constant between 10 and 13 disabled 
veterans that have a rate of 30 percent or more. And that is a 
concern for me, not necessarily from my own progression, career 
progression, but for the other 10 or 12 other 30-percent 
disabled veterans that are out there that have had these 
comments made to them, you know, the only reason you were hired 
is because you are disabled; it should have gone to a woman. 
Those kind of comments are just irresponsible from mid and 
upper management.
    Ms. Herseth Sandlin. Ms. Bartley, you had already addressed 
the issue of your concerns about OPM. Let me ask you both this: 
If it is a workload issue and a lack of familiarity with some 
of the laws that are in place, then going to the issue that Mr. 
Boozman brought up in his opening statement, when there is 
familiarity, is it still too complex? Do you think it needs 
simplification? Are there certain agencies, in your opinion, 
that you have seen canceling a certificate of eligibles more 
frequently than others, particularly since the decisions that 
you have referenced from 2002? I think it is the Scharein 
decision in 2002 and the Azdell decision. What are your 
thoughts on the complexity of administering veterans' 
preference across agencies? Which agencies may have taken these 
decisions from the last few years and started issuing more 
cancelations of the certificate of eligibles? That is a 
question more directed to you, Ms. Bartley, and I may have 
another one to directed Mr. Tadsen. What are your thoughts?
    Ms. Bartley. We haven't looked into the--well, I did call 
OPM to try and see how they track the cancelation of 
certificates. They do track the cancelation of certificates. I 
didn't talk--I wasn't able to talk to the person who is 
actually in charge of that. So I don't have any sense of what 
agencies might be doing this more than others.
    As to your question about the complexity, I think that is 
an issue. It has become very complex. If you read, you know, 
Title 5 and the appointment and selection process there, it all 
sounds really simple. But there is just so many regulations and 
different parts of the mosaic that it is very complex. I mean, 
I have some sympathy with, you know, human resources people 
just because it is hard to walk that line. But again, the most 
important thing to me and to our organization is that veterans' 
preference laws are applied. But it has become a very, very 
difficult thing with all of these different programs.
    Ms. Herseth Sandlin. I appreciate that. We may explore with 
the next panel their thoughts on this. Perhaps after the 
hearing, taking the testimony we are getting today, if there is 
a consensus about that, we can help develop proposals, as Mr. 
Boozman suggested, to help simplify this process that would 
also help in the training for those being familiar with what 
laws apply and how to best implement them.
    We do have three more panels, so I think we may have some 
additional questions that we will submit to you in writing, if 
you can get back to us, because I think if they are agency-
specific, Mr. Tadsen, for us to get more information from your 
experience. We may want to submit some additional questions to 
you.
    I again appreciate your testimony today and share your 
concerns. Of course, it raises some other issues, as Ms. 
Bartley pointed out. If we have got veterans' preference 
applying to initial hires and protection against reduction-in-
force actions, we want to focus on what is currently the law. I 
also think if we have continuous vacancies, and someone has 
demonstrated their qualifications and has consistently received 
positive reviews, then in supervisory managerial roles there 
needs to be not so much flexibility for agencies to just be 
canceling certificates of eligibles or just leaving vacancies 
open when we know we have got people who applied that appear to 
meet the qualifications for the position.
    Thank you both. I appreciate the time, and we appreciate 
your service to the Nation. Thank you.
    Mr. Tadsen. Thank you kindly.
    Ms. Herseth Sandlin. I now invite the second panel to the 
witness table. Joining us on the second panel of witnesses 
today is Ms. Beth Moten, Director of the American Federation of 
Government Employees (AFGE); Mr. Cliff Guffey, the Executive 
Vice President for the American Postal Workers Union (APWU); 
Mr. Brian Lawrence, Assistant National Legislative Director for 
the Disabled American Veterans; and Mr. Rick Weidman, Executive 
Director for Policy and Government Affairs for the Vietnam 
Veterans of America.
    Well, evidently Mr. Weidman wasn't able to meet with us 
today, so we will move right to Ms. Moten. You are recognized 
for 5 minutes. Thank you for being here, and thank you for your 
written testimony. Again, your written testimony will be made 
part of the record in its entirety, and we look forward to your 
summation.

STATEMENTS OF MARY JEAN BURKE, FIRST EXECUTIVE VICE PRESIDENT, 
   NATIONAL VETERANS AFFAIRS COUNCIL, AMERICAN FEDERATION OF 
GOVERNMENT EMPLOYEES, AFL-CIO; C.J. ``CLIFF'' GUFFEY, EXECUTIVE 
  VICE PRESIDENT, AMERICAN POSTAL WORKERS UNION, AFL-CIO; AND 
  BRIAN E. LAWRENCE, ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, 
                   DISABLED AMERICAN VETERANS

                  STATEMENT OF MARY JEAN BURKE

    Ms. Burke. Thank you. Ms. Moten wasn't able to be here 
today. So I am Ms. M.J. Burke.
    Madam Chairwoman, Members of the Subcommittee, thank you 
for inviting AFGE to testify today. Being a union officer and a 
physical therapist at the Indianapolis VA Medical Center gives 
me a unique ability to understand veterans' vocational needs 
during the recovery process and as employees try to advance 
their careers once they return to civilian life.
    The Federal Government should be a role model for all 
employers in this country not only when it comes to hiring 
practices, but also for career advancement and placement of 
qualified employees in leadership positions. Veterans' 
preference rules must change with the times. Currently 
veterans' preference rules only apply to Title 5 positions or 
positions covered by the Veterans Employment Opportunity Act. 
There are roughly 85,000 Federal employees in the VA who are 
covered by Title 38. More recently, the Department of Defense 
and the Department of Homeland Security have put in place their 
own personnel rules. Therefore, we urge Congress to expand 
current civil service protections for veterans to cover 
employees under all personnel systems.
    Veterans' preference rules must also change as the nature 
of military service changes. For example, members of the Guard 
and Reserves are being redeployed more often and for longer 
periods than in the past. Therefore, they are particularly 
disadvantaged by the fact that veterans' preferences does not 
currently apply to promotions and transfers. For example, a 
Title 5 employee working in my medical hospital as a biomedical 
engineer technician is in the Reserves and is activated. He 
perhaps then earns preference status through this new military 
experience. When he returns to work at my hospital, this 
additional status is of no help to get him promoted or 
transferred.
    Our employees in the Reserves and Guard deserve better. 
They deserve a civil service system that recognizes their own 
personal sacrifice. Only through my personal experience at the 
Indianapolis VA Medical Center have I come to realize something 
about today's veterans and their employment options. At one 
point in my life, I assumed that people with Bronze Stars and 
Purple Hearts were set for life financially, that their record 
would ensure them a decent wage and good benefits. The reality 
is many of these veterans at the VA who fold our sheets, mop 
our floors, repair our air conditioners and fix our wheelchairs 
have exemplary military records, but what they, in fact, rely 
on is their Federal employment to give them a consistent living 
wage, health and pension benefits. And even though most of 
these jobs are lower skilled, they find tremendous satisfaction 
in caring for other veterans.
    Currently the Federal Government does not have the tools it 
needs to see how well its policies are working to promote 
veterans employment. There is a ready-made model that the 
government could use to monitor veterans employment practices: 
Management Directive 715, which currently tracks race, age, 
national origin, disability and gender trends in Federal 
employment. This report could be easily expanded to include 
data on veterans in the Federal workforce.
    Finally, those who are making hiring decisions and those 
who decide how to rate an applicant's past work experience for 
qualification purposes need more training to ensure that 
military service is properly recognized and uniformly applied. 
I have been troubled by the lack of consistency in rating 
decisions. I have seen very little guidance from VA central 
office about this very important function for fair treatment of 
veterans and employment.
    For example, there have been complaints by veterans who 
have worked as medics in the military who felt they were 
unfairly denied step and/or grade increases when being rated as 
a licensed practical nurse. We have similar examples by other 
occupations.
    This concludes my testimony, and I would be happy to answer 
any questions for the Subcommittee.
    Ms. Herseth Sandlin. Ms. Burke, thank you very much.
    Ms. Burke. You are welcome.
    [The prepared statement of Ms. Burke appears on p. 54.]
    Ms. Herseth Sandlin. Mr. Guffey.

               STATEMENT OF C.J. ``CLIFF'' GUFFEY

    Mr. Guffey. Madam Chairwoman and Members of the 
Subcommittee, I am Cliff Guffey, Executive Vice President of 
the American Postal Workers Union, AFL-CIO, the APWU. I am 
proud to say that I am a 10-point veteran. I was a member of 
the Marine Corps in Vietnam 1968 and 1969. My President, 
William Burrus, was a member of the 101st Airborne, and with me 
today is Steve Raymer, our Director of the Maintenance 
Division, and he is also a Marine Corps veteran.
    It is no coincidence in my mind that those of us who are 
willing to fight for the rights of our country are also willing 
to fight in our workplace for the rights of working employees, 
veterans included. Postmaster General Potter recently reported 
that nearly 25 percent of the postal employees are veterans. 
Among postal workers of my generation, the numbers and 
percentages of veterans in the Postal Service has been higher.
    The fact that large numbers of veterans are employed by the 
Postal Service tends to obscure the fact that Postal Service 
effort on behalf of our veterans is not as strong and 
beneficial as it should be. There has been a continuous decline 
in the number and proportion of its workers who are veterans. 
This trend is particularly significant in light of the large 
number of veterans, particularly disabled veterans, who are 
returning from fighting in the Middle East. The Veterans 
Administration has reported that our returning veterans are 
suffering levels of unemployment and homelessness that I am 
sure the Committee will agree are not acceptable.
    According to the Veterans Administration, the reality is 
that unemployment usually affects younger, less experienced 
workers than most, and that includes young veterans who are 
attempting to enter the civilian workforce after they are 
discharged from the military service. The VA estimates nearly 
200,000 veterans are homeless on any given night, and nearly 
400,000 to 1 million veterans experience homelessness each 
year. Conversely, one out of every three homeless men who are 
sleeping in a doorway, alley or box in our cities and rural 
communities have served in our military.
    While great efforts have been made to provide housing, 
these have not been nearly enough. More importantly, our 
veterans need good jobs, good-paying jobs, a living wage with 
adequate fringe benefits. Studies show that gainful employment 
with a living wage with the opportunity for advancement is the 
foundation for maintaining economic stability and reducing the 
risk of homelessness.
    There is no doubt that the Veterans' Preference Act has 
provided important assistance to veterans, but this assistance 
is not as effective as it should be. Perhaps the largest 
problem is that veterans are not aware of their veterans' 
preference rights. Neither the military nor the Veterans 
Administration nor the Postal Service is doing enough to inform 
veterans of their veterans' preference rights.
    In our experience, the vast majority of veterans are not 
aware of their rights. Even knowing their rights under the law 
will not really assist veterans unless the Postal Service makes 
an effective effort to inform them of employment opportunities. 
Veterans who are informed of their rights and also informed of 
the available postal positions are more likely to gain U.S. 
Postal Service (USPS) employment because they have access to 
the entrance exam upon discharge.
    Currently the best employment information vets are offered 
is at sporadic job fairs that do not regularly include a 
representative from the USPS. We recommend that all Federal 
agencies be given timely notice of these fairs and that all 
agencies within the geographic area of the fairs be required to 
send knowledgeable representatives.
    Additionally, we urge the Committee to take steps to ensure 
that the Veterans Administration and the military provide exit 
counseling that includes useful information regarding Federal-
sector employment, recruitment and available positions.
    The Subcommittee also needs to be aware of another 
significant impediment to the veterans' preference and the 
Postal Service. The Postal Service has systematically 
eliminated or contracted out the six job classifications under 
section 3310, Title 5 of the Veterans' Preference Act 
restricting those jobs to applying veterans. For years the 
Postal Service has sought to contract more and more of these 
restricted jobs over the objections of the APWU.
    We think that this effort by the Postal Service is contrary 
to the spirit of the Veterans' Preference Act and not in the 
best interest of the Postal Service. Veterans are losing their 
postal employment rights because the Postal Service is not 
preserving these restricted jobs for them in accordance with 
Federal policy. It may be that the most effective way to 
provide employment opportunities for veterans would be to 
identify additional positions that could be restricted for the 
employment of veterans.
    If veterans are to be provided meaningful postal employment 
opportunities as they have in the past, effective steps needs 
to be taken to inform veterans of their rights. The military 
should be required to provide effective exit counseling to 
discharging veterans, informing them of their preference 
rights. The Veterans Administration needs to provide effective 
job counseling services that include information about 
veterans' preference rights and employment opportunities. And 
the Postal Service must systematically provide information 
about employment opportunities to the military, to the Veterans 
Administration and to the veterans themselves.
    In closing, I want to thank the Committee. I want to make 
two quick comments, personal comments.
    When I was discharged, I got no counseling. I was sent to 
the VA hospital for my exit physicals. I thought it was 
atrocious at that time. I was lined up in the hallway with 
hundreds and hundreds of other veterans. At that time, I said I 
would never go back to a VA hospital.
    Today I go back to the VA hospital, and I am very pleased 
and very proud of what you all have done for us in those areas, 
because what I get from the clinics and the VA hospitals has 
been outstanding as far as I am concerned. Conversely to that, 
the VA benefits, the processing the claims now is atrocious, 
and you need to do something.
    Thank you.
    [The prepared statement of Mr. Guffey appears on p. 57.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Guffey. Thank 
you for your service and your testimony today.
    Mr. Lawrence, welcome back to the Committee. You are now 
recognized for 5 minutes.

                 STATEMENT OF BRIAN E. LAWRENCE

    Mr. Lawrence. Thank you.
    Madam Chair, Ranking Member Boozman and Members of the 
Subcommittee, on behalf of the 1.3 million members of the 
Disabled American Veterans, I am pleased to present our views 
regarding veterans' preference in Federal employment.
    Commenting on veterans' preference is a bit like discussing 
the Emperor's new clothes. There is an abundance of important-
sounding words, but no real substance. Someone who is 
knowledgeable about veterans benefits can tell you about the 5-
point preference or 10-point preference, and on the surface it 
would seem as if there were real advantages in place to help 
veterans obtain Federal employment. But from the veterans' 
perspective, the provisions that are in place are empty 
rhetoric, and there is no significant veterans' preference.
    This is inexcusable. The proportion of our population that 
serves on the active duty is about 4 out of every 1,000 
citizens. A very small percentage ensures that the rest of us 
can enjoy the freedom and security of a great Nation. Men and 
women of the Armed Forces serving the Federal Government in its 
most demanding roles; therefore, they should be assured that 
they will be the first in line for any Federal position for 
which they may qualify. Doing so is not only a moral 
obligation, it is wise economic policy from a national 
perspective.
    By virtue of their service, military veterans have already 
established that they are disciplined, task-oriented workers 
who are drug free.
    Veterans will break the potential to fortify any job 
market. But more than any other segment of the workforce, our 
Federal Government should be among the first employers seeking 
to fill those ranks with those who have served.
    I have in my notes examples of how preference is avoided, 
but I won't reiterate what Meg Bartley has so eloquently 
pointed out. And I will move toward closing by saying that the 
DAV urges the Subcommittee to support legislation that will 
restore the value of veterans' preference laws. These laws 
should be simple, unavoidable advantage for Federal employment, 
and there should be a clear procedure for veterans to appeal 
when consideration has not been afforded to their military 
service. Should a fellow job candidate be selected over a 
veteran based on greater credentials, it is proper. However, 
the hiring official must be able to state in specific and 
certain terms precisely why the veteran was less qualified than 
the job recipient.
    Madame Chair and Members of the Subcommittee, that 
concludes my statement. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Lawrence appears on p. 59.]
    Ms. Herseth Sandlin. Thank you, Mr. Lawrence.
    Thanks to all three of you.
    Let me just start with a question that I had raised with 
the first panel and I am going to pose to all of you. I think 
some of you have addressed it to a degree. Is there a consensus 
among the three of you that we have to figure out a better way 
for a veteran to be better informed of his or her employment 
rights, particularly as these relate to veterans' preference?
    Mr. Guffey. There needs to be stronger exit counseling. I 
realize we have a professional Army or military at this time, 
and they are not expecting people to leave, but X amount of 
people do leave and there needs to be better exit counseling.
    Ms. Herseth Sandlin. I would agree with you on that point. 
We have addressed that point even as it relates to National 
Guard and Reserve when we have mobilized them more over the 
years. In doing that, in terms of the exit interview or 
counseling, we also know that sometimes there is so much 
information coming at somebody retiring out of active duty or 
leaving National Guard or Reserve service. We have also 
inquired about the importance and the need for some follow-up, 
6 months down the line or some regular reminder. Particularly 
perhaps for some of our younger veterans who are looking at 
different options and maybe more of a state of transition, 
especially if they are not coming back to families.
    I worry in particular, as some of you mentioned, about some 
of the younger veterans who are falling through the cracks. Let 
me go specifically to the veterans' preference laws.
    One, do you think they need to be updated? In updating 
them, do they need to be both simplified and expanded? Or would 
we be better served to first update them in a way that 
simplifies and focuses on those making the hiring decisions 
before we expand veterans' preference? I'm interested in your 
thoughts on how we go about better implementation.
    Mr. Lawrence. I think you are right. They are outdated. I 
mention the 5 and 10 point preference, and that was based on 
the test that used to be given for Federal employment. To my 
understanding, a lot of those agencies don't even have a test 
that is based on a 100-point system. So a 5- or 10-point 
preference is really meaningless outside of that context.
    But I think you were right in what you said to the last 
panel, the need to kind of gather the people at the--
authorities on this and find a simple way of having the 
veterans' preference that can't be avoided and somebody that 
knows, you know, more about hiring process than I do, or is 
familiar with the Federal hiring process.
    Mr. Guffey. Within the Postal Service in the hiring 
process, I don't see the problems that other people have. We 
have a large industrial workforce, and many people are hired at 
the same type of job at the same time, and veterans get the 
preference and that works out great.
    Where we do have a problem with the Veterans' Preference 
Act, where I think it may need to be updated, is in that area 
where it lists specific jobs that are reserved specifically for 
veterans, and where those jobs are basically defunct and other 
situations where some of those jobs are being contracted out 
and not being reserved for veterans.
    So there could be new jobs added and changed out and what 
have you.
    Ms. Burke. I agree with what has been said already. I don't 
think it should matter if you are a physical therapist or what 
kind of appointment authority that you come into the Federal 
service with. There should be administrative redress ability 
for all employees, who are veterans.
    Ms. Herseth Sandlin. Also, Mr. Guffey, specifically with 
the Postal Service, are you aware of what reasons the Postal 
Service is giving for contracting out those positions?
    Mr. Guffey. Generally speaking, it is economics. I mean, 
the Congress has put special provisions on the Postal Service 
and our ability to compete in different things. And they have 
to find different ways to save money and what have you.
    I don't think--I don't think it is a retaliation. I don't 
think there is anyone in the Postal Service who has a bone to 
pick with veterans or anything like that, like the other 
witness testified to. Once again, when you come into the Postal 
Service--and we have a union, and the union rules. There is 
nothing subjective about promotions within the area that we 
represent; it is all objective and very set rules. So no one, 
veterans or any other group, can be discriminated upon based on 
their service.
    Ms. Herseth Sandlin. Where are they contracting out most of 
the positions? Is it rural mail delivery?
    Mr. Guffey. Custodial positions in rural areas and suburbs 
and what have you. Those are jobs that may not sound great, but 
they are great entry level positions to positions of very high 
level within the bargaining units, all the way to level 12s 
that does electronic technician work. Those are the entry level 
positions, and they are very coveted positions.
    Ms. Herseth Sandlin. Thank you for mentioning the area 
where we could look at updating the Postal Service has been the 
fact that some of the jobs that have been specifically 
designated are now defunct in terms of----
    Mr. Guffey. There are not many elevator operators left in 
this country.
    Ms. Herseth Sandlin. Right. Well, I appreciate your 
responses to those questions.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madame Chair. I don't have a lot of 
questions.
    Mr. Lawrence, can you tell me--and I know you can say 
specifically for yourself about the relationship that the 
Veterans Service Organizations (VSOs) have with OPM? Is it a 
good one or a bad one?
    Mr. Lawrence. Yeah, I don't think there is any animosity 
between the VSOs and OPM that I am aware of.
    Mr. Boozman. Do you all meet regularly?
    Mr. Lawrence. We have at least quarterly meetings over at 
OPM.
    Mr. Boozman. Okay. Thank you all very much for your 
testimony. It is helpful. You don't get to go yet, though. You 
are just done with me.
    Ms. Herseth Sandlin. We have also been joined by another 
colleague, the gentleman from New York, Mr. Hall.
    Let me go to Mr. McNerney for any questions he has of the 
panel, and then we'll recognize Mr. Hall for his questions.
    Mr. McNerney. Thank you, Madame Chairwoman. First of all, I 
want to thank Mr. Guffey for his comment about the service that 
he sees at the VA now. He or she is treated with a lot of care 
and just a lot of basic desire to do good for the veterans.
    And I am not sure what it is like to sign up for veterans' 
benefits; that is another story. Once you are in the program 
and in the hospital, they do take care of you. And if they 
don't, we need to know about that especially.
    Ms. Burke, how many positions do you think have been lost 
to outsourcing? Is that a widespread problem that we need to be 
concerned about or are there just specific cases here and 
there?
    Ms. Burke. Traditionally, we have used the quote about 
four-fifths of the jobs that have been targeted for outsourcing 
are held by veterans. Our fellow panelist has mentioned there 
are some targeted positions that are reserved especially for 
preference eligibles, but I think it would be a good idea to 
update that and take a look at that. What I think veterans who 
are highly service connected need are more simple jobs to get 
them used to showing up for work every day, just the routine of 
social interaction and so forth.
    Mr. McNerney. Thank you.
    This outsourcing is kind of hard to get your hands around. 
Mr. Guffey, do you think that the jobs that are outsourced are 
targeted as being veterans jobs?
    Mr. Guffey. No, I won't make that comment against the 
Postal Service because we have a union, and we represent the 
people well, and those jobs are reserved for veterans. We have 
probably disproportionately--those jobs pay very well, and they 
believe--compared to the jobs in the private sector.
    So it becomes more economically favorable for the Postal 
Service to contract out those jobs as opposed to hire someone 
for those jobs. And we just don't believe that is a good public 
policy issue when the Postal Service is supposed to be the 
ideal employer, set up as a model employer.
    Mr. McNerney. Okay. So a lot of it is just the evolution of 
the postal system, a lot of the jobs are going to be outsourced 
anyway. Although I don't agree with outsourcing postal jobs, 
but--I will make that little plug--there is nothing specific 
about veterans' positions, in your opinion anyway?
    Mr. Guffey. No. I don't believe anyone in the Postal 
Service is targeting veterans. I believe that it is just a 
position that happens to be one of the reserve positions that 
they contract out in great numbers.
    Mr. McNerney. Mr. Lawrence, what is the most common 
complaint you receive from veterans that are having problems in 
placement?
    Mr. Lawrence. Well, as I said, there are a number of ways 
that veterans feel their preference was avoided. They feel that 
they lose out to Outstanding Scholar Program picks or other 
special interests; or if, you know, the job order, if that is 
the right terminology, was just canceled altogether. A position 
was posted and they applied for it, and they felt that they 
were leading the certificate and then the job was just 
cancelled. And that is, to my understanding, a legal way of 
avoiding granting the job to the preference eligible. But 
veterans really just don't know.
    The anecdotes I have heard, you know, they check the 
veterans' preference box and, you know, they are getting a 
notice back that they weren't selected and they have absolutely 
no idea why. I mean, they don't know who to appeal to. They 
don't know what good it did to check the veterans' preference 
box in the first place.
    Mr. McNerney. So, it is not a real targeted area then 
either. In terms of----
    Mr. Lawrence. No, I think there is an array of areas that 
needs to be looked at.
    Mr. McNerney. Thank you. That is all my questions.
    Ms. Herseth Sandlin. Thank you, Mr. McNerney.
    Mr. Hall?
    Mr. Hall. Thank you, Madame Chair. And I just have a couple 
of questions.
    Mr. Guffey, if you could, what are the others of the six 
jobs that are reserved by 5 U.S.C. Sec. 3310 for veterans? I 
have heard you mention custodial services and elevator 
operators.
    Mr. Guffey. Elevator operators is a job that has 
disappeared. I would probably have to turn and get some help 
from someone else.
    It is custodial, it is mechanical--it is junior-type, 
mechanic-type jobs that are reserved and two or three other 
defunct jobs.
    If you want to know exactly what they are, I can turn 
around and ask real quick.
    Mr. Hall. I would like to know, sure.
    Mr. Guffey. Yeah, messenger and guard and those types of 
jobs have disappeared.
    Mr. Hall. Veterans would make good guards.
    Mr. Guffey. Obviously.
    Mr. Hall. Probably better than, or at least as good as, 
those that would be contracted by an outsourcing company. Well, 
I will just state for the record that I oppose the outsourcing 
of these jobs, as well; probably because they should be 
reserved for veterans, and we don't seem to have a mechanism to 
make sure that if they are outsourced, the contractor hires 
veterans for those positions. Maybe that could be specified.
    But I wanted to ask, because you had mentioned in your 
testimony that the VA estimates there are approximately 200,000 
homeless veterans on the streets every night. In my district of 
New York, the 19th District, which includes one of the 
wealthiest counties in the country, WestchesterCounty, where it 
is estimated that 23 percent or so of the homeless population 
on any given night is made up of veterans--and maybe Mr. 
Lawrence you might be in a good position to respond to this.
    But all of you, do you think that the Capital Asset 
Realignment for Enhanced Services (CARES) Commission has 
considered homelessness adequately in looking at the use of VA 
facilities and the reduction of VA facilities or the disposal 
of some of them to other purposes?
    Mr. Lawrence. I am not sure I understand. Has the VA 
addressed----
    Mr. Hall. There are a lot of ways to address it, but one of 
them would be to use facilities that are--like, for instance, 
we have in my district the Montrose VA Hospital, which has at 
least five empty buildings. There are proposals by Westchester 
County and by the town of Cortland and by veterans groups, the 
Montrose Elders being one, of all veterans that came up with 
the proposal for independent living, assisted living and 
nursing care, transitional care for homeless veterans while 
they are training for a job, et cetera, to be--you know, these 
buildings to be, which are currently standing empty, falling 
into disrepair--and my understanding is they are about to be--
the CARES Commission may be about to sell them off because it 
is invaluable real estate on the Hudson River.
    You know, I would just--my own personal opinion is these 
things, these properties should be used only for the care of 
veterans. And I am just curious if you--what your opinions 
might be about that in terms of whether they have been--the 
homelessness problem has been looked at adequately by CARES?
    Mr. Lawrence. I think the VA has found it more effective to 
provide grants to homeless veteran operations that are up and 
running. And I think there was a proposal--and I don't know if 
this could be a similar problem, where your district is, but 
Balboa Hospital in San Diego, there was a proposal to use the 
old hospital for a homeless veterans shelter, and it wasn't 
Earthquake proof, wasn't up to standard; so that was denied.
    I have no clue as to what reasoning might be behind not 
using the buildings in your district, but it could be something 
along that line.
    Mr. Hall. I understand there are various ways of dealing 
with the problem, and this may not be the best one. I just, off 
the top a little bit, but I wanted to get your expert 
observations on that.
    And last I just wanted to ask, Ms. Burke, if you would 
say--in your observation, is the outsourcing succeeding in 
improving the government's bottom line or are the contractors 
merely building a profit and paying less to the people that 
they are hiring?
    Ms. Burke. Well, what I would like to say in regard to that 
is, really, my personal experience with veterans who are on 
compensated work therapy programs that, I think--I think if I 
even personally ask them, would you rather have a Federal 
Government job or work for Goodwill Industries, which has taken 
over a lot of these cleaning, custodial type of jobs, and 
overwhelmingly he would say, I would rather have good health 
benefits and possibly Federal employment.
    I think that is the design and the purpose of these 
programs. It is to allow the government to serve as a role 
model, a safety net for these people who are in a fragile 
state.
    Mr. Hall. We would like to think so. Thank you very much.
    I yield back, Madame Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Hall.
    We have also been joined by Mr. Donnelly of Indiana. I 
would ask Mr. Donnelly if he has any questions or comments?
    Mr. Donnelly. No, thank you, Madam Chair.
    Ms. Herseth Sandlin. I have one last question. A simple 
response, yes or no. Would you agree with this statement?
    Does the Office of Personnel Management need additional 
resources to be the agency of primary responsibility, to 
continue to be, to ensure that veterans' preference laws are 
fully implemented; and not just abdicate that responsibility by 
going to the agencies and having the agencies give a short 
response to the issue of veterans' preference if there is a 
complaint that has been filed?
    That is a very convoluted question.
    Do you disagree with the statement that OPM needs 
additional resources to ensure adequate implementation of these 
laws?
    Mr. Lawrence. Yes, I agree. And I had in my written 
statement that vets also need additional resources to be able 
to investigate such cases.
    Ms. Herseth Sandlin. Both OPM and vets. I know you had 
mentioned OPM in your testimony, but vets as well?
    Mr. Lawrence. Yes.
    Mr. Guffey. I would say yes and no. In the areas where we 
represent the veterans once they come in and their promotions 
and everything, I say no.
    Once they leave the umbrella of the union, move up into 
management and how the selection process occurs in management 
and beyond our union control, they may very well be, but I am 
not very familiar with it. They may need the additional 
resources.
    Ms. Burke. I think oversight definitely is helpful in a 
reporting-back system so we get better data than we are getting 
right now. I also think that the laws need to be changed to 
cover all employees or applicants.
    Ms. Herseth Sandlin. Thank you. I appreciate your testimony 
today. There may be some questions from other Subcommittee 
Members that we would submit to you in writing.
    Thanks again.
    I now invite Panel 3 to the witness table. Joining us on 
our third panel of witnesses is the Honorable Neil McPhie, 
Chairman of the U.S. Merit System Protection Board; Ms. 
Patricia Bradshaw, Deputy Under Secretary of Defense for 
Civilian Personnel Policy for the U.S. Department of Defense 
(DoD); and the Honorable Boyd Rutherford, Assistant Secretary 
For Administration for the U.S. Department of Agriculture 
(USDA).
    Thank you for joining us today and for your written 
testimony.
    We will go right to Mr. McPhie and recognize you if you are 
ready. Again, everybody's written statements will be made part 
of the record in their entirety. You are recognized for 5 
minutes.

   STATEMENTS OF HON. NEIL A.G. McPHIE, CHAIRMAN, U.S. MERIT 
  SYSTEMS PROTECTION BOARD; HON. PATRICIA S. BRADSHAW, DEPUTY 
 UNDER SECRETARY OF DEFENSE (CIVILIAN PERSONNEL POLICY), U.S. 
 DEPARTMENT OF DEFENSE; AND HON. BOYD K. RUTHERFORD, ASSISTANT 
  SECRETARY FOR ADMINISTRATION, U.S. DEPARTMENT OF AGRICULTURE

               STATEMENT OF HON. NEIL A.G. McPHIE

    Mr. McPhie. Thank you, Madame Chair. Glad to be here with 
the Subommittee Members. I am Neil McPhie and I am the seventh 
Chairman of the Merit System Protection Board. And I ask that 
my official statement be submitted for the record.
    Today I will give a short description of the MSPB structure 
and operations, a summary of the most common veterans' 
preference issues that the Board considers in the course of 
deciding cases and a review of some of the findings concerning 
the employment of veterans.
    The Board is an independent, quasi-judicial agency in the 
executive branch, whose main responsibilities are deciding 
individual cases arising under the civil service laws and 
performing studies of the civil service. The Board has three 
members appointed by the President and confirmed by the Senate 
who serve staggered 7-year terms.
    Cases are first filed in one of the agency's eight regional 
offices, where an administrative judge considers the evidence 
and renders an initial decision. Either party can seek review 
of the decision before the full board. The Board receives about 
7,000 cases in its regional offices every year, and in about 20 
percent of those cases, roughly one-fifth, one of the parties 
files a petition for review which comes before the full board 
in Washington, D.C.
    Regarding the subject of the hearing, veterans' preference 
in Federal employment has existed in some form since the Civil 
War era. The Veterans' Preference Act 1944 consolidated 
veterans' preference rules found in prior laws, regulations and 
executive orders. The 1944 act remains the main source of 
veterans' preference rights to this day.
    Veterans' preference rules apply in two major areas, 
reduction in force or RIFs and hiring. Since its creation in 
1978, the MSPB has had the authority to resolve veterans' 
preference issues in the RIF context as part of its general 
jurisdiction over RIF appeals.
    There does not appear to be much confusion over how 
veterans' preference operates in RIFs. In fact, the Board has 
not received large numbers of RIF cases in recent years. The 
last reported RIF case was back in the nineties.
    Veterans' preference in hiring is another matter. The 
Veterans Employment Opportunities Act (VEOA) became law in 
1998. That act for the first time gave the Board the power to 
decide cases brought by preference eligibles and certain other 
veterans who allege a violation of their employment rights. 
Since 1998, the Board has received approximately 1,600 VEOA 
cases, most of which have been filed by unsuccessful applicants 
for Federal jobs.
    The most common claims that the Board sees in VEOA cases 
are that the hiring agency failed to conduct a competitive 
examination with written ranking and veterans' preference 
points, failed to correctly apply veterans' preference rules in 
a comparative examination, failed to provide veterans' 
preference in a promotion action, denied a veteran the right to 
compete for a vacancy and improperly cancelled a vacancy 
announcement.
    As a neutral adjudicator, the MSPB has been hesitant to 
maintain statistics on the success rates for individuals who 
bring cases. However, the MSPB would certainly be willing to 
consider developing a data collection system for VEOA cases if 
Congress prefers that this information be gathered.
    I would like to emphasize that the Board decides only those 
cases that individuals choose to file and ordinarily addresses 
only the arguments raised in those cases. The Board's Office of 
Policy and Evaluation does perform studies of the civil service 
and has gathered some noteworthy information concerning the 
hiring of veterans by the Federal Government.
    For example, in fiscal year 2005, 18 percent of the new 
hires in full-time, permanent, professional and administrative 
jobs at GS-5, -7 and -9 levels were veterans. The rate of 
hiring veterans for entry level positions, which includes 
technical and blue collar operations, was 21.5 percent.
    In higher level positions, that is, grades 12 through 15, 
42 percent of all hires in fiscal year 2005 were veterans, 
which is a 12-percent increase from the level of veteran hiring 
in fiscal year 2001. About 55 percent of veterans hired for 
upper level positions in fiscal year 2005 were appointed under 
the authority of the VEOA, which requires agencies to allow 
vets to compete for vacancies that would otherwise have been 
closed to non-status, outside candidates. The total number of 
veterans appointed under the VEOA in 2005 was 3,132.
    The MSPB has not yet undertaken any study aimed at 
determining the extent to which agencies are following 
veterans' preference rules. Furthermore, I would not be 
comfortable venturing an opinion on how well agencies are 
following veterans' preference rules based on results of 
individual cases that are brought before the MSPB. The MSPB 
will be happy to work with Subcommittee Members and their 
staffs to discuss the potential for any study topic along those 
lines.
    The MSPB feels secure in its record of being a neutral, 
objective adjudicator of cases. We take the law as we find it. 
We try very hard to get it right. And I will tell you about--of 
the cases appealed to our reviewing court, the Court of Appeals 
for the Federal Circuit, 93 percent of those cases across the 
board are affirmed. We think we are getting most of them right.
    I am happy to take any questions you may have.
    [The prepared statement of Mr. McPhie appears on p. 60.]
    Ms. Herseth Sandlin. Thank you, Mr. McPhie.
    Ms. Bradshaw, you are recognized for 5 minutes.

             STATEMENT OF HON. PATRICIA S. BRADSHAW

    Ms. Bradshaw. Thank you, Madame Chair and Members of the 
Subcommittee. Thank you for the invitation to be here today. I 
appreciate this opportunity to discuss the Department of 
Defense views on veterans' preference as it applies to 
employment and our successes.
    The DoD values the expertise and commitment of our service 
members, and we place special emphasis on supporting our 
wounded service members. We currently have over 227,000 
veterans with preference working for the Department or about 
one-third of our DoD civilian workforce. As the largest Federal 
employer of veterans, we are committed to providing employment 
opportunities as civil service employees for the men and women 
who have served so honorably on behalf of our Nation.
    We recognize that the transition from military service to 
civil service can be challenging. To ease this transition, the 
military components--the Army, the Navy, the Air Force, as well 
as the Coast Guard--in coordination with the Department of 
Veterans Affairs, the Department of Labor (DoL) and the Office 
of Personnel Management provide comprehensive assistance and 
support to separating veterans, including preseparation 
counseling, benefits, job coaching, resume writing and 
information on employment opportunities not only in the 
Department of Defense but also the rest of government and the 
private sector.
    Within the Federal authorities, there are three special 
appointment authorities available to all Federal agencies that 
are primarily used by the Department of Defense to appoint 
eligible veterans. The first one, with which I am sure you are 
familiar, is the Veterans Recruitment Appointment, or the VRA, 
which is an authority which is used to fill both permanent and 
temporary positions noncompetitively up to the GS-11 level or 
equivalent. To date in fiscal year 2007, DoD has hired almost 
11,000 vets using this authority. That is out of 109,000 hires 
to date.
    The second authority is the 30 percent or more disabled 
veteran hiring authority. This authority can also be used to 
fill both temporary and permanent positions noncompetitively. 
This authority, however, has no grade level restrictions, and 
the veteran must have a compensable, service-connected 
disability of 30 percent or more. To date, fiscal year 2007, 
about 2,200 vets have been hired under this authority for a 
total of 33,681 veterans with a compensable service disability 
of 30 percent or more currently working for the department.
    The third authority is the Veterans Employment Opportunity 
Act, or VEOA, which provides veterans with the opportunity to 
apply under merit promotion procedures when the agency is 
recruiting from outside its own workforce. There is no grade 
limit limitation there either. And to date in fiscal year 2007, 
DoD has hired over 8,600 veterans under this authority. Again, 
approximately one-third, or over 227,000 employees of DoD 
civilians, are veterans with preference. Of that total, 34 
percent are in GS-9 or above positions in a variety of 
occupations. It is also noteworthy that currently 24 percent of 
our career SES members are veterans.
    The Department is actively engaged in a targeted 
recruitment program that we call Hiring Heroes. The goal of the 
Hiring Heroes career fairs is to inform and educate our wounded 
service members on the various employment opportunities 
available to them after they complete their military service, 
as well as to introduce them to potential employers and 
nonprofit organizations that can offer assistance to them 
during their transition. The fairs provide a unique environment 
where our service members can meet face-to-face with employment 
recruiters, learn firsthand about jobs and career choices and 
establish connections with potential employers. Typically, 50 
to 70 organizations, including State and local governments, 
nonprofits and other Federal organizations, participate in 
these fairs. Generally lasting 2 days, the fairs provide our 
service members with technical workshops covering a variety of 
topics, resume writing, job interview skills, other benefits to 
which they are entitled.
    To date we have held 11 job fairs. Nine of them have 
actually been held at medical treatment facilities. Two of them 
have been held offsite on military installations, but away from 
the military facilities in order to attract a greater area of 
veterans. The most recent Hiring Heroes career fair was held at 
the Marine Corps Air Station in San Diego, California. This 
location was ideal because Miramar is a central location in 
southern California and could target service members at Balboa, 
the hospital at Camp Pendleton, 29-Palms and any other service 
members in the area.
    While each job fair was a success, I would submit that this 
was the best. We had over 350 attendees, 70 employers. Of 
significance was the number of medical holdover patients from 
Balboa and the hospital at Camp Pendleton. These are the 
service members who are waiting for final evaluation and still 
in rehabilitation, but still looking at what will they do when 
they decide to get out. So while we expanded the audience to 
include any veteran in the surrounding area, we were able to 
concentrate on ensuring that the targeted audiences received 
particular attention.
    The most impressive part of this job fair was the 
coordination of efforts with the staff at Balboa and Camp 
Pendleton and their transition centers, which are staffed by 
Department of Defense, Navy, VA and Department of Labor-funded 
State government personnel to provide transition employment 
assistance services. The collaboration efforts for these 
centers can serve as a model for how we can structure others to 
successfully coordinate member transition preparation.
    As a result of this specific career fair, 50 onsite job 
offers were extended and employers advised us that they planned 
to extend approximately 191 additional ones immediately 
following the event.
    We continue to support our Hiring Heroes job fairs. We have 
our next one planned for this month at Madigan Army Center in 
Fort Lewis, Washington; another one at Brooke Army Medical 
Center at Fort Sam Houston.
    In addition to that, we have a multitude of Web resources 
as well online. We recognize that not everybody can show up at 
these job fairs. We have developed an interactive Web site 
titled Disabled Veterans: Opportunities to Use Your Abilities, 
and in my statement, you can find the Web site. It contains a 
section with clear and detailed answers to commonly asked 
questions regarding veterans' preference and the transition to 
civilian employment.
    Additionally, it contains information on scholarships, 
grants, loans, financial aid. Furthermore, more importantly, 
there is a section that provides information for our managers, 
those individuals who are making the decisions. Our managers 
are on the frontline and are able to help break the barriers to 
employment by thinking creatively and resourcefully and 
ensuring that they understand the rules. Within DoD, we have a 
wide range of occupations that offer disabled veterans diverse, 
challenging and rewarding careers.
    Ms. Herseth Sandlin. Ms. Bradshaw, are you close to summing 
up?
    Ms. Bradshaw. I am done.
    [The prepared statement of Ms. Bradshaw appears on p. 63.]
    Ms. Herseth Sandlin. Again, your entire written statement 
is made part of the record. Thank you.
    Mr. Rutherford, you are now recognized.

              STATEMENT OF HON. BOYD K. RUTHERFORD

    Mr. Rutherford. Thank you, Madame Chair, Ranking Member 
Boozman and Members of the Subcommittee. Thank you for the 
opportunity to come before you to discuss veterans' preferences 
and the success the U.S. Department of Agriculture is having in 
recruiting and retaining its veteran workforce.
    As you know, USDA is a leader in America's food and 
agricultural systems, helping the farm and food sectors operate 
in a highly competitive marketplace, to respond to changing 
consumer demands for high-quality, nutritious and convenient 
food in agricultural products. USDA also carries out a wide 
variety of services and activities related to the management, 
research and conservation of the Nation's agricultural 
resources.
    In carrying out its mission and achieving its goals, USDA's 
human capital is its greatest asset. As the Department's Chief 
Human Capital Officer, I have the duty to assure that USDA has 
the workforce capable to carry out the Department's mission.
    With a growing retirement-eligible workforce, USDA is 
compelled to design and implement a multifaceted approach to 
succession planning and recruitment that will ensure the 
continued existence of mission-critical talent pools. The 
challenge of an aging workforce is exacerbated by the increase 
in competition for skilled employees in an increasingly 
technical environment. The demand for people with expertise in 
information technology, public health and science-based 
technologies requires more attention toward effective 
recruitment training, retention and knowledge-transfer 
strategies. At USDA, we use these strategies to fill the more 
than 300 different job series that include everyone from 
firefighters to research scientists, agricultural economists to 
food inspectors and veterinarians, as well as procurement and 
human resources professionals.
    To attract a diverse and highly skilled workforce, USDA 
markets itself as an employer of choice. All USDA job 
opportunities, including announcements identifying 
noncompetitive appointing authorities and merit promotion 
authorities for veterans, are posted on OPM's USAjobs.gov Web 
site. All vacancy announcements post name and telephone numbers 
for applicants to contact if they want to obtain reasonable 
accommodation for any part of the application process. Vacancy 
announcements are also sent weekly to State employment 
services, various veterans organizations, rehabilitation 
agencies to help alert veterans to career opportunities with 
the USDA.
    I have become personally involved in the Coming Home to 
Work Initiative, which is sponsored by the Veterans 
Administration in their vocational rehabilitation and 
employment program. This initiative places special emphasis on 
assisting Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF) service members.
    Through the Coming Home to Work Initiative, civilian work 
experience is made available to these eligible service members 
pending their medical separation from active duty at military 
treatment facilities. Through these positions, we hope to 
provide not only work experience to our Nation's veterans, but 
a stepping stone to permanent positions in the Federal 
workforce.
    Our human resources offices continue to use various 
electronic resume databases to establish contact with a variety 
of veterans' programs, as well as attend veterans, or I should 
say, attend job fairs that target veterans. However, in many 
instances we find that our own veteran employees tend to be our 
best recruiters.
    I am pleased to report that of the 108,000-plus USDA 
employees, 10.6 percent, or 11,000, are veterans of which 6,700 
occupy positions at GS-9 salary levels or above. In 2006, USDA 
hired 21,000 new full-time employees, of which 1,332 were 
disabled veterans.
    But statistics and recruitment efforts do not tell the 
whole story. In 2003, Steve Dickerson was just completing his 
Masters' program in social work at the University of Nevada, 
Reno, when he came to the attention of our Forest Service 
recruiters. Mr. Dickerson is a Vietnam vet who was injured 
during the war in an aircraft incident that left him blind and 
requiring a wheelchair for mobility. In spite of his injuries, 
he returned to school earning his undergraduate degree and went 
on to pursue a Masters' degree as well.
    USDA's Forest Service recognized Mr. Dickerson's potential 
and referred him for vacancies within the agency. He was 
eventually hired in a competitive selection in our Forest 
Service's intermountain regional office in Ogden, Utah. Mr. 
Dickerson is a valuable member of our family not just because 
he is a veteran, but because of who he is and what he has 
accomplished and what he continues to contribute to the agency.
    At USDA, veterans' preference is not only the law, it is an 
honor and a commitment we make to our Nation's heroes who have 
sacrificed so much to keep this Nation free and safe.
    Thank you very much.
    [The prepared statement of Mr. Rutherford appears on p. 
65.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Rutherford. I 
appreciate your testimony. I serve on the Agriculture Committee 
as well, so I have a few questions about what USDA has been 
doing on the veterans' preference issue.
    I would like to start with Ms. Bradshaw, if I might. I also 
understand that you are a South Dakota native; is that correct?
    Ms. Bradshaw. I have lots of family in Aberdeen.
    Ms. Herseth Sandlin. Oh, very good. My family is from that 
area as well. A lot of what I heard in your testimony is what 
we offer to service members who are transitioning through the 
Transition Assistance Program (TAP), which I don't believe is 
mandatory, save for the Marines. I appreciated a lot of what 
you were saying in terms of these fairs that you are hosting 
and how successful those have been.
    Are you aware of whether or not the Federal agencies and 
their State or county offices have been invited to participate 
in the fairs?
    Ms. Bradshaw. Yes, ma'am, they are. We are very closely 
connected. Every time we hold a fair, the VA is invited, Labor 
Department and OPM.
    The reason I highlighted Miramar is because it was unique, 
and I can share with you more specifics. But every place we go, 
all of these agencies--we are joined together in making sure 
that the local folks know about that.
    Now, whether they send someone every time, I can't really 
tell you. But I am sure we have representatives at least from 
the----
    Ms. Herseth Sandlin. From those four agencies?
    Ms. Bradshaw. Yes.
    Ms. Herseth Sandlin. Say, for example, that we had a TAP 
program at Ellsworth Air Force Base in western South Dakota. If 
there were other Federal agencies, say the U.S. Department of 
Agriculture, that have a presence either through their State 
office being invited or the county offices that might have 
vacancies, are other Federal agencies being invited that have a 
presence near or in the region of the base?
    Ms. Bradshaw. There are two things. There is the TAP 
program, which is the Transition Assistance Program, and that 
is now--that was an initiative that was started by the Defense 
Department actually in the early nineties, and fortunately I 
was around then when we were actually drawing down--and now I 
understand the Department of Labor actually has ownership of 
that--and the objective of that is the resume writing, the 
preseparation counseling. It is strictly that.
    The job fairs about which I was speaking are ones that the 
Department of Defense run, and we do a front end that looks 
like the TAP, but we target earlier while people are still on 
active duty. It is a much more--again, we started out targeting 
our wounded and injured folks because we could get to the 
medical treatment facilities where individuals, like I said, 
are still in medical holdover. But State, local, county, every 
level of government is invited to send people to the job fair 
portion of that. So that is the actual opportunity for them to 
hire.
    The TAP piece is run and is available to--I don't know that 
the Marines do not require it, but it is available to every 
exiting service member.
    Ms. Herseth Sandlin. Great, and I appreciate that. We are 
very familiar with the TAP program, but I was specifically 
asking about the fairs. My recommendation would be, if they 
have been successful, to help with the particular issue that we 
are focused on today: veterans' preference rights. I think it 
would be helpful to make sure that other Federal agencies that 
have a presence be invited to the job fair, because even if you 
have many employers locally, it is particularly helpful when it 
comes to veterans' preference rights to have any Federal agency 
that has a presence locally be invited, as well, outside of 
just those four.
    Ms. Bradshaw. Yes. And that is the case. I apologize; I was 
focusing on the State and local. But it is every Federal agency 
is invited if they care to come.
    Ms. Herseth Sandlin. Okay.
    I am sorry I cut you off--we have one more panel. I 
appreciated you referencing the Web site. As we know, a Web 
site can be a very helpful tool for people who can't get to the 
fairs. I know that even with TAP having recently become an 
electronic format for people to utilize, there are always a few 
bumps to iron out whenever you make that transition; and I have 
been informed that even as of today, there are a number of 
links that aren't working on the DoD Web site. We wanted to 
just bring that to your attention.
    Ms. Bradshaw. Which one is it, the DoD----
    Ms. Herseth Sandlin. It is the www.DoDvets.com. The links 
that evidently weren't working earlier today are the Search For 
Jobs link, various DoD agency links, Defense Intern link, 
Montgomery GI bill Selective Reserve link, Army Training and 
Leadership Development link and others. We wanted to bring that 
to your attention.
    Ms. Bradshaw. Thank you.
    Ms. Herseth Sandlin. Maybe there is something that happened 
in the last few days that is causing those problems. I am not 
sure if that is something that has been a recurring problem, 
but we know how important the tool is.
    Let me ask Mr. McPhie--and this goes to the issue of how 
well, as Ms. Bradshaw stated in her testimony, when you have 
got a third of the civilian workforce that are veterans in 
DoD--although I may come back to Ms. Bradshaw and ask her about 
retention in that regard.
    Why is DoD so high and the rest of the agencies much lower 
when it comes to hiring from Veterans Employment Opportunities 
Act selections?
    Mr. McPhie. You are asking that of me, Madame Chair?
    Ms. Herseth Sandlin. Yes.
    Mr. McPhie. I don't know.
    Ms. Herseth Sandlin. But that is the case, right, that DoD 
appears to be much higher?
    Mr. McPhie. I couldn't respond. I just don't know. I don't 
have that information.
    Ms. Herseth Sandlin. I thought in your testimony you stated 
that DoD hired 86 percent of all of the Veterans Employment 
Opportunities Act selections.
    Mr. McPhie. No, I did not. I am unaware that I said that.
    Ms. Herseth Sandlin. I think you also stated--although I am 
going to have our Staff Director check--that 42 percent of new 
hires in 2005 were veterans.
    Mr. McPhie. Let me--I need some wiggle room for myself 
because it could be in my written testimony. May I inquire 
quickly?
    Ms. Herseth Sandlin. Yes. I am sorry. I maybe should have 
clarified that it came from your written testimony, page 6 of 
the written testimony.
    Mr. McPhie. I apologize. I see. I see. From our studies 
function, yes. We develop information from--I suppose from 
OPM's Web site and OPM's databases and whatnot, from which we 
do different studies.
    And you are correct in--let us see now, page 6.
    Ms. Herseth Sandlin. Perhaps you can take this question for 
the record and provide any explanation from the studies you 
have compiled to get that percentage. Any reasons that you 
believe can be documented or backed up with some evidence as to 
why DoD is much higher. According to pages 6 and 7 of your 
written testimony, which documents that DoD is responsible for 
86 percent of all of the hires under Veterans Employment 
Opportunities Act selections.
    Then we have another 10 percent on page 7 of your testimony 
from four other agencies.
    We have 96 percent of all of those selections coming from 
five agencies, and I am inquiring as to why the other agencies 
are so low.
    Mr. McPhie. And this is data as it exists. We haven't done 
a study as I said early on. So I can't really--anything I say 
as to why they have more, others have less would be speculation 
on my part. We have not done a study that is designed to answer 
the question of how well our agency is doing.
    I suppose a study would look at folks like DoD, that is 
doing, apparently, quite well, and try to figure out what they 
are doing that others are not and report objectively in that 
regard. But at this point in time, I mean, the data is the 
data. But I can't really tell you why.
    Ms. Herseth Sandlin. I think that is the issue that we have 
to get at and the issue we were exploring in some of the 
earlier panels. Is the issue one of complexity? Is the issue 
one of inadequate resources for hiring managers, as you 
mentioned at the beginning of your oral testimony today? I know 
you would be more than happy to work with us to find some of 
the answers to those questions and go beyond just the raw 
statistics to doing a study and perhaps comparing agencies' 
performance.
    Have you compiled where the complaints that come in to you 
regarding veterans' preference are coming from? Do you have a 
listing of the top five agencies in which there have been the 
most complaints filed on veterans' preference?
    Mr. McPhie. We don't keep information on veterans' 
preference in that regard. I suppose you could pull it out by 
massaging the records, but it requires some special effort.
    Again, you know, we have shied away from trying to develop 
success rates because we think that is a slippery slope.
    Ms. Herseth Sandlin. Do you share your information in terms 
of the agency that the complaint is directed at with OPM?
    Mr. McPhie. Well, we obviously--if a case is filed, it 
ultimately results in a written decision. And most of our 
written decisions are published and are readily accessible on 
our Web site.
    Ms. Herseth Sandlin. But no one you are aware of? You're 
not responsible, beyond publishing those written decisions, for 
maintaining any kind of tracking of the agencies that have had 
complaints directed at them? That would be--you don't do that?
    Mr. McPhie. Right. In fact, the way the system works 
governmentwide, there may be many more complaints in any area 
of Federal employment than we even are aware of, because if you 
know the process, it comes up; there is an internal 
conversation.
    I suppose if it is really bad, it is taken care of real 
quickly. So by the time we get a complaint, it is some--you 
know, some portion of the big universe of complaints.
    Ms. Herseth Sandlin. Right. Which is why, if they have come 
to that level, I think it is important to track which agencies 
may have a more problematic track record.
    I am going to turn it over to Mr. Boozman for some 
questions he may have. We would like to work with you to 
perhaps develop something that would better track these 
complaints once they rise to the level or make their way 
through the process to the point they get to you for a 
decision.
    Mr. McPhie. We would be happy to do that.
    Ms. Herseth Sandlin. Mr. Rutherford, I will come back, but 
I want to recognize Mr. Boozman.
    Mr. Boozman. I would agree with the Chair. You said it was 
a slippery slope in doing the tracking and that you didn't want 
to track success. But I guess the way I view it is just holding 
people and agencies accountable. That is what it is really all 
about.
    And I think that is to their benefit also and certainly it 
is to our benefit in the sense of having oversight and things 
like that and trying to find out how entities are doing. So you 
don't track veterans--they are not treated any differently than 
anybody else? Do you track anything?
    Mr. McPhie. No. There are some--and these data sets have 
existed for many years. And I know that it is always open.
    Recently, another issue came up, similar to this one, with 
respect to whistleblower cases. I asked the question, how many 
do we have? It is not a question easily answered given the way 
our data is kept.
    Similarly with----
    Mr. Boozman. Why keep the data if you can't use it?
    Mr. McPhie. We keep lots of data and there were decisions 
made many years ago as to--as an adjudicative agency, what are 
the kinds of data that would be necessary for MSPB's function.
    Now, data is kept in the Federal Government, lots of it. In 
fact, I have a complete department, the Office of Policy and 
Evaluation, which conducts studies. They study the merit 
systems throughout the civil service. We have to survey 
sometimes agencies governmentwide. And lots of time, we have to 
work with OPM and utilize their very extensive database and 
cull from their database lots of information.
    Now, with respect to our own case statistics, we are more 
case oriented, just like any court. We really pride ourselves 
in being set up as an adjudicative agency. So we come at it 
completely different.
    Mr. Boozman. So you do keep data on the outcomes of 
veterans, but it is just not readily accepted?
    Mr. McPhie. I could have somebody go through our data sets 
and cull from it outcomes. You would need some sort of a 
systemic fix to be able to put the query, get the answer and 
report it.
    Mr. Boozman. How many appeals did you have last year and 
how many were resolved in favor of veterans?
    Mr. McPhie. I couldn't tell you how many were resolved in 
favor of veterans. I couldn't give you that information. I 
could tell you--and if I brought--I brought some numbers with 
me, as I spoke; and I said, we do roughly 1,600 cases since 
1998, and that is only VEOA.
    There is another statute called the Uniformed Services 
Employment and Reemployment Act (USERRA). That is a whole other 
conversation.
    So there are two statutes that we administer for vets, 
USERRA and VEOA. But the number I have here is how many VEOA 
cases that we have done since 1998. That number is 1,600. I am 
not including USERRA, and it seems to me, from just my sense of 
it, USERRA is perhaps the one that is going to get more active. 
I have seen a little bit more activity around USERRA and that 
is for reemployment rights and for discrimination.
    Mr. Boozman. Maybe, Madame Chair, since the data is in 
there, maybe we could submit some questions along that line and 
maybe you could have your staff dig around and find out some of 
the specific things that we would like to know.
    Mr. McPhie. Absolutely. And let me be certain. We are not 
opposed to keeping data in any particular format. If the 
Congress decides that this is something it needs, it wants to 
see, we are more than happy to talk about how that can be done.
    [The information was supplied by MSPB in the responses to 
the post-hearing questions for the record, which appear on p. 
84.]
    Mr. Boozman. Thank you.
    Ms. Bradshaw, the Balboa model seems to be working well. 
Are there any plans to take and use that same model in other 
military centers?
    Ms. Bradshaw. We are hoping to expand that this coming 
year. Right now we have two planned, as I mentioned, at 
Madigan, which is a treatment facility; and the next one will 
be at Brooke. And this will be the third time we have been to 
Brooke, and we will continue to expand that.
    What was significant there--and I don't know exactly how 
the Army has built in their onsite assistance there, but it was 
the interaction of the VA, OPM, the local Department of Labor 
folks; and I know OPM has been working with us to add resources 
to some of these sites. So there certainly is opportunity, and 
we are looking at that.
    Mr. Boozman. Good. Thank you.
    And I also probably might have another question or two, but 
we will submit it.
    [No questions were submitted by Mr. Boozman.]
    Ms. Herseth Sandlin. Just one additional line of 
questioning, Mr. Rutherford. I appreciate your testimony.
    I am glad to hear some of the numbers that you provided 
today in terms of what USDA has been doing. How many veterans 
are in the Senior Executive Service?
    Mr. Rutherford. I don't have that number handy. Let me just 
check. I don't have that. But we can get that information to 
you.
    [The information was supplied by USDA in the response to 
question two in the post-hearing questions for the record, 
which appear on p. 88.]
    Ms. Herseth Sandlin. Okay. And how many veterans' 
preference cases hires, did the U.S. Department of Agriculture 
make in the last 3 years? Do you have that number available? If 
you could, take that for the record, too, if that is not 
readily available.
    How successful has the USDA been in recruiting veterans by 
sharing vacancy announcements with the American Legion and the 
VFW?
    Mr. Rutherford. We have been doing that. We will have to 
check to get that specific information for you.
    [The information was supplied by USDA in the response to 
questions one and three in the post-hearing questions for the 
record, which appear on p. 88.]
    Ms. Herseth Sandlin. How long have you been doing that?
    Mr. Rutherford. That has been done primarily in the 
individual agencies. But also, as we mentioned--or as I 
mentioned in the testimony, along with the posting--we send it 
to the veteran agencies.
    But I can see, we will have to get when we started doing 
that and how long it has been in place.
    Ms. Herseth Sandlin. That would be helpful.
    I am pleased to know of USDA's participation in the Coming 
Home to Work Program targeted to OEF and OIF veterans. Is that 
formally implemented now?
    Mr. Rutherford. It has been formally implemented. 
Initially, it was randomly done. As mentioned, some of our 
veterans knew about the program and went forward with it.
    I became aware of it back in March of this year and at that 
point started the process of working with VA to implement it, 
first within my department, but then throughout USDA.
    Ms. Herseth Sandlin. How many veteran employees has that 
generated thus far?
    Mr. Rutherford. We have only had one at this point, but it 
is just starting.
    Ms. Herseth Sandlin. Even when it was randomly implemented?
    Mr. Rutherford. That was the random one, yes. That was 
within my office, or I should say, within the offices that I 
manage.
    Ms. Herseth Sandlin. Okay. Well, I appreciate that. And if 
you could, get me those numbers. Some of the anecdotal evidence 
in the past doesn't rank the Department of Agriculture as high 
as I would like to see it in terms of veterans' preference 
rates in hiring veterans.
    Again, I appreciate these efforts. I am pleased to know 
that you are working more closely with the VA to get that more 
fully implemented.
    And the testimony you offered to date, the numbers 
themselves address in a different way, the anecdotal evidence 
we have received in the past. So I am pleased that you are here 
whenever we serve on different Committees given the number of 
county, and State offices and USDA's presence, and some of the 
concern that we have expressed on the Subcommittee as well as 
the full Committee with regard to veterans in more rural areas. 
I am just hopeful that--it sounds like under your leadership 
you will continue to be making efforts to ensure that that 
outreach for hiring veterans continues within the agency.
    Mr. Rutherford. Yes. We will work in that direction. I 
guess I am at somewhat of a disadvantage. And I hate to ask 
this, but I haven't heard the anecdotal evidence. But if you 
can provide that to me, we can look into that information as 
well.
    Ms. Herseth Sandlin. We will do so. Thank you. I thank the 
panel for your testimony.
    Mr. Boozman. One more thing, Ms. Bradshaw, before you do 
leave. With Mr. Tadsen's testimony, he implied that the Air 
Force Audit Agency was not doing a good job. I think he 
implied, maybe he is right that they weren't doing a good job 
of promoting veterans. Could you look and give the Subcommittee 
some data on the agency's hiring, promotion of veterans over 
the past 5, 10 years?
    Ms. Bradshaw. Specifically for the Air Force Audit Agency?
    Mr. Boozman. Yes, ma'am.
    Ms. Bradshaw. I will. I assure you I have taken a few notes 
myself. Absolutely.
    [The information was supplied by DoD in response to 
question one of the post-hearing questions for the record, 
which appear on p. 86.]
    Mr. McPhie. One clarification, if I may. Should I wait 
until I get some questions and then respond and start the 
conversation about data sets that way? Or do I----
    Ms. Herseth Sandlin. Yes. Our Subcommittee staff will be in 
touch with you following this hearing to talk about some 
additional information we would like to get and then work 
through some reporting system of sorts. As I was saying, I was 
involved a number of years ago in a study on communication 
between the courts and Congress on issues of statutory 
interpretation by Federal appellate courts in getting those 
interpretations and holdings back to the Committees of 
jurisdiction in the Congress. There is no ready reporting 
system in place even on that front. I think that as you have 
those cases, that are published, that we have got to set up a 
mechanism whereby we can see if there are trends given our 
oversight authority that we can more readily identify as you 
continue to take these complaints and make records of decision.
    Mr. McPhie. Sure. Thank you.
    Ms. Herseth Sandlin. Thank you. I appreciate Mr. Boozman 
following up with you, Ms. Bradshaw, on the particular issue 
that was raised by our witness in the first panel. Thank you 
all for being here, and we look forward to following up with 
you.
    Ms. Bradshaw. Thank you.
    [Additional information was supplied by DoD in response to 
the post-hearing questions for the record, which appear on p. 
88.]
    Ms. Herseth Sandlin. I would now invite our fourth panel to 
the witness table. I want to thank not only our third panel but 
certainly all of our panelists today and everyone's service to 
our Nation's veterans and working with us on a whole host of 
issues in this Congress and the previous Congress. I know that 
with Mr. Boozman's leadership we can work together to best 
implement the laws that we have enacted and to make changes to 
some of those laws if need be and some of the updating issues 
that we addressed earlier with the folks on the first and 
second panels.
    On the fourth panel, we have Anita Hanson, Outreach Group 
Manager for the U.S. Office of Personnel Management; Mr. John 
McWilliam, Deputy Assistant Secretary for Veterans' Employment 
and Training Service (VETS) for the U.S. Department of Labor; 
and Mr. Willie Hensley, Deputy Assistant Secretary for Human 
Resources Management and Labor Relations with the U.S. 
Department of Veterans Affairs. Welcome to the Committee. Thank 
you for being here.
    Ms. Hanson, we will start with you. You are recognized for 
5 minutes.

  STATEMENTS OF ANITA R. HANSON, OUTREACH GROUP MANAGER, U.S. 
   OFFICE OF PERSONNEL MANAGEMENT; JOHN M. McWILLIAM, DEPUTY 
ASSISTANT SECRETARY, VETERANS' EMPLOYMENT AND TRAINING SERVICE, 
U.S. DEPARTMENT OF LABOR; AND WILLIE HENSLEY, DEPUTY ASSISTANT 
SECRETARY, HUMAN RESOURCES MANAGEMENT, OFFICE OF RESOURCES AND 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                  STATEMENT OF ANITA R. HANSON

    Ms. Hanson. Good afternoon, Madam Chairwoman and Members of 
the Subcommittee. Thank you for the opportunity to appear 
before you today to discuss veterans' preference and the role 
of the U.S. Office of Personnel Management. I serve as the 
outreach group manager at OPM where I have the primary 
responsibility on behalf of Director Linda Springer for 
outreach to returning service members and to all our Nation's 
veterans on Federal employment hiring preferences they have 
earned.
    As a disabled Navy veteran, this is a topic I am very 
passionate about, and I am proud to serve my country and help 
my fellow veterans. Director Springer and all of us at OPM take 
very seriously our obligation to ensure veterans have full 
access to Federal civilian jobs following separation from 
military service. Our obligation is grounded in veterans' 
preference laws that have been the cornerstone of America's 
civil service since its beginning.
    Veterans' preference is also at the very core of OPM's 
mission, which is to ensure the Federal Government has an 
effective civilian workforce. I would like to take a few 
moments today to focus on our efforts across government to 
promote and preserve veterans' preference, as I work to educate 
veterans on Federal job opportunities as we help to prepare 
these American heroes for their transition from military 
service. As part of our oversight of human capital management 
responsibilities at OPM, we use an audit-based approach to 
ensure that competitive hiring practices used by Federal 
agencies comply with veterans' preference laws and merit system 
principles. Since 1996, when OPM began broadly delegating 
examining authorities to Federal agencies, we have conducted 
almost 1,200 audits of agency delegated examining units. All 
our audits cover all aspects of competitive examining including 
the application of veterans' preference. We also annually 
conduct human resource operations audits that examine a number 
of agencies' human resources programs, including competitive 
examining and the use of veterans' preference hiring 
authorities and practices. As part of every OPM audit, we 
rigorously examine recruitment actions, how applications are 
handled and processed and how selection decisions are made. We 
carefully examine whether veterans' preference was properly 
applied, and we review certificates of eligibles to see if 
there are patterns in how those certificates are used or not 
used that would indicate whether or not veterans' preference 
veterans are receiving legitimate consideration.
    For the past 2 years, OPM has been helping agencies 
establish sound internal accountability systems to ensure human 
resources programs operate within merit system principles and 
comply with veterans' preference laws and regulations. When 
agencies conduct their own audits, which are key components of 
these accountability systems, OPM actively participates to 
ensure compliance with laws and regulations, including the 
application of all aspects of veterans' preference. When we 
find violations of law or regulation, we take steps to ensure 
corrective action is taken. We can direct an agency to give a 
veteran priority consideration for the next job vacancy he or 
she is qualified for if we believe a veteran has been denied 
preference previously. If we find evidence that veterans' 
preference is knowingly denied, which is a prohibited personnel 
practice, we would then refer the matter to the Office of the 
Special Counsel or the agency's Inspector General. We may also 
withdraw an agency's delegated examining authority if we find 
systemic problems. In our experience, the vast majority of 
Federal agencies follow veterans' preference laws to the letter 
of the law. We typically do not see systemic violations of 
veterans' preference across an entire agency. When we do find 
problems, they tend to be isolated to a specific installation 
or organization and are typically caused by inadequate 
direction or lack of adequate accountability systems. OPM works 
diligently to make sure all Federal agencies understand the 
value and the importance of hiring those who have answered the 
call to duty. As you may know, we have predicted more than 60 
percent of the Federal workforce will be eligible to retire 
over the next decade. As such, we have an enormous recruitment 
challenge ahead of us where we simply cannot afford to overlook 
a talent pool as rich and varied as veterans. The dedication 
and professionalism of these men and women who have served in 
the armed forces are without equal. And members of the best 
trained military--volunteer military in the world, veterans 
have demonstrated an aptitude for excellence, hands-on 
experience and teamwork. OPM works directly with veterans to 
educate them on employment opportunities with the Federal 
Government. Our educational and recruitment initiatives provide 
veterans and agency hiring managers with timely and useful 
information on veterans' preference and Federal employment 
opportunities.
    Over the past 2 years, OPM has established veterans 
outreach offices at Walter Reed Army Medical Center in 
Washington, D.C., at Brooke Army Medical Center in San Antonio, 
Texas, and a third outreach office will soon open at Fort 
Carson, Colorado. As you know, work at these hospitals is aimed 
at helping the wounded veterans recover physically and 
psychologically as they transition back to civilian life. We 
provide these wounded veterans with Federal job information and 
counseling. We offer classes that teach resume writing and 
offer tips on how to translate military accomplishments into a 
set of documented knowledge, skills and abilities that can be 
used when applying for Federal jobs. Most recently, OPM hosted 
the first of its kind Web cast offering comprehensive 
information on veterans' preference rights and eligibility. A 
tape of the Web cast is now available to veterans and their 
families 24 hours a day, 7 days a week on OPM's Web site. Our 
most recent annual report to Congress in November 2006 
indicates that one out of every four Federal workers is a 
veteran. That is 456,000 out of 1.8 million; 93,000 of those 
veterans are disabled; nearly 50,000 of whom are seriously 
disabled, meaning they have a disability rating of 30 percent 
or more. It is clear from this report that the Federal 
Government continues to lead the Nation as the employer of 
choice for veterans and especially disabled veterans. And we 
expect this to continue to be the case when our next annual 
report is presented to Congress this coming November. We are 
particularly proud of our record at OPM where nearly 30 percent 
of our new hires have been veterans, making us a leader among 
independent Federal agencies. Your letter of invitation also 
asked OPM to discuss veteran retention rates. Our review of 
available data from 93 Federal agencies indicates on average 
88.4 percent between fiscal year 2005 and fiscal year 2006. 
Some of the highest retention rates are found in the Department 
of Veterans Affairs, the Department of Army and the Department 
of Homeland Security. Only 9 out of the 93 agencies we reviewed 
had retention rates less than 60 percent. We believe the 
numbers confirm that, on average, Federal agencies are 
succeeding in retaining veterans in the Federal workforce.
    Madam Chairwoman, I can see that I am out of time. My 
statement has been submitted to the record and contains 
additional information on OPM's outreach efforts and 
governmentwide activities. OPM is proud of its efforts to 
preserve and protect veterans' preference, and we are committed 
to making sure Federal employment opportunities are made 
available to our veterans. I am happy to answer any questions.
    [The prepared statement of Ms. Hanson appears on p. 67.]
    Ms. Herseth Sandlin. Thank you for your testimony, Ms. 
Hanson.
    Mr. McWilliam, welcome back to the Subcommittee. Good to 
see you again. You are now recognized for 5 minutes.

                 STATEMENT OF JOHN M. McWILLIAM

    Mr. McWilliam. Thank you, Madam Chairwoman and Ranking 
Member Boozman. I appreciate the opportunity to appear before 
you today to talk about the role of the Department of Labor in 
ensuring veterans' preference is applied in the Federal 
Government hiring process. We appreciate the interests of the 
Subcommittee in this very important benefit to veterans. First, 
let me say that we have a very close working relationship with 
the Office of Personnel Management. DoL works with OPM to 
implement and enforce veterans' preference in Federal hiring. 
We are both champions of veterans' preference. We believe that 
the Federal Government has an excellent record in hiring 
qualified veterans. Both agencies are committed to ensuring 
veterans receive all the rights and benefits to which they are 
entitled under Federal employment laws. Labor is responsible 
for investigating and attempting to resolve veterans' 
preference complaints against Federal agencies filed under the 
Veterans Employment Opportunities Act. We carry out our 
investigative responsibility through the use of trained 
investigators at each of our 52 State offices. To further 
support these efforts, VETS has entered into a memorandum of 
understanding with the Office of Special Counsel (OSC) in 
December of 2000. All meritorious cases are referred to OSC for 
review for potential prohibitive personnel practices. My 
written testimony provides detailed data on our investigations. 
We have seen a slight decrease in caseload this year.
    We believe this decline may be due to several initiatives: 
First, the efforts of the State employment specialists, the 
Disabled Veteran Outreach Programs (DVOPs) and the Local 
Veterans Employment Representatives (LVERs) and the Veterans 
Service Organizations in explaining veterans' preference to 
job-seeking veterans. Second, the Department's Employment Laws 
Assistance for Workers and Small Businesses program. This elaws 
program is a series of online advisors that provide easy-to-
understand information in a question-and-answer format. An 
advisor is available for veterans' preference. There is also 
one available for real lifelines for disabled service members 
that talks about veterans' preference. And finally, VETS focus 
on informing service members of veterans' preference during the 
Transition Assistance Program employment workshops. 
Participants receive information on the Federal hiring program 
and veterans' preference. Information on veterans' preference 
is also available in Turbo TAP, which is the new transition Web 
site that I believe the Subcommittee is very familiar with.
    Our data shows that most of our veterans' preference 
complaints filed with the Department have been determined to 
have no merit. In fact, only 3 percent result in a meritorious 
determination. We believe that is because many veterans just 
don't understand the Federal hiring process.
    In addition to our investigative responsibility, we conduct 
an extensive compliance assistance program focused on educating 
potential eligibles for the program and Federal agencies with 
regard to their rights and responsibilities. My written 
testimony provides answers to your specific questions regarding 
the numbers of veterans in various categories.
    Let me summarize by saying that DoL has a strong commitment 
to hiring veterans. Veterans constitute 17 percent of the total 
workforce and 75 percent of the VETS workforce. Veterans 
comprise 18 percent of the DoL workforce at the GS-9 level or 
above and 80 percent within VETS. Madam Chairwoman, this 
concludes my statement. I would be happy to answer any 
questions.
    [The prepared statement of Mr. McWilliam appears on p. 70.]
    Ms. Herseth Sandlin. Thank you very much.
    Mr. Hensley, you are now recognized for 5 minutes.

                  STATEMENT OF WILLIE HENSLEY

    Mr. Hensley. Thank you, Madam Chairman. Good afternoon, 
Madam Chairwoman, and Members of the Subcommittee. Thank you 
for your invitation to appear before the Subcommittee and to 
offer testimony on veterans' preference and the Department of 
Veterans Affairs success of recruiting and hiring veterans.
    Also, thank you, Madam Chairwoman, for entering my full 
testimony into the record. In the remaining time allotted, I 
would like to highlight the Department's commitment to hiring 
veterans. We believe that affording veterans their statutory 
preference in employment is not merely the obligation of a 
grateful Nation, it is good government and good business. It 
gives us an advantage in recruiting and retaining employees 
from a pool of the Nation's most highly motivated, disciplined 
and experienced preference veterans. In addition, establishing 
internal policies that address veterans' preference, VA Human 
Resources Oversight and Effectiveness Office evaluates 
compliance with veterans' preference laws, regulations and 
policies, doing onsite evaluations of human resources offices 
throughout VA. VA has focused on veterans' hiring for many 
years. We are able to track employment of veterans by 
facilities VA-wide. We have launched various programs and 
initiatives that have resulted in VA placing in the top tier of 
agencies employing veterans. As of July 31, 2007, over 77,000 
or 31 percent of VA's 250,000 employees are veterans. Over 
60,000 of the 31 percent are veterans' preference eligibles. 
And 19,000, approximately 8 percent, are disabled veterans.
    VA ranks first among non-Defense agencies in hiring 
veterans. VA regularly uses the special hiring authorities that 
target veterans, and we have also hired veterans using other 
hiring authorities as well. For example, in the first 7 months 
of 2007, VA hired 5,094 veterans' preference eligibles and 
another 729 nonpreference veterans. The Department has 
established a strategic target of 33 percent veterans in the 
employee population. One of the challenges that we face is the 
rate at which veterans are leaving the Department. While 
recognized by OPM early as having one of the better retention 
rates in government, the cohort of veterans who joined the 
Department of Veterans Affairs after the Vietnam War is now 
eligible to retire.
    In addition, younger veterans similar to other U.S. workers 
their age are frequently more mobile and change jobs and 
employers more often than many older employees. On average, VA 
has lost about 810 veteran employees a month during the last 12 
months. Countering these losses, we have on average hired about 
787 veterans a month during the past year. This has allowed the 
Department to maintain an overall employment rate of 31 percent 
over the last year. Nonetheless, we are concerned that VA loses 
too many veterans, especially veteran hires who are within 
their first year of employment.
    To identify the reasons why, we are developing a workgroup 
to research and develop solutions. In 2001, VA established a 
national Veterans' Employment Program within the Office of 
Human Resources and Administration to develop a VA-wide 
marketing and recruitment strategy for veterans and to provide 
veterans with information not only about employment 
opportunities in the Department but also about how to use their 
veterans' preference status. The National Veterans' Employment 
Program manager visits transition centers around the country, 
participates in military job fairs and attends military 
association and Veterans Service Organization conferences and 
meetings. Recently the Secretary asked each local VA facility 
director to appoint a veterans' employment coordinator to 
conduct outreach at local VA facilities and also to monitor 
their facilities' adherence to veterans' preference statutes.
    In 2006, VA initiated a series of meetings with the surgeon 
generals of the Army, the Air Force, the Navy to discuss how we 
might attract separating military health care professionals to 
health care employment opportunities in VA. We are currently 
working the details for full implementation of this initiative 
with the Air Force.
    In 2005, VA formally introduced to the Federal sector the 
Coming Home to Work program. Under this initiative, VA partners 
with the Departments of Defense and Labor to reach service 
members and veterans from Operations Enduring Freedom and Iraqi 
Freedom. Coming Home to Work provides civilian jobs, skills 
training, exposure to employment opportunities and work 
experience to service members pending medical separation. This 
program, now in place at eight major military treatment 
facilities, gives valuable practical assistance to separating 
service members as they prepare to enter the Federal and 
civilian workforce; 442 service members have participated in 
the program with the following results: 26 returned to active 
military duty; 10 were direct hires in VA; 23 are in work 
experience programs in VA; 201 are receiving early intervention 
services; 182 have transferred from military treatment 
facilities to local VA regional offices for vocational 
rehabilitation and employment services.
    In closing, Madam Chairwoman, every day at VA we see the 
sacrifices that veterans have made for our Nation. It is our 
responsibility and privilege to support their return to 
employment. We are committed to continue our successful focus 
on veterans' hiring in VA. Madam Chairwoman, thank you again 
for the opportunity to testify today. I am prepared to respond 
to any questions the Subcommittee may have.
    [The prepared statement of Mr. Hensley appears on p. 73.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Hensley.
    Ms. Hanson, if I could begin with you. Have you seen any 
patterns in any agencies over the last 5 years regarding an 
increase in the number of cancelations of certificates of 
eligibles?
    Ms. Hanson. We don't track the cancelation. We track the 
usage of or nonusage of certificates.
    Ms. Herseth Sandlin. Does any agency that you are aware of 
track the cancellations?
    Ms. Hanson. Not that I am aware of. Not the cancelations.
    Ms. Herseth Sandlin. Do you think we should track the 
cancellations?
    Ms. Hanson. I don't think it would give you enough 
information, just the number itself. You would have to look 
very deeply into what the reasons were behind it. You would 
have to understand--let me give you an example.
    Ms. Herseth Sandlin. No. I think I know what you are 
saying. But given that that would be the case, certainly you 
wouldn't be able to just--even in some of the other questioning 
we had of the previous panel, you would have to go in and get 
more information. Don't you think that would be worthwhile as 
it relates to being able to determine whether or not some of 
the concern expressed, particularly by the first panel, is 
warranted, that there is a practice, since the decisions of a 
few years ago would allow these cancelations?
    Ms. Hanson. Well, one of the things we do when we do 
compliance audits is we look at the application of veterans' 
preference in competitive hiring. So we look at just those 
issues. We don't track them per se, but we look at those issues 
when we go in and do compliance audits with agencies.
    Ms. Herseth Sandlin. Speaking of compliance audits, along 
the lines of Mr. Boozman's questions of Ms. Bradshaw in the 
previous panel, OPM is charged with conducting the periodic 
systemic reviews of agency hiring practices, which would 
include audits. When was the last time OPM visited the Air 
Force Audit Agency or the Air Force?
    Ms. Hanson. I don't know specifically. I believe it was in 
2006. But let me look into that and get back to the--it was 
recently.
    Ms. Herseth Sandlin. If you could. Then perhaps if it was 
recently in 2006, perhaps the one prior to that----
    Ms. Hanson. Okay.
    [The information was supplied by OPM in response to the 
post-hearing questions for the record, which appear on p. 89.]
    Ms. Herseth Sandlin. And any conclusions that were drawn 
from those----
    Ms. Hanson. Yes, ma'am.
    Ms. Herseth Sandlin. Audits or periodic reviews.
    Mr. McWilliam--well, let me ask this to all of you. Do you 
agree that the laws for veterans' preference should be updated? 
Do you think that they are--in some of what your agency does, 
Ms. Hanson, do you think there is a complexity here for certain 
hiring managers and certain agencies in which we can be of 
assistance to simplify the process that would lead to more 
compliance?
    Ms. Hanson. We go out, and we do enough education to work 
with folks, hiring managers to help them understand. I am not 
sure that simplifying the rules as they stand would make a 
difference if somebody is ignorant of the law. But we are going 
out, and we are doing this education of hiring managers and 
veterans, as a matter of fact, Veterans Service Organizations, 
and those people who work with veterans to ensure that they 
understand the laws as they stand right now.
    Mr. McWilliam. Madam Chairwoman, our view of the veterans' 
preference has to be from the cases that we investigate. We 
have seen that it is really that the veterans themselves who do 
not understand the law. That is why we have put such an 
emphasis in the Transition Assistance Program with acquainting 
people with veterans' preference.
    Ms. Herseth Sandlin. You mentioned that in your testimony 
just now. I think you are aware of my concerns; first of all, 
TAP is not mandatory.
    Mr. McWilliam. That is correct.
    Ms. Herseth Sandlin. I wonder, but maybe you can answer 
that question. I was going to ask it of Ms. Bradshaw. How much 
time is given to veterans' preference rights in the TAP 
program?
    Mr. McWilliam. It is a very small portion. It is during the 
reference made when we talk about other sources that are 
available to service members. It is included in the booklet. 
There is a discussion, a short one-page discussion on veterans' 
preference in the Federal hiring program. We view it within the 
TAP like many areas, Madam Chairwoman, that we acquaint people 
with it, and then we give them a reference to go to, to do 
further information, to do further research in that area.
    Ms. Herseth Sandlin. Well, I think it is an important area 
for you and of course the working relationship that you have 
with the VA as it relates to other recruitment and outreach 
tracking systems, Mr. Hensley. Do you have a timeline for 
implementing that system that is going to be used by the 
veterans employment coordinators so that we can get a sense of 
how effective their recruitment and outreach is? How much more 
do we need to do to further explain the veterans' preference 
rights and follow up in addition to perhaps some information 
given to a service member in a TAP program?
    Mr. Hensley. Yes, Madam Chair. We have recently established 
an automated system that will allow us to track what these 
veterans employment coordinators are doing in the field in 
terms of outreach, in terms of explaining to veterans, 
veterans' preference statutes and how they are used. So we do 
believe we will have some data that might be useful to us as 
well in determining how we might best ensure the veterans' 
preference is being applied across the board.
    In response to your earlier question about the law and 
whether or not it should be simplified, we go to great extents 
within the Department to ensure that veterans' preference is 
applied and that it is used across the board. Certainly the 
establishment of the veterans employment coordinators was one 
way of making sure that at the local facilities, we did, in 
fact, ensure or check to ensure that veterans' preference was 
being used. We believe, too, that in many instances veterans 
are having great difficulty in understanding how to use their 
preference status in applying for jobs. And the National 
Veterans Employment Program was designed with that intent and 
purpose of helping educate not only the veterans but also the 
service managers who are making the selection about their 
responsibilities in using veterans' preference in the hiring of 
veterans.
    Ms. Herseth Sandlin. Just one final question, and then I 
want to recognize the Ranking Member.
    Mr. Hensley, I have some concerns based on the testimony we 
have heard today and the responses to some of the questions and 
we need to gather additional information. But I have some 
concerns that certain agencies are not--well, they just have 
far lower success rates than others in terms of the hiring of 
veterans under implementation of veterans' preference laws.
    Have any agencies, Federal agencies, such as the Department 
of Health and Human Services, Department of Education, 
Department of the Treasury, Department of Agriculture, have 
they approached the VA for assistance in implementing veterans' 
preference rates?
    Mr. Hensley. When we, Madam Chair, implemented the Coming 
Home to Work initiatives, we have several Federal agencies that 
came to us to talk about how they might launch a similar 
program. Transportation was one. I believe Commerce may have 
been another. Beyond that, I am not sure that there were other 
Federal agencies. But I would be more than happy to check and 
get you an entire list and provide that to you for the record.
    [The information was supplied by VA in response to the 
post-hearing questions for the record, which appear on p. 91.]
    Ms. Herseth Sandlin. That would be much appreciated. Thank 
you. Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. You stated in regard 
to the VA about the fact that a lot of veterans were leaving 
within their first year. And I know that you know it is kind of 
an ongoing problem. Do you have a preliminarily gut feeling as 
to what the thinking is? Or----
    Mr. Hensley. Well, a great number of those who are leaving 
during the first year, as you might imagine, are within their 
probationary period. And there could be a variety of reasons. 
One being that it is not a good job fit might be one of the 
reasons. But we are very concerned about the attrition trends 
during the first year of employment, and that is one of the 
reasons that we are launching this workgroup in order to do 
further research and more detailed analysis of exactly what is 
happening to that population of veterans.
    Mr. Boozman. So a job fit in terms of being 
underemployment? Or----
    Mr. Hensley. I am sorry. I didn't hear your question.
    Mr. Boozman. The job fit in terms of perhaps being 
underemployed?
    Mr. Hensley. We think maybe along the lines of the job not 
being exactly what the veteran may have thought it would 
entail.
    Mr. Boozman. Okay. Ms. Hanson, we have had testimony today 
about various entities, some, they appear to be doing a good 
job and others not. Some up the top and some of the other--why 
is there such a difference? What is your gut feeling as to why 
there is such a difference in the agencies? Why is Ag lagging 
behind?
    Ms. Hanson. Well, I don't know that Ag is lagging behind.
    Mr. Boozman. Percentage-wise. So is it lagging behind? Or 
the others are just doing so much better?
    Ms. Hanson. I think the Department of Defense agencies have 
a mission that is very similar to what these military members 
did while they were in the service. I think it is a very 
natural fit for them to go to these Department of Defense 
agencies. It is their agency of choice, and I think that is why 
we see the numbers.
    When we look at other agencies, it might be the mission. It 
might be lack of education or fit with experience that they can 
make the linkages. I think it is both from an agency 
perspective, from the agencies wanting to do their best to 
encourage folks to apply for their jobs and make their jobs 
interesting, but also veterans understanding how their military 
service translates into government jobs. And we work with 
military members as they are transitioning and folks after they 
transition from military service to make those linkages from 
what they did in the military and how it would translate to a 
Federal job. So we are trying to make those linkages. As we see 
that, we see many more applying for Federal jobs they may not 
have considered applying for before.
    Mr. Boozman. We also heard testimony about canceling 
certificates and playing those kind of games. And again, there 
is human nature to kind of play the system if you think that is 
to your advantage in a hiring practice. Is your gut feeling, is 
that a significant problem? Or is it one that we run across?
    Ms. Hanson. Well, that is considered a prohibitive 
personnel practice, and we would take action when we see those 
things.
    Mr. Boozman. What action would we take? Would we follow up?
    Ms. Hanson. Yes. We may withdraw their delegated examining 
authority. We may have somebody else do their delegated 
examining for them.
    Mr. Boozman. Have you ever done that?
    Ms. Hanson. Yes. We have in some agencies. We actually 
asked a Federal agency who did not give a veteran preference to 
offer the veteran the next job they were qualified for, he or 
she were qualified for. We have asked agencies to educate their 
workforce, make sure that managers--mandatory training of 
managers to make sure they understand veterans' preference 
laws. We take those kinds of----
    Mr. Boozman. I think that is the other thing. We talk about 
the veterans not understanding the law. And they have really 
pretty good access to understanding it. And again, that is the 
other side is making sure that the people on the other side 
understand the laws. So I want to thank all of you. I think you 
work really hard on trying to help veterans and things. But we 
want to help you and push things along.
    The other thing, Mr. McWilliam, I want to compliment you on 
the Balboa. I think, again, there were reports that I hear that 
that is very positive. And so I know that you all did an 
excellent job in setting that up. So give yourselves a pat. I 
feel very strongly also that TAP should be made mandatory. If 
it were, it would save us a lot of time and money down the 
line. But that is a different battle to fight. So thank you all 
very much.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. I do want to 
thank each of you for your testimony, your responses to our 
questions today. Again, as the Ranking Member said, we want to 
help you do even more in addition to what you have been doing 
to ensure that our veterans are treated fairly and all the laws 
that are passed are fully implemented, not just in agencies 
where there is sort of a natural fit. I agree with Mr. Boozman 
and Ms. Hanson. I think that is a good response to why DoD is 
so high and DoD and others and DoL. I think that we want to get 
at the heart of what might be happening with some of the other 
agencies, especially when some of the other agencies that don't 
have the kinds of presence in certain regions of the country as 
much, and some of those employment opportunities that might be 
better suited for--not necessarily better suited, but similarly 
suited for our veterans.
    Thank you for your service to the Nation, your continued 
service to the Nation's veterans. We appreciate your insights 
and your ideas on this very important topic. With that, the 
hearing now stands adjourned.
    [Whereupon, at 4:51 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

       Prepared Statement of Honorable Stephanie Herseth Sandlin,
            Chairwoman, Subcommittee on Economic Opportunity

    When called to duty, service members must make the sacrifice of 
leaving behind their loved ones and way of life for an extended period 
of time. As four of our most recent Subcommittee hearings have 
highlighted, many of these service members have returned home to find 
themselves having a difficult time securing employment. From the early 
years of our Republic, veterans returning from war have been provided 
assistance in their reintegration back into civilian life, to include 
being given preference in Federal Government hiring, so they may 
succeed after their military service.
    Generally, to qualify for such preference, a veteran must have been 
discharged or released from active duty in the U.S. Armed Forces under 
honorable conditions, and be eligible under one of the preference 
categories. These categories apply to certain veterans who served 
during war; veterans with less than or greater than 30 percent service-
connected disability; veterans who have a service-connected disability 
and is receiving benefits due to their disability, but do not qualify 
for other preferences; and family members of veterans.
    Unfortunately, as we will hear today, there are some concerns that 
still exist today as they have existed in past years. Some of these 
include veterans improperly denied appointments, and veterans targeted 
during reductions-in-force.
    I hope this hearing will allow the Subcommittee to determine: the 
success rate of veteran's preference; if veterans' preference has 
assisted our Nation's heroes in acquiring jobs in the Federal agencies; 
and if these agencies have implemented veterans' preference properly.
    I applaud the Federal agencies that have made strong efforts in 
hiring veterans, especially disabled veterans. I would also like to 
take the time to recognize the steadfast dedication of all our 
panelists in their willingness to bring to light the serious issues 
that are being faced by our veterans.
    I know we, and the Administration officials on the third and fourth 
panels, look forward to hearing today's testimonies so that we may all 
work together to properly recognize the sacrifice of those who have 
answered the call to duty. This is especially true at a time when our 
country is experiencing an increased retirement rate among Federal 
employees, and military operations that are creating a larger 
population of veterans.

                                 <F-dash>
             Prepared Statement of Honorable John Boozman,
    Ranking Republican Member, Subcommittee on Economic Opportunity

    Good morning everyone. First, Madame Chairwoman, I hope you had a 
restful recess and thanks for bringing this important issue before the 
Subcommittee.
    The Federal Government has a special obligation to make veterans 
part of its workforce and I know that many Federal agencies make a real 
effort to hire and promote veterans. For example, the military services 
led by the Army with 43%, Air Force with over 41%, Navy with 38%, and 
VA with over 23% led the Federal Government in hiring veterans in FY 
2005.
    Unfortunately, there are also agencies that make little or no 
effort and I hope that today's hearing will provide us with insights as 
to how Veterans' Preference laws are working. I would say that overall 
numbers show the Federal Government is making an effort. For example, 
according to the OPM report on veterans' employment in the Federal 
workforce for 2005, veterans comprise 27% of Federal full time 
permanent employees and veterans hiring was up in all areas.
    If I am disappointed, it is that agencies do not make better use of 
the special hiring authorities such as Veterans Recruitment Appointment 
(VRA) to hire even more veterans.
    I must say that reading OPM website's sections devoted to veterans' 
preference is not an easy task--probably because of the multiple laws, 
hiring authorities and programs in effect for veterans and non-
veterans.
    Madame Chairwoman, since we have no direct authority over title 5 
and the rest of the government, I wonder if we should consider using 
our jurisdiction to simplify veterans' preference just at VA in the 
same manner we did for small business in PL 109-461? VA has an overall 
good record relative to hiring veterans but I think we could help them 
do even better while not tying the hands of the human resources staff.
    Madame Chairwoman, I'm eager to hear from our witnesses and yield 
back.

                                 <F-dash>
                   Prepared Statement of Meg Bartley,
    Senior Staff Attorney, National Veterans Legal Services Program

    I am honored to have the opportunity to provide the Subcommittee 
with this testimony.
    During the past 8 years, the National Veterans Legal Services 
Program (NVLSP) has reviewed and investigated complaints concerning 
veterans' preference violations in the Federal hiring process. We have 
filed amicus briefs, on behalf of The American Legion, in several 
veterans' preference-related cases. These include Augustine v. Dept. of 
Veterans Affairs, Abrahamsen v. Dept. of Veterans Affairs, Dean v. 
Dept. of Agriculture, and Meeker v. MSPB (known as the Azdell case). 
Our conclusion, based on discussions with individual veterans, review 
of numerous complaints, and participation in litigation concerning 
alleged veterans' preference violations, is that there are many 
violations of the spirit and the letter of veterans' preference laws.
    My testimony summarizes three problems that prevent preference 
eligibles from receiving the preference that Congress intended and I 
provide some ideas as to how to correct these problems. These are 
clearly not the only circumstances that create problems for veterans. 
Other veterans service organization representatives will testify 
shortly, and they will discuss a variety of other problems. But the 
three situations I chose to focus on best illustrate some systemic 
problems with how veterans' preference is applied, and these situations 
dramatically illustrate that often when a veteran visits usajobs.gov, 
there is not an even-handed and consistent application of veterans' 
preference laws.

1. Cancellation of a Certificate of Eligibles in order to Avoid Hiring 
        a Preference Eligible
    I first address the agency practice of canceling a certificate of 
eligibles in order to avoid hiring a preference eligible. Let's take a 
typical hiring situation: an agency posts a vacancy; applicants, 
including preference eligibles, apply; a certificate of eligibles is 
generated; and, the certificate is headed by a preference eligible. The 
law currently provides, and this is a quote from the Merit Systems 
Protection Board, if the agency subsequently decides to cancel the 
announcement in order to avoid hiring the preference eligible that 
heads the list, an appellant's veterans' preference rights are not 
violated.
    The cite for thatoutrageous statement is Scharein v. Dept of the 
Army, 91 M.S.P.R. 329 (2002). Scharein essentially held that an agency 
that wants to avoid hiring a preference eligible who heads a 
certificate of eligibles may do so by canceling the certificate. 
Allowing this situation to continue allows an agency to intentionally 
foil veterans' preference laws.
    Recommendation: Require an agency to request permission to cancel a 
certificate when the certificate is headed by a preference eligible. 
The agency could be required to file written reasons for the 
cancelation with OPM and allow the preference eligible time to respond 
(similar to 5 U.S.C. Sec. 3318(b),the passover provision). OPM could 
then determine the sufficiency or insufficiency of the reasons 
submitted by the agency, determine whether cancelation was appropriate 
or whether its primary purpose was to avoid applying veterans' 
preference. The agency would be required to comply with the findings of 
OPM.

2. An Agency's Ability to Choose from Multiple Certificates or Programs 
        in Filling a Single Vacancy
    Under current veterans' preference laws, emphasis is placed on a 
preference eligible's rank on a single competitive examining 
certificate. The preference eligible is at the''top'' of the 
certificate. This process provided meaningful preference to veterans 
years ago when an agency chose a candidate by reference to only a 
single certificate or ``register'' of eligibles. However, at the 
current time, agencies have the ability to choose a candidate from 
among multiple certificates and programs. The existence of multiple 
certificates and programs, any of which may be used to fill a single 
vacancy, renders the rank assigned to the preference eligible on the 
competitive examining certificate potentially meaningless. Let me put 
it this way: what is the benefit to heading a list of candidates on a 
certificate when the agency has the ability to choose from 4 or 5 other 
certificates in deciding who to hire? Veterans are completely confused 
to find that they were at the very top of a certificate but someone 
from a completely different certificate was appointed to the job. We 
believe that an agency cannot claim to have given preference to 
veterans in such situations. Veterans preference is diluted or 
nullified when multiple certificates are used.
     Recommendation: Because Congress contemplates in Title 5 of the 
United States Code that competitive examination is to be the primary 
method of entry into the competitive service, we encourage the 
Subcommittee to ensure that a certificate generated through the 
competitive process is favored over other hiring methods and over other 
certificates.

3. Agencies Tend to Ignore the Primacy of the Competitive Examination 
        Process, which includes application of Veterans' Preference, in 
        Federal Hiring
    The issue just mentioned, multiple certificates, leads agencies to 
a dangerous view of Federal hiring. Agencies may view the choice of the 
method used to select a candidate for a competitive service position as 
almost completely unrestricted--competitive examination as one hiring 
method among several, with all being equal. However, the statutory 
scheme set forth in 5 U.S.C. 187 Sec. 3302 and Sec. 3304(b), requires 
that an individual be appointed in the competitive service only if he 
or she has passed an examination or is of necessity excepted from 
examination.
    Deviations from using competitive examining as the primary entryway 
into Federal service can lead to serious violations of veterans' 
preference laws. This is evidenced by the fact that the Outstanding 
Scholar Program operated undisturbed for many years and only recently 
was recognized as violating veterans' preference and, essentially, 
being inconsistent with the statutory emphasis on the competitive 
examination hiring process.
    Many veterans and service organizations worry that the growth and 
increased use of student hiring programs, without adequate oversight of 
their implementation, is becoming yet another method of evading 
consistent and rigorous application of veterans' preference.
    The websites of several large agencies contain lists of multiple 
student-related hiring programs. NVLSP and other service organizations 
are certainly not opposed to increasing employment opportunities for 
students--many of whom are veterans and who qualify as preference 
eligibles. However, we object to any program that attempts to 
accomplish hires into the competitive service by denying veterans their 
rights under veterans' preference laws.
    Recommendation: Congress should ensure thatthe competitive 
examining process, including veterans' preference laws, remains the 
primary hiring method for the competitive service. Congress should also 
ensure that any necessary student or other hiring program vigorously 
applies veterans' preference laws (including rating and ranking and 
application of points), and ensure that the passover provisions of 5 
U.S.C. 3318(b) are required in each of these programs.
    I appreciate the opportunity to provide the Subcommittee with this 
testimony. Thank you.

                                 <F-dash>
         Prepared Statement of Roger Tadsen, Wetumpka, Alabama
                           (Disabled Veteran)

    Thank you for allowing me to speak with you today concerning my 
experiences and treatment under the Disabled Veterans Affirmative 
Action Program (DVAAP) as outlined under 5 CFR 720 Subpart C.
    My military career started at the age of 17 with the Air Force (AF) 
in January 1972. While on active duty I had surgery in 1983, which left 
me partially paralyzed in both legs. I received a medical discharge 
from the Air Force in January 1987 with 15 years of active service. As 
a result of the nerve damage, the Veterans Administration established 
my service connected disability rating at 70%.
    I was hired as a civilian through the AF Palace Acquire Program 
into the Air Force Audit Agency (AFAA) in June 1991 after graduating 
college. I started out as a GS07 series 0511 auditor. I felt my 
previous military experiences would enhance my opportunities for 
success. Under the Palace Acquire Program, I would receive a promotion 
(GS07, GS09, GS11) each year as long as I met the program objectives 
until reaching the field auditor target grade of GS12.
    To begin with my first audit resulted in over $3 million in savings 
for the Air Force. I thought I was doing well. Imagine my surprise in 
my third year when the AFAA Region Chief, meeting me for the first time 
told me, ``You should be satisfied where you are because of your 
disability and that you can not handle being an Audit Manager.'' His 
statement took me aback since he did not even know me. I filed an EEO 
complaint. His reply, ``You misunderstood what I said.'' However, it 
was clear to me what he said. I decided to just let it go and let my 
work speak for itself.
    By mid-1995, I became competitive for promotion to GS13. My annual 
performance ratings during this time were Above Fully Successful 
(excellent) or Far Above Fully Successful (superior).
    Between 1995 and 2004, 9 years, I submitted my name more than 15 
times for these competitive promotions. All the while the AFAA had 
continuous openings and requests to fill GS13 positions in California, 
Ohio, Texas, and the Pentagon. Meanwhile, my peers with less time in 
grade and service were selected.
    Prior to October 2002, I had never heard of the Disabled Veterans 
Affirmative Action Program (DVAAP) even though the law governing its 
implementation was enacted in the mid-eighties. I discovered the DVAAP 
while performing research on an audit project. Then on my own time, I 
started to delve into this law. My first questions were to my first 
line supervisor and Office Chief, ``How is the AFAA implementing this 
affirmative action program?'' After all, other affirmative action 
programs were publicized by the AFAA Director of Operations as working 
well for women and minorities within the AFAA. Unfortunately, everyone 
I contacted initially had never heard of this affirmative action 
program. My supervisors were either deferred or were told to defer to 
Veteran's Preferences for hiring. I understood the DVAAP is an 
affirmative action program, but senior managers in the AFAA disagreed.
    In December 2002, the AFAA Director of Operations forwarded me 
information concerning disabled veterans within the AFAA. He stated, 
``It is true that agencies are required to develop annual DVAAP plans. 
However, the term ``agencies'' refers to the AF. Accordingly, AFAA does 
not maintain any information in this area.'' He went on to say, 
``Financial Management Career Program records indicated that disabled 
veterans, rated 30% or more, represented 2.1 percent of the auditor 
workforce in the AFAA.'' The representation of disabled veterans has 
remained constant over the past 5 years and well below AF established 
goals. No one in the AFAA has ever provided me any further guidance 
even though I continue to ask.
    Also during December 2002 I contacted the AFAA Assistant Auditor 
General (AAG) Financial and Systems (FS) Audits, and his Deputy with 
the same concerns. I was trying to identify how the AFAA collects and 
monitors compliance with the DVAAP. The AAG responded but did not 
address my questions concerning the DVAAP. It was apparent the AFAA did 
not track how well this affirmative action program performed; although 
they publicized how well they performed under other affirmative action 
programs for women and minorities.
    As a result, I inquired about the DVAAP to OPM in December 2002. I 
told them the AFAA did not appear to monitor the hiring and promotion 
of disabled veterans under the DVAAP. I requested further guidance from 
them since they oversee the DVAAP and approve agency plans. They 
replied in April 2003 asking if the issue was resolved. My response 
back was quite lengthy and OPM never replied.
    While attending the Professional Military Comptroller School in 
January 2003, I wrote a research paper on the DVAAP. As part of my 
research I interviewed over 75 members across DoD, including SES and 
General Officers, and only one knew of the DVAAP.
    During January 2003, I talked to the new AFAA Auditor General. He 
was unaware of the requirements of DVAAP. He said he would review the 
information I provided him and get back with me. He never responded.
    I also contacted the disabled representative to the AFAA Workforce 
Diversity Advisory Committee (WDAC). He was unaware of this affirmative 
action program and subsequently never responded to my inquiry.
    The AF Affirmative Employment for People with Disabilities plan 
stipulates, ``the Air Force establishes agency-wide numerical 
objectives/goals for the hiring, placement and advancement of people 
with severe disabilities, to include disabled veterans.'' However, this 
AF plan did not reference 5 CFR 720 Subpart C nor did it cite the 
DVAAP. Nothing I found in any AF publication or AF affirmative action 
plan cited the DVAAP.
    By August 2003 I was trying to work within the AFAA to resolve this 
issue. However, the AFAA Auditor General stated, ``You have made 
frequent accusations that AFAA is not following rules regarding 
disabled veterans. The AFAA Director of Operations is in the process of 
clarifying these rules for you after discussion with AF officials, a 
review of the appropriate guidance, and confirmation with the Office of 
Personnel Management. We hope this will explain the program to you and 
confirm for you, as we have explained on several occasions in the past, 
that we are indeed complying with the program. In the future, I 
encourage you to focus your energies on job performance, which is the 
primary factor to promotion in the AFAA and apply for Audit Manager 
vacancies. The responsible Assistant Auditor General, as the selecting 
official, will follow all appropriate personnel rules, make the 
proposed selection, coordinate with me and then process through the 
appropriate personnel channels.''
    I thanked him for his comments and stated that I used my own time 
and resources to pursue the DVAAP over the past 9 months.
    In August 2003, the AFAA Director of Resource Management advised 
she had contacted AF/DPPH and OPM about my questions and stated, ``The 
disabled veteran's preference (notification and appeal rights) applies 
to initial appointments only. The references you cited (5 USC 3312 and 
3318) as well as the entire subchapter I, Examination, Selection, and 
Placement, address people who are being initially hired into the civil 
service. I believe you assumed the word ``certificate'' as used in the 
references meant promotion certificates. However, when new employees 
are hired, they are also selected from a certificate. In fact, 5 USC 
3318 describes in detail the process we use to select new personnel--we 
receive a certificate with the names of the highest three eligibles, 
and if a veteran ``blocks'' selection of a targeted individual, we must 
select the veteran.''
    She went on to say, ``The AFAA is not required to collect or report 
DVAAP statistics separately to OPM each year. The Veteran's Employment 
in the Federal Government lists the agencies required to submit data 
under this program, and the AFAA's information is contained in the 
submission from the Air Force. Therefore, while our data are included 
in the Air Force report to OPM, we have no regulatory requirement to 
collect or track these statistics at the AFAA level.''
    On 14 August 2003, a GS13 audit manager and disabled veteran 
stated, ``He and another GS13 audit managers brought the DVAAP to the 
attention of the AAG AFAA/FS and his Deputy in July 2000. All they got 
for their trouble was reduced evaluations and grief. He added, ``I made 
all the GS14 certificates in FS 1996-2001 and was not selected. Since 
then I've stopped wasting my time filling in surveys, and so forth., as 
AFAA has no intention of promoting a well qualified [MBA, CPA, DoD ADP 
Level II Acquisition Auditor], older [59], white, male, disabled 
veteran. Also, I too have received lowered ratings in the past couple 
of years, to the point I won't make any certificates.'' This mirrored 
the same treatment I was receiving from FS management for inquiring 
about the DVAAP.
    In August 2003, I contacted the Headquarters Air Force/Policy 
Office (HAF/XC) and they spoke to the Civilian Policy Office at the Air 
Staff.
    Per the Civilian Policy Office, ``The AF does not normally have a 
``plan'' to hire or promote a specific number of any types of 
individual. Each base decides based on a comparison to the local 
population if it needs to have comparability in certain categories of 
individuals. The Air Force does not have large DVAAP goals, because DoD 
hires the most disabled veterans in the Federal Government. Members 
cannot be given preference over other candidates just because they are 
disable veteran. The only time that veteran's preference is used on the 
civilian side is for an external appointment INTO the Federal 
Government or during a reduction in force (RIF).''
    After receiving this response in August 2003, I wrote to the AF 
Director of Personnel Policy office outlining the discrepancy between 
their response and what 5 CFR 720 Subpart C stated. I provided a copy 
of the CFR with my letter.
    5 CFR 720.301 clearly states requirements for agency disabled 
veteran affirmative action programs (DVAAPs) designed to promote 
Federal employment and advancement opportunities for qualified disabled 
veterans. Further, 5 CFR 720.303(a) states that, each Department, 
agency, and instrumentality in the executive branch, shall conduct a 
continuing affirmative program for the recruitment, hiring, placement, 
and advancement of disabled veterans.
    The Chief Force Sustainment Division Directorate Of Personnel 
Policy, provided me a copy of the FY03 AF DVAAP plan. I received it on 
15 October 2003. This was the first time anyone had ever mentioned the 
AF DVAAP plan, which established a representative goal for disabled 
veterans of 8.7 percent.
    This DVAAP plan and every annual plan since does not meet the 
minimum requirements outlined in 5 CFR 720.304(e), which outlines the 
plan content. It did not establish key measures for monitoring 
compliance, review, and evaluating planned efforts and was not 
coordinated with any other AF office. Also, there was no indication the 
plan was submitted to OPM for approval as required by 5 CFR 720.304(c), 
and it was apparent that this affirmative action plan was not 
disseminated as required by 5 CFR 720.304(b) (2). Personnel responsible 
for implementation of the plan at the local Base Civilian Personnel 
Office and the HQ Pacific Air Command (PACAF) Civilian Personnel Office 
had never seen it.
    I provided a copy of the plan to AFAA management and asked how they 
plan to implement and meet the established goal (8.7%) contained 
therein. There was no response.
    In December 2003, I filed an EEO complaint against the AFAA because 
of their practice of discrimination against disabled veterans. In 
January 2004, as the EEO process moved forward, I submitted a request 
for a humanitarian reassignment.
    The AFAA/FS Deputy Assistant Auditor General (AAG) contacted me in 
February 2004 to offer me a promotion to GS13. He stated, ``This will 
kill two birds with one stone.'' I assumed he was referring to my EEO 
complaint and humanitarian reassignment. The position he offered was 
one that AFAA/FS AAG had previously rejected my self-nomination a few 
months earlier. As such, I withdrew my EEO complaint.
    I continued to inquire how the AFAA was going to implement the AF 
DVAAP plan. It had taken almost 9 years for my promotion to GS13 while 
the average for the majority of others is 3 years or less. I continued 
to track how the AFAA filled GS13 and GS14 positions as well as hiring.
    AFAA management never responded to inquires related to DVAAP 
implementation. In July 2004 I wrote to the AF General Council.
    The Associate Director FSD, my 2nd level supervisor, informed me in 
September 2004 that the AFAA/FS Deputy AAG sent him a pointed email 
saying he did not want to hear any more about the DVAAP. My supervisor 
explained, ``It is not a matter of truth. Rather, it is perception 
indicating I am over stepping AFAA senior management's authority.''
    By November 2004, my 1st level supervisor required I take annual 
leave to visit the EEO office if I was going to discuss the DVAAP or 
any related issue. She also started to single me out for discipline in 
front of others in the office. I notified my 2nd level supervisor, 
Associate Director of our division, in writing outlining her abuses. My 
1st level supervisor and AFAA/FS Deputy AAG worked together to try and 
rein in my efforts on the DVAAP. I notified in writing the AFAA/FS AAG 
in April 2005 outlining this behavior. Nothing was done and the 
harassment continued.
    By April 2005, the VA Medical Center doctors thought I had heart 
disease and possibly a heart attack because of the stress my 1st level 
supervisor and AFAA/FS Deputy AAG were applying. No one in AFAA senior 
management intervened to stop them.
    Eventually, I transferred to a new 1st level supervisor. However, 
the new supervisor's perceptions were already tainted.
    I filed a formal complaint in November 2005 with the Office of 
Special Counsel (OSC) to seek relief from the continued attacks. OSC 
stated, ``My case was being referred for whistleblower retaliation.'' 
The case was settled in August 2006.
    While the OSC was investigating, I contacted HQ USAF/A1XC, Civilian 
Policy and Design Division, in February 2006. His office is responsible 
for implementation of the AF DVAAP Plan. He said, ``I met with AFAA 
Director of Operations, and Chief of Resource Management Division to 
discuss the DVAAP.'' Still nothing changed within the AFAA.
    In September 2005 and August 2006, the AFAA Workforce Diversity 
Advisory Committee (WDAC) debated and decided that ``the agency'' cited 
in 5 CFR 720.340(e) is the Air Force and AFAA falls under the Air 
Force. The committee also debated and decided that veterans with a 30 
percent or more disability rating receive additional consideration 
during hiring and this percentage should not factor in for advancement/
promotions.
    The AFAA Recruiting Manual is a guide used by select AFAA employees 
with hiring authority. A review of the 21 plus page guide revealed that 
it offered only 12 lines of text for hiring the disabled without citing 
the DVAAP or any other Veterans' Preference guidelines. However, the 
guide did provide specific steps for targeting colleges that contained 
specific percentages of minorities and women that covered several 
pages.
    In August 2006 I contacted HQ USAF/A1XC, Civilian Policy and Design 
Division, who referred my concerns to the AFAA Director of Operations. 
In response to the question--``Who is responsible for monitoring and 
measuring effectiveness merit system principles including the 
DVAAP?''--the answer is ``agency management.'' AFAA senior management 
IS responsible for effective DVAAP implementation and key measures to 
monitor compliance, perform reviews, and evaluate planned AFAA DVAAP 
efforts. According to A1XC personnel the AFAA Director of Operations, 
and Chief of Resource Management Division were informed. He said A1XC 
can only advise and told me to address concerns to the AFAA Director of 
Operations, and Chief of Resource Management Division. The same office 
that over the past 4 years had done nothing to implement this 
affirmative action program.
    SAF/MR (Manpower and Resources) in November 2006 stated AF/A1XC did 
make some recommendations (not directives) to the AFAA Director of 
Operations and Chief of Resource Management Division that includes the 
following items: (a) mentoring of AFAA Employees, (b) review of AFAA 
policies, procedures, and programs, (c) possible issue of a supplement 
to SECAF diversity policy memo (d) become familiar with new directive 
EEO Management Directive 715 (e) involving key management in developing 
a pipeline for GS-13 and above positions for a more diverse workforce 
and (f) integration of EEO into all capital human planning. Nothing 
changed.
    In December 2006, the AF Auditor General (AG) published a memo 
outlining the need to recruit more qualified disabled veterans. He 
cited an analysis showing the AFAA currently has 52 disabled veterans 
(6.5 percent). Current AF goals are 8.7 percent. He also cited special 
consideration should be given for disabled veterans rated at 30% or 
more. Disabled veterans in this category represented 2.6, 5.7, and 3.1 
percent of Federal, Air Force, and AFAA workforces, respectively.
    The AG memo in June 2007 requested help to hire qualified disabled 
veterans. I contacted the Supervisor of Employment Outreach, National 
VA Headquarters who said he would be glad to help. He stated there were 
1,687 disabled veteran candidates in the accounting program who would 
qualify for the employment with the AFAA. I provided his contact 
information to AFAA officials. No AFAA selecting officials had 
contacted him as of 15 August 2007.
    Since January 2000, I have completed 23 projects identifying $54 
million in savings for the AF. I have experience in acquisition, field 
operations, and information systems audits with the AFAA over the past 
15 years with total Federal service exceeding 31 years. I also obtained 
a Certified Fraud Examiner professional certification. Yet, each time I 
get the same comments from the selecting officials.
    To continue my career progression in depth and breadth of 
experience since January 2006, I have applied 11 times for GS13 and 
GS14 positions and professional military education schools without 
being selected.
    Meanwhile, selecting officials provided a standard response to my 
inquiry for non-selection, ``They analyze the candidates and consider 
ratings, depth/breadth of experience, training, mobility, 
certifications, professional military education, and advanced 
degrees.'' Yet, most 2007 selections for GS13 and GS14 position 
generally went to people with less than 4 years experience with the 
AFAA.
    It all comes back to either AFAA senior leadership (a) truly 
believes my disabled veteran status hinders my abilities or (b) is 
tired of me fighting for my rights under 5 CFR 720 Subpart C. I believe 
this is reflective in the fact that my supervisors would not allow me 
to have permissive TDY to testify forcing me to use annual leave to be 
here today.

                                 <F-dash>
                 Prepared Statement of Mary Jean Burke,
   First Executive Vice President, National Veterans Affairs Council,
          American Federation of Government Employees, AFL-CIO
    Madam Chairwoman and Members of the Subcommittee:

    The American Federation of Government Employees, AFL-CIO, which 
represents more than 600,000 Federal employees who serve the American 
people across the nation and around the world, including significant 
numbers of preference eligibles in the Department of Veterans Affairs 
(VA) and Department of Defense (DoD), appreciates the opportunity to 
testify today regarding veterans' preference rules.
    An effective veterans' preference policy should promote both the 
hiring and retention of eligible veterans. Veterans' preference rules 
need to be regularly updated to remain effective when new personnel 
rules are put in place. Outsourcing and other policies that have a 
major impact on the Federal workforce must be assessed for their impact 
on veterans' employment. Current mechanisms for oversight and 
enforcement of veterans' preference rules must be significantly 
enhanced.
HIRING
    AFGE has received reports of selecting officials maintaining 
separate applicant lists to evade veterans' preference requirements. 
There does not appear to be sufficient oversight of this or other 
harmful practices. Therefore, as discussed below, AFGE urges Congress 
to require more training for selecting officials and greater oversight 
of current hiring practices to ensure more consistent application of 
veterans' preference rules.
    Title 38 employees, most of whom work in VA medical facilities and 
in some DoD medical facilities, are not currently covered by statutory 
veterans' preference requirements. Preference eligibles in these 
positions should be afforded the same protections as their Title 5 
counterparts.
    Direct-Hire Authority (DHA), implemented in 2003 by Federal 
regulation (5 CFR part 337, subpart B), has also made it easier for 
selecting officials to bypass veterans in the hiring process. DHA rules 
clearly state that veterans' preference does not apply when selecting 
individuals under DHA. Despite the elaborate process set forth in the 
DHA rules to establish a ``severe shortage of candidates'' or a 
``critical hiring need'' in order to fill selected positions through 
direct hire, it is quite easy for an agency to qualify for DHA and pass 
over all preference eligibles. In addition, OPM can decide 
independently if certain positions meet the criteria for DHA.
    AFGE urges Congress to reject pending proposals to increase the use 
of DHA for targeted groups, such as proposals for direct hiring of 
annuitants, Presidential Interns and Americorps alumnae. Veterans' 
employment will be severely impacted by allowing selecting officials to 
completely exclude preference eligibles from the applicant pool.
RETENTION
Reductions-in-Force
    AFGE commends Chairwoman Herseth Sandlin for her leadership in 
protecting preference eligibles in involuntary geographic reassignments 
through H.R. 728, the Veterans Reassignment Protection Act. We urge the 
Subcommittee to clarify through additional language that preference 
eliglbles under all Federal personnel systems, i.e. Title 5, Title 38, 
DoD National Security Personnel System (NSPS) and Department of 
Homeland Security (DHS) personnel rules are equally protected in the 
event of involuntary geographic reassignment.
New Personnel Rules
    More generally, new DoD and DHS personnel rules threaten the 
consistency of veterans' preference governmentwide when reductions-in-
force (RIF) occur. Lack of consistency, in turn, makes it nearly 
impossible to counsel veterans as to their RIF rights. DoD claims that 
NSPS preserves veterans' preference by assigning it the exact same 
priority as in OPM regulations. This overlooks a key difference between 
NSPS and OPM RIF rules: OPM rules provide maximum opportunities for 
retention of those affected by the layoff, including other placement 
opportunities, while NSPS takes away these opportunities. The overall 
result of NSPS RIF rules will be the retention of junior employees over 
senior employees and the retention of non-veterans over veterans.
    For example, under the current OPM RIF procedures, an employee who 
is released from his competitive level in a RIF is permitted to 
``bump'' to a position that is held by an employee in a lower tenure 
group or in a lower subgroup within the same tenure group. Similarly, a 
Career employee may bump a Career-Conditional employee. A veteran with 
a service connected disability of 30% or more may bump a veteran 
without such a condition, or a non-veteran, and has the right to 
``retreat'' to a position that is the same or essentially the same job 
that he or she previously held. Thus, a veteran with 15 years of 
service could displace a veteran with 10 years. A non-veteran with 10 
years of service could displace a non-veteran with only 5 years.
    These opportunities are eliminated under NSPS Workforce Shaping 
regulations, allowing, DoD to exploit its broad discretion to select a 
very narrow area for a RIF. For example, DoD could eliminate a group of 
three jobs held by veterans with 15-20 years of service and continue 
other jobs at the same location held by non-veterans with fewer years 
of service. Under NSPS, the preference eligibles would have no recourse 
to bump into these jobs.
    This limitation on retention opportunities is exacerbated by the 
discretion DoD gives itself in the final NSPS regulations to determine 
the scope of competition in a RIF, known as the competitive area and 
narrow the competition to exclude preference eligibles from the pool.
    For example, if DoD cut the number of positions at a depot devoted 
to major repair of the engines for F-16 aircraft, under OPM rules, all 
employees who report to that Depot Commander would be in the same 
competitive area, allowing them to compete for retention with those 
holding other similar jobs at the depot, e.g. those who work on the F-
16 may also be qualified to work on the F-14 or the C-5.
    In contrast, under NSPS, DoD will be able to depart from this 
procedure, allowing itself to determine competitive areas along 
divisions it calls ``product lines'' or ``lines of business'' or 
``funding lines.'' Repair of the F-16 engines could be defined as a 
``product line,'' so that would be the entire competitive area. Only 
those employees who worked on the F-16 engine would compete in the RIF. 
As a result, the aircraft mechanic who is a disabled veteran would not 
be able to bump and displace the non-veteran who works on the C-5. In 
fact, that aircraft mechanic would not even be able to compete with 
someone who worked on another component of that same aircraft, such as 
avionics.
    In short, the NSPS regulations will narrow the scope of competition 
and reduce the number of retention opportunities for senior employees 
and veterans. Management will be able to terminate qualified veterans 
with high-level performance and retain junior, non-veterans. The 
discretion NSPS affords DoD managers to evade veterans' preference is 
central to the NSPS system. This is just one of the many important 
reasons why Congress should repeal the broad personnel authorities that 
gave rise to NSPS. AFGE strongly supports the House version of the FY 
2008 National Defense Authorization Act which would restore to DoD 
civilians the veterans' preference rules that they enjoyed prior to the 
creation of the new rules under NSPS.
Veterans' Preference Rules Should Apply to Promotions and Transfers
    Currently, preference eligilbles are only recognized in the hiring 
and RIF processes. Veterans' preference rules do not apply to internal 
agency actions such as promotion, transfer, reassignment, and 
reinstatement. These protections should be extended to internal agency 
actions. This change would be of particular benefit to Federal 
employees in the Reserves or National Guard who are deployed, then 
return to their former positions and seek a transfer or promotion, 
especially in cases where they acquire a service-connected disability 
and therefore earn greater preference eligibility during their 
deployment. These men and women who served our country should not have 
to transfer to another Federal agency in order to benefit from their 
veterans' status.
IMPACT OF OUTSOURCING ON VETERANS' EMPLOYMENT
    This Administration's relentless agenda to outsource government 
functions has had a devastating impact on veterans, particularly those 
in low wage positions and those who entered Federal Government after 
rehabilitation for service-connected disabilities.
    Ironically, the harm to veterans is especially evident at the 
Department of Veterans' Affairs itself, where by its own admission, 
veterans comprise 80% of the low wage workforce. Many of the disabled 
veterans who participate in VA vocational rehabilitation programs are 
later hired to work in VA medical facilities. In addition, certain 
positions in VA medical facilities and other agencies, such as 
custodians and guards, are restricted to preference eligilbles under 5 
CFR Sec. 330.401 et al.
    In instances where Federal employers conduct OMB A-76 privatization 
reviews or other cost comparison studies prior to converting Federal 
functions to contract work, Congress should require agencies to factor 
in the impact of these conversions on veterans' employment as an 
additional cost.
    In other instances, agencies directly convert Federal work held by 
preference eligibles to contractors by illegally bypassing competition 
requirements in Federal law (Section 842 of the FY06 Transportation-
Treasury-HUD Appropriations Bill) and the OMB A-76 Circular. AFGE has 
received numerous reports from VA sites across the country of direct 
conversions of a wide range of Federal functions including hospital 
laundry workers and housekeepers and cemetery groundskeepers. AFGE 
hopes these reports serve as an additional catalyst for Congress to 
impose restrictions on outsourcing of Federal work and increase 
oversight of taxpayer dollars used for cost comparison studies, direct 
conversions and other outsourcing activities.
    The highly publicized crisis at Walter Reed Army Medical Center 
(WRAMC) produced similar reports of the adverse effects of 
privatization on both preference eligibles and veterans receiving care. 
At WRAMC, preference eligible employees held the majority of base 
operations support positions that were subjected to a prolonged A-76 
competition, causing great job uncertainty, which in turn led to a wave 
of resignations and loss of jobs.
    While contractors regularly assure agencies that they will make 
every effort to consider former Federal employees for contractor jobs, 
they are under no obligation to hire them, much less consider veterans' 
status in the hiring process, with one exception: 5 CFR Sec. 330.404 
places ``additional responsibilities'' on agencies and OPM when the 
aforementioned positions that are restricted to preference eligibles 
are contracted out through the OMB A-76 process. AFGE urges Congress to 
ascertain whether OPM and agencies engaged in contracting out these low 
wage preference eligible positions have in fact met their 
responsibilities.
LACK OF ACCOUNTABILITY
    Meaningful oversight of veterans' preference policies and the 
ability to track compliance are hampered by inadequate data collection. 
Currently, agencies are generally responsible for enforcement, not OPM 
(5 USC  3320.
    AFGE urges Congress to adopt a tracking system modeled after the 
EEOC Management Directive 715 that provides policy guidance and 
standards for establishing and maintaining effective affirmative 
programs and reporting. This tracking system should include information 
about the number of preference eligibles who applied for each vacant 
position, and whether the applicant applied for and was turned down for 
other positions previously, in order to determine how many veterans 
were turned away from each vacant position.
COMPETENCE OF SELECTING OFFICIALS
    Mandatory compliance training and certification is needed to ensure 
that selecting officials apply veterans' preference rules in a 
consistent, effective manner. This will ensure that employees are 
provided updated information on veterans' preference rules, and that in 
hiring and RIF actions, they properly consider veteran status. In 
addition, AFGE has received reports that indicate that some preference 
eligilbles are not being properly rated for their military experience, 
e.g. medics applying for Licensed Practical Nurse positions.
PHYSICAL TRAINING FOR MILITARY GUARDS
    AFGE is also concerned about the adverse impact of new physical 
testing requirements for DoD Police and Guards, many of whom were hired 
under special hiring authorities designed to increase veterans hiring 
in DoD. Many GS-083 (Police) and GS-085 (Guards) have been 
grandfathered or had waivers for any physical testing requirements as 
many were hired under special hiring authorities designed to give 
veterans jobs in DoD. Now, the Army, and ultimately DoD, are seeking to 
force these requirements on existing employees, many of whom are 
disabled veterans hired under Veterans Readjustment Act.
    This concludes my testimony. I would be happy to answer any 
questions that Members of the Subcommittee may have. Thank you.

                                 <F-dash>
      Prepared Statement of C.J. ``Cliff'' Guffey, Vice President,
                 American Postal Workers Union, AFL-CIO

    Madame Chairwoman and Members of the Committee. I am Cliff Guffey, 
Executive Vice President of the American Postal Workers Union, AFL-
CIO--the APWU. On behalf of the APWU, thank you for providing me this 
opportunity to testify on behalf of our more than 300,000 members. 
Postal workers and the United States Postal Service have a long and 
proud tradition of veterans' employment. The APWU and its members 
strongly support veterans' preference.
    I am proud to say that I am a 10 point preference eligible veteran. 
I served with the Second Battalion of the 3d Marines in Vietnam in 1968 
and 1969. APWU President William Burrus and Legislative Director Myke 
Reid are also preference eligible veterans. Bill served with the 101st 
Airborne Division, and Myke served with the 502d Air Force Band.
    It is no coincidence that the three of us are veterans. More than 
187,000 veterans were employed by the Postal Service in fiscal 2005. On 
behalf of these veterans, and on behalf of all postal workers, I thank 
the Committee for holding this hearing to address the needs of our 
returning veterans. We know the Committee will want to consider how 
best to ensure that postal employment will continue to be accessible to 
veterans.
    Postmaster General Potter recently reported that nearly 25 percent 
of postal employees are veterans. In the recent past, among postal 
workers of my generation, the numbers and percentages of veterans in 
the Postal Service have been even higher.
    The fact that large numbers of veterans are employed by the Postal 
Service tends to obscure the fact that the Postal Service effort on 
behalf of our veterans is not as strong and beneficial as it could be.
    The Postal Service's Annual Reports to Congress from 1999 through 
2005 show that the Postal Service has experienced a continuous decline 
in the number and proportion of its workers who are veterans. In FY 
1999, the Service employed 251,788 veterans, accounting for 31.6% of 
its workforce. In FY 2005, the Service employed only 187,144 veterans, 
decreasing its veteran populous to 26.6%. Also noteworthy is the fact 
that the USPS' disabled veteran workforce decreased to only 9% and 
veterans with a 30% or greater disability rating decreased to only 
2.4%.
    This trend is particularly significant in light of the large 
numbers of veterans, particularly disabled veterans, who are returning 
from fighting in the Middle East. The U.S. has nearly 1.4 million 
active military personnel, 369,000 of whom are deployed outside the 
United States and its territories. Currently 169,200 U.S. troops are 
deployed to Iraq and Afghanistan. Since the start of Operation Iraqi 
Freedom and Operation Enduring Freedom, more than a million U.S. 
Service members have been deployed to the Middle East. According to the 
Department of Defense's Casualty Report, between March 20, 2003 and 
August 29, 2007, 4,159 troops--including at least 13 people who were 
members or closely related to members of the APWU--have died in the 
line of duty; 27,782 service men and women have been wounded in action; 
and 13,353 of the wounded have been classified as not able to return to 
duty.
    The Veteran's Administration has reported that our returning 
veterans are suffering levels of unemployment and homelessness that I 
am sure the Committee will agree are not acceptable. According to the 
Veterans' Administration, the reality is that unemployment usually 
affects younger, less experienced workers the most, and that includes 
young veterans who are attempting to enter the civilian workforce after 
their discharge from military service. The VA estimates nearly 200,000 
veterans are homeless on any given night and nearly 400,000 to one 
million veterans experience homelessness over the course of a year. 
Conservatively, one out of every three homeless men who is sleeping in 
a doorway, alley or box in our cities and rural communities has served 
in our military service. While great efforts have been made to provide 
housing, these have not been nearly enough. More importantly, our 
veterans need good jobs paying a living wage and with adequate fringe 
benefits. Studies show that gainful employment at a living wage with 
the opportunity for advancement is the foundation for maintaining 
economic stability and reducing the risk of homelessness.
    There is no doubt that the Veterans' Preference Act has provided 
important assistance to veterans. The point preferences given to 
veterans and disabled veterans, and the restrictions that reserve 
certain jobs for qualified veterans if any have applied for them, are 
important and effective means of ensuring that veterans are provided 
employment opportunities in the Federal Government, including the 
Postal Service. But these opportunities are not as effective as they 
should be, for several reasons.
    Perhaps the largest problem is that veterans are not aware of their 
veterans' preference rights. It is our understanding, gained from 
speaking with many discharged troops, that neither the military nor the 
Veteran's Administration, nor the Postal Service is doing enough to 
inform veterans of their veterans' preference rights. In our 
experience, veterans are unaware that 10 point eligible veterans have a 
right to apply at any time for any position for which a non-temporary 
appointment has been made from a list of eligibles within the past 3 
years. Veterans also need to be informed that they can file for an open 
competitive examination after the closing date if they could not file 
in time because of their military service.
    Of course, even knowing their rights under the law will not really 
assist veterans unless the Postal Service makes an effective effort to 
inform them of employment opportunities. Veterans who are informed of 
their rights and also informed of available postal positions are more 
likely to gain USPS employment because they will have access to the 
entrance exam upon discharge, rather than waiting for what can be years 
before the examination is again offered to the public.
    Currently the best employment information vets are offered is at 
sporadic job fairs that do not regularly include a representative from 
the USPS. We recommend that all Federal agencies be given timely notice 
of these fairs, and that all agencies within the geographical area of 
the fairs be required to send knowledgeable representatives. 
Additionally, we urge the Committee to take steps to ensure that the 
Veterans' Administration and the military provide exit counseling that 
includes useful information regarding Federal sector employment, 
recruitment and available positions.
    The Committee also needs to be aware of two other significant 
impediments to veterans' preference in the Postal Service. One is that 
the Postal Service has systematically eliminated or contracted out the 
six jobs that, under section 3310 of Title 5, the Veterans' Preference 
Act restricts to applying veterans. The APWU has monitored this 
development as part of our effort to enforce the APWU's collective 
bargaining agreement with the Postal Service. For years, the Postal 
Service has sought to contract out more and more of these restricted 
jobs over the objections of the APWU. We think that this effort by the 
Postal Service is contrary to the spirit of the Veterans' Preference 
Act and not in the best interests of the Postal Service. Most often, 
the savings the Postal Service purports to be seeking through 
contracting out prove to be illusory. Veterans are losing their postal 
employment rights because the Postal Service is not preserving these 
restricted jobs for them in accordance with Federal policy. The Postal 
Service should be required to bargain with the APWU before it can 
contract out any restricted job, and that if the parties cannot reach 
agreement on the decision to contract out, the dispute resolution 
procedures of the Postal Reorganization Act should be applied.
    Another problem is that, in a time of continuing automation and 
stable or declining First Class Mail volume, the Postal Service is not 
likely to be hiring a large number of new workers. It may be that the 
most effective way to provide employment opportunities for veterans 
would be to identify additional positions that could be restricted for 
the employment of veterans.
    If veterans are to be provided meaningful postal employment 
opportunities as they have in the past, effective steps need to be 
taken to inform veterans of their rights. The military should be 
required to provide effective exit counseling to discharging veterans 
informing them of their preference rights. The Veterans' Administration 
needs to provide effective job counseling services that include 
information about veteran's preference rights and employment 
opportunities. And the Postal Service must systematically provide 
information about employment opportunities to the military, to the 
Veterans' Administration, and to veterans themselves.
    In closing, I want to thank the Committee for providing the APWU 
this opportunity to speak out for returning veterans. We hope that our 
testimony will assist the Committee in determining what needs to be 
done to benefit our newest generation of veterans. APWU and its members 
look forward to welcoming additional veterans who will be joining our 
ranks. We will be proud to have them as new union brothers and sisters. 
We very much appreciate your assistance in achieving this goal.
    I will be happy to respond to any questions the Committee my have.

                                 <F-dash>
                Prepared Statement of Brian E. Lawrence,
  Assistant National Legislative Director, Disabled American Veterans
    Madame Chair and Members of the Subcommittee:

    On behalf of the 1.3 million members of the Disabled American 
Veterans (DAV), I appreciate the opportunity to present our views on 
veterans' preference.
    For four and a half years members of the Armed Forces have 
sacrificed more for our freedom and security than the vast majority of 
our citizens will ever be able to imagine. Aside from death, severe 
injury, and the atrocities of war, service members face multiple, long 
separations from their homes, families, and the lifestyles they would 
prefer to live. While such a proportionately small segment of our 
population willingly faces some of the greatest challenges life can 
present, the rest of us enjoy a level of liberty and prosperity known 
in few places throughout the world. We must never forget that such 
blessings would not exist without the bravery and self-sacrifice of 
those who are willing to serve.
    We as a nation have a moral obligation to ensure that those who 
have served, and especially those who are injured while serving, are 
provided benefits that will allow them to rejoin society and lead as 
normal lives as possible. Along with health care and compensation for 
service connected disabilities, we must ensure that disabled veterans 
and other veterans have opportunities to obtain gainful employment. 
Doing so is not only a moral obligation, it is wise economic policy 
from a national perspective.
    By virtue of their service, military veterans have already 
established that they are disciplined, task-oriented workers who are 
drug-free. Veterans hold great potential to fortify any job market, but 
more than any other segment of the workforce, our Federal Government 
should be first in line to offer positions to those who have already 
served the Federal Government in its most demanding roles. While this 
would appear to be a common sense practice that requires no 
encouragement, it is far from being a routine occurrence. It seems 
implausible that Congress would be forced to require by law that 
veterans be given a preference in Federal employment. Yet, it is so, 
and Congress must continually provide oversight to ensure veterans' 
preference laws are upheld.
    Madame Chair, the DAV is grateful that you, Ranking Member Boozeman 
and the Members of the Subcommittee have directed your focus toward 
this issue. On nearly a daily basis, my office receives inquiries from 
disabled veterans who believe their preference rights have been 
overlooked or ignored. From their perspective, veterans' preference is 
little more than lofty rhetoric, and there is no enforceable mechanism 
in place to verify that consideration was given to their status. 
Bureaucratic techniques used by hiring officials to avoid granting 
veterans their preference are common knowledge to anyone who has 
struggled to obtain a Federal position. Job seekers wishing to use 
veterans' preference points quickly become familiar with terms, such as 
`use of multiple certificates' and `outstanding scholar program', which 
are two methods used to dodge veterans' preference. Additionally, when 
veterans feel their preference rights were ignored, there is no clear 
authority to which they may appeal. Having no enforcement or redress 
capability, veterans have lost confidence in the value of their 
employment preference. It is a bitter notion that those whose Federal 
service placed them in peril must standby as others cut into line ahead 
of them for Federal employment.
    The DAV would like to reiterate how important veterans' preference 
is to returning service members and veterans. We believe that efforts 
to promote and enforce veterans' preference laws are inadequate. The 
DAV urges the Subcommittee to support legislation that will restore the 
value of veterans' preference laws. Additionally, we urge the 
Subcommittee to support adequate funding for the Department of Labor 
(DoL) Veterans Employment and Training (VETS) which is responsible for 
investigating when veterans believe their preference was denied. 
Veterans' preference should be a simple, unavoidable advantage for 
Federal employment, and there should be a clear procedure for veterans 
to appeal when consideration has not been afforded to their military 
service. Should a fellow job candidate be selected over a veteran based 
on greater credentials, it is proper. However, the hiring official must 
be able to state in specific and certain terms precisely why the 
veteran was less qualified than the job recipient.
    In August, during the DAV National Convention in New Orleans, 
Louisiana, our membership voted to again adopt a long standing 
resolution calling for a substantive preference for veterans seeking 
Federal employment. Several DAV members serve under DoL as Disabled 
Veteran Outreach Program (DVOP) specialists, and Local Veterans 
Employment Representatives (LVER). These employment specialists know 
firsthand that preference laws offer little leverage to veterans 
seeking a Federal position.
    Madame Chair and Members of the Subcommittee, the DAV appreciates 
the opportunity to present our views on this issue. We look forward to 
our continued work with the Subcommittee to serve our nation's disabled 
veterans and their families.

                                 <F-dash>
    Prepared Statement of the Honorable Neil A. G. McPhie, Chairman,
                  U.S. Merit Systems Protection Board

    I am delighted to accept the invitation from Chairwoman Herseth 
Sandlin, Ranking Member Boozman, and Members of the Subcommittee for 
the opportunity to share the views of the Merit Systems Protection 
Board (MSPB) regarding the application of veterans' preference in 
Federal employment policies and practices. The Subcommittee has asked 
me to address the following questions:

    1.  How many cases involving veterans' preference were brought 
before MSPB and what were the rulings in those cases?
    2.  How many were of merit?
    3.  What are the most common complaints you received from veterans' 
regarding hiring through veterans' preference?
    4.  What is your opinion on agencies' adherence to veterans' 
preference?

    I will first provide a brief overview of MSPB's structure and 
operations followed by responses to the Subcommittee's inquiries.
BACKGROUND
    The Merit Systems Protection Board (MSPB) is an independent quasi-
judicial agency established to protect Federal merit systems and the 
rights of individuals within those systems. The MSPB carries out its 
statutory missions by adjudicating certain employee appeals and 
conducting studies of the Federal civil service and other merit systems 
in the Executive Branch to determine whether they are free from 
prohibited personnel practices.
    I am honored to serve as the 7th Chairman of the Merit Systems 
Protection Board. The Merit Systems Protection Board has three members, 
appointed by the President with Senate confirmation, who serve 
staggered 7-year terms. Individual appeals are initially filed in one 
of MSPB's 6 regional or 2 field offices, where an administrative judge 
considers evidence from the parties and renders an initial decision. 
Either party can seek review of that decision before the full Board. 
The MSPB receives about 7,000 appeals in its regional and field offices 
each year, and in about 20% of those cases, one of the parties files a 
petition for review before the 3-member Board.
    Veterans' preference in Federal employment has existed in some form 
since the Civil War era. The Veterans' Preference Act of 1944 
consolidated the various veterans' preference rules found in prior 
statutes, regulations, and executive orders. This Act remains the 
primary source of veterans' preference rights to this day. Veterans' 
preference rules apply in two major areas: reductions in force (RIFs) 
and hiring.
THE MERIT SYSTEMS PROTECTION BOARD'S VETERANS' PREFERENCE CASELOAD
    Since its creation in 1978, MSPB has had the authority to resolve 
veterans' preference issues in the RIF context as part of its general 
jurisdiction over RIF appeals. The last time that the Board was called 
on to decide significant questions involving the application of 
veterans' preference in RIFs was in the early nineties, when hundreds 
of veterans filed MSPB appeals challenging how they were treated in a 
nationwide reorganization of the Postal Service. Based on the cases I 
have seen since joining MSPB in 2003, there does not appear to be much 
confusion over how veterans' preference operates in RIFs, and in fact 
MSPB has not received large numbers of RIF appeals in recent years.
    Veterans' preference in hiring is another matter. Until 1998, MSPB 
did not have authority to decide claims for violation of veterans' 
preference rules in hiring. That year, Congress enacted the Veterans 
Employment Opportunities Act (VEOA), which granted MSPB authority to 
decide appeals brought by preference eligibles and certain other 
veterans who allege a violation of their employment rights. The 
Veterans' Preference Act and the Pendleton Act together require that 
when a preference eligible has applied for a position in the 
competitive service, the agency may make an appointment only after 
conducting a competitive examination with application of veterans' 
preference, unless the agency chooses to fill the position under a non-
competitive appointing authority created by statute or regulation. 
Since 1998 MSPB has received approximately 1,600 VEOA appeals in its 
regional and field offices, the vast majority of which contained 
allegations that the appellant's nonselection constituted a violation 
of veterans' preference rules. The most common claims that MSPB sees in 
VEOA appeals are that the hiring agency:

    <bullet>  Failed to conduct a competitive examination with rating, 
ranking, and veterans' preference points;
    <bullet>  Failed to correctly apply veterans' preference rules in a 
competitive examination;
    <bullet>  Failed to provide veterans' preference in a promotion 
action;
    <bullet>  Denied a veteran the right to compete for a vacancy; and/
or
    <bullet>  Improperly canceled a vacancy announcement.

    Some of these claims are resolved under what are now well-
established legal principles. For example, veterans' preference rules 
do not apply to promotion from among a pool of internal candidates, nor 
do veterans' preference rules prohibit cancelation of a vacancy 
announcement after applications are received. Cancelation of a vacancy 
announcement when a veteran appears at the top of a certificate of 
eligibles is sometimes cited as evidence of discrimination against 
veterans, and MSPB has authority to decide such a claim under the 
Uniformed Services Employment and Reemployment Rights Act. The result 
in such a case depends on the strength of the evidence and the 
particular facts of the case.
    Likewise, whether an agency violated rules governing veterans' 
preference in a competitive examination is decided on a case-by-case 
basis. For example, in 2005, MSPB determined that some appointments 
under the Outstanding Scholar Program violated the rights of 
preference-eligible veterans.
    The Homeland Security Act of 2002 authorized governmentwide use of 
``category rating'' as an alternative to traditional competitive 
examinations with rating and ranking and addition of veterans' 
preference points. Category rating is a flexibility that agencies may, 
but are not required, to use. So far, the Board has not seen a large 
number of VEOA appeals challenging how veterans' preference is applied 
in the category rating context.
    The Merit Systems Protection Board's Office of Policy and 
Evaluation conducts studies of the Federal civil service, and has 
gathered some noteworthy information concerning the employment of 
veterans by the Federal Government. We have recently conducted two 
studies that provide some information related to veteran's perceptions 
of the hiring process. The first was a study focusing on entry-level 
hiring, while the second looked at upper-level hiring.
    We found that in FY 2005, 18% of the new hires in full-time, 
permanent professional and administrative positions at the GS-5, -7, -9 
levels were veterans. The rate of hiring of veterans for all entry-
level positions, which includes technical and blue-collar occupations, 
was 21.5%. In higher level positions (grades 12 through 15), 42% of all 
new hires in FY 2005 were veterans, a 12% increase from the level of 
veteran hiring in FY 2001. About 55% of veterans hired for upper-level 
positions in FY 2005 were appointed under authority of the VEOA, which 
requires agencies to allow veterans to compete for vacancies that would 
otherwise have been closed to non-status outside candidates.
    The use of VEOA as a hiring authority has increased steadily since 
its enactment. In FY 2000, 520 veterans were hired under VEOA to fill 
these upper level positions; by FY 2005, the number had grown to 3,132. 
During FY 2005, DoD and its components made 86 percent of all VEOA 
selections; while the Department of Homeland Security, the Department 
of Energy, the Veterans Administration and the General Services 
Administration accounted for another 10 percent.
    During the course of responding to the 2005 survey questions a few 
of the respondents articulated the following concerns with the Federal 
hiring process:

    <bullet>  Military experience was not given enough credit when 
agencies set starting pay;
    <bullet>  Agencies did not award appropriate credit for military 
experience when determining a veteran's accrual rate of annual leave;
    <bullet>  Military organizations did not adequately equip military 
personnel transitioning to civilian life with the skills needed to 
prepare resumes;
    <bullet>  The process was too long; and
    <bullet>  The process was too complex.
MERIT OF VETERANS' PREFERENCE APPEALS
    You asked for the number of veterans' preference appeals ``that are 
of merit.'' Because there has been no compelling need in the past to 
maintain adequate statistics regarding veterans' preference cases, MSPB 
has not maintained statistics on the number of decisions that are 
rendered in favor of the appellant in veterans' preference appeals. 
Similarly, MSPB has not maintained statistics on the specific 
percentage of VEOA appeals that are resolved through settlement 
agreements. However, we can say that more than half of all appeals that 
are within the MSPB's jurisdiction and filed on time are settled, with 
no MSPB decision on the merits. If Congress would like for MSPB to 
maintain this data in the future, we would be happy to work with 
Subcommittee Members and staff to provide such information.

ADHERENCE TO VETERANS' PREFERENCE REQUIREMENTS BY OTHER FEDERAL 
        AGENCIES
    Finally, you asked for my opinion regarding the adherence of other 
Federal agencies to veterans' preference requirements. The MSPB has not 
conducted any studies that systematically address the issue of 
agencies' adherence to veterans' preference. For this reason, we have 
no basis to form an opinion on how well other agencies are complying 
with veterans' preference requirements. Instead, adherence to veterans' 
preference is best determined on a case-by-case basis, and assessing 
overall agency adherence to veterans' preference requires an in-depth 
understanding of each agency's particular hiring practices and 
decisions.
    In conclusion, the MSPB is proud of its record of providing fair 
and efficient resolution of individual disputes within its 
jurisdiction, including those filed alleging violations of veterans' 
rights. Additionally, the MSPB will continue to provide valuable 
objective analyses of the Federal civil service through the studies it 
conducts. We would be happy to be of further assistance or provide 
additional information to the Subcommittee as its Members and staff 
carry out this important work.

                                 <F-dash>
       Prepared Statement of the Honorable Patricia S. Bradshaw,
     Deputy Under Secretary of Defense (Civilian Personnel Policy),
                       U.S. Department of Defense

                              INTRODUCTION

    Mr. Chairman and Members of the Subcommittee, thank you for the 
invitation to be here today. I appreciate this opportunity to discuss 
the Department of Defense (DoD) views on veteran' preference, as it 
applies to employment, and our success with the program. The DoD values 
the expertise and commitment of our service members and we place 
special emphasis on supporting our wounded service members. We 
currently have over 227,000 veterans with preference working for the 
Department or about one-third of the DoD civilian workforce. As the 
largest Federal employer of veterans, we are committed to providing 
employment opportunities as civil service employees for the men and 
women who have served honorably on behalf of our Nation.

                   COMMITMENT TO VETERANS' PREFERENCE

    We recognize that the transition from military service to civilian 
service can be challenging. To ease this transition, the Military 
Components (in coordination with the Department of Veterans Affairs 
(VA) and the Department of Labor (DoL)) provide assistance and support 
to separating veterans including pre-separation counseling, benefits, 
job coaching, resume writing, and information on employment 
opportunities, including those in the Department of Defense as well as 
the rest of Federal Government.
    There are two special appointment authorities available to all 
Federal agencies that are primarily used by the Department to appoint 
eligible veterans without competition. These are:
 The Veterans' Recruitment Appointment (VRA) is an authority that can 
        be used when:

    <bullet>  The grade level of the position does not exceed GS-11 (or 
equivalent in other pay systems); and
    <bullet>  The veteran is ``qualified,'' i.e., able to perform the 
essential duties of the position.
    <bullet>  Agencies must establish a training or education program 
for any VRA appointee who has less than 15 years of education. The 
program should meet the needs of both the agency and the employee.
    <bullet>  After 2 years of successful employment, the employee must 
be converted to a permanent career/career-conditional appointment; and
    <bullet>  When used for temporary or term appointment, the VRA 
authority does not lead to conversion to a permanent position; and
30 percent or more Disabled Veteran Hiring Authority. This authority 
        can be used when:

    <bullet>  The veteran must have a compensable service-connected 
disability of 30 percent or more.
    <bullet>  The disability must be documented by a notice of 
retirement or discharge due to service-connected disability from active 
military service dated at anytime, or by a notice of compensable 
disability rating from the Department of Veterans Affairs.
    <bullet>  The veteran must meet all qualification requirements for 
the position.
    <bullet>  The veteran can be appointed to any grade level or 
equivalent in a variety of occupations.

    Currently, we have 33,681 veterans with a compensable service-
connected disability of 30% or more working for the Department. Again, 
approximately one-third or over 227,000 employees of the Department's 
civilian employees are veterans with preference. Of that total, 34 
percent are in GS-09 or above positions in a variety of occupations.

------------------------------------------------------------------------
    Veterans in Department of Defense           Number of Employees
------------------------------------------------------------------------
30 Percent or More Disabled Veterans                             33,681
------------------------------------------------------------------------
Other Veterans (5 point and 10 point)                           194,049
------------------------------------------------------------------------
Total Veterans with preference in DoD                           227,730
------------------------------------------------------------------------

                          TARGETED RECRUITMENT

    The Department is actively engaged in a targeted recruitment 
program titled ``Hiring Heroes''. The goal of the ``Hiring Heroes'' 
career fairs is to inform and educate our wounded service members on 
the various employment opportunities available to them after they 
complete their military service, as well as introduce them to potential 
employers and non-profit organizations that can offer assistance to 
them during their transition. The fairs provide a unique environment 
where our service members can meet face-to-face with employment 
recruiters, learn first hand about jobs and career choices, and 
establish connections with potential employers. Typically 50 to 70 
organizations, including state and local governments, non-profit 
organizations, and other Federal organizations participate in the 
career fairs and offer their services to our members. I am proud to say 
that the fairs are conducted in concert with our DoL and VA partners.
    Generally lasting 2 days, the fairs provide our service members 
with technical workshops covering a variety of topics such as resume 
writing, job interview skills, and learning about other benefits to 
which they are entitled. To date, nine of the eleven career fairs have 
been held at or near Medical Treatment Facilities. Many of the service 
members who attend these fairs are still in the recovery period and 
actively engaged in rehabilitation. Although they are not ready to 
begin work, the fairs provide an opportunity for them to visit with 
potential employers and make valuable connections which will help the 
veterans when they are ready to rejoin the workforce. Although the 
focus of the fairs is primarily the severely wounded and injured 
service members, we also welcome their spouses and other family members 
who may be acting as the injured service members' main care givers.
    The most recent Hiring Heroes career fair was held at the Marine 
Corps Air Station in San Diego, California. This location was ideal 
because Miramar is a central location in southern California and could 
target service members at Balboa, the hospital at Camp Pendleton, 
Twenty-nine Palms, and any other service members in the area. While 
each job fair has been a success, I would submit that, measured by 
several factors, this has been the most noteworthy to date. We had over 
350 attendees and 70 employers. Of significance was the number of 
Medical Holdover patients from Balboa and the hospital at Camp 
Pendleton in attendance. So, while we expanded the audience, we were 
able to concentrate on ensuring that the targeted audience received 
particular attention.
    The most impressive element of this event was the coordination of 
efforts with the staff at Balboa and Camp Pendleton in their transition 
centers. The transition centers are staffed by DoD, Navy and VA 
personnel. DoL-funded state government personnel also provide 
transition employment assistance services. This collaboration of 
efforts can serve as a model for how to successfully coordinate service 
member transition preparation. It was particularly rewarding to observe 
service members at the career fair with their resumes and renewed 
confidence.
    We will continue our Hiring Heroes job fairs with the next ones 
planned for mid-September to reach out to our service members located 
at Madigan Army Medical Center, Fort Lewis, Washington and Brooke Army 
Medical Center, Fort Sam Houston, Texas.

                          WEB-BASED RESOURCES

    In addition to the job fairs, we have developed an interactive 
website titled ``Disabled Veterans: Opportunities to Use Your 
Abilities.'' The interactive website can be found at www.dodvets.com. 
The website provides individuals with information about DoD and Federal 
career possibilities and helps them navigate through the hiring 
procedures more easily. Also available is a video that showcases 
several injured service members who have transitioned from military 
service and now have rewarding careers as civilians with the DoD.
    The website contains a section with clear and detailed answers to 
commonly asked questions regarding veteran' preference and the 
transition to civilian employment. The website also contains links to 
additional information on internships, scholarships, fellowships, 
grants, loans and financial aid, transition centers, and education and 
training.
    Furthermore, there is a section that provides information for our 
managers--those individuals who are making the hiring decisions. Our 
managers are on the front lines and are able to help break barriers to 
employment by thinking creatively and resourcefully. Within DoD, we 
have a wide range of occupations that can offer disabled veterans 
diverse, challenging and rewarding careers. The DoD work-life 
initiatives such as telework and alternative work schedules offer 
options that can enable disabled veterans to contribute their talents. 
This website provides links for managers to obtain general information 
and resources about tools to hire talented, disabled veterans. Last, 
any unanswered questions can be sent to us via email or by phone and we 
will respond within 48 hours.

                               CONCLUSION

    In summary, today&#39;s veteran brings a wealth of knowledge, 
skills, and abilities to the job. The Department is well positioned 
with hiring flexibilities that can be used to place veterans easily and 
quickly into the DoD workforce. The statistical numbers show that the 
Department is committed to the employment of veterans. However, we are 
not resting on our laurels. We continue to reach out to veterans and 
wounded warriors through aggressive marketing campaigns such as the 
Hiring Heroes program and by providing access to employment related 
information via the Internet.
    Thank you for the opportunity to present our views on the veteran' 
preference program. I look forward to your questions.

                                 <F-dash>
        Prepared Statement of the Honorable Boyd K. Rutherford,
 Assistant Secretary for Administration, U.S. Department of Agriculture
    Madam Chair Herseth-Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, thank you for the opportunity to come before you to 
discuss veterans' preference and the success the United States 
Department of Agriculture (USDA) is having in recruiting and retaining 
veterans in its workforce.
    USDA is a leader in America's food and agricultural systems, 
helping the farm and food sectors operate in a highly competitive 
marketplace to respond to changing consumer demands for high quality, 
nutritious, and convenient food and agricultural products. USDA also 
carries out a wide variety of services and activities related to the 
management, research, and conservation of the Nation's agricultural 
resources. In carrying out its mission and achieving its goals, USDA's 
human capital--its employees--is its greatest asset.
    As the Department's Chief Human Capital Officer, I have a duty to 
assure USDA has the workforce capable of carrying out the Department's 
mission. With a growing retirement eligible workforce, USDA is 
compelled to design and implement a multi-faceted approach to 
succession planning and recruitment that will ensure the continued 
existence of the mission-critical talent pools. The challenge of an 
aging workforce is exacerbated by an increase in competition for 
skilled employees and an increasingly technical environment. The demand 
for people with expertise in information technology, public health, and 
science-based technologies requires more attention toward effective 
recruitment, training, retention, and knowledge transfer strategies. At 
USDA, we use these strategies to fill the more than 340 different job 
series that include everyone from firefighters to research scientists, 
agricultural economists to food inspectors, veterinarians to 
procurement and human resources professionals. Almost any career a 
veteran could imagine is possible at USDA.
Veteran Preferences
    As you are well aware, veterans' preference laws were initially 
enacted by Congress as early as the Civil War to prevent veterans 
seeking Federal employment from being penalized for their time in 
military service. Veterans' preference recognizes the economic loss 
suffered by our citizens who have served their country in uniform, 
restores veterans to a favorable competitive position for government 
employment, and acknowledges the larger obligation owed to our veterans 
and particularly those who were injured in their service to our 
country.
    Preference has been reserved for those who were either disabled or 
who served in combat areas. Veterans' preference in its present form 
comes from the Veterans' Preference Act 1944, as amended, and is now 
codified in various provisions of title 5, United States Code. 
Preference applies to hiring for virtually all Federal jobs, whether in 
the competitive or excepted service. In addition to receiving 
preference in competitive appointments, veterans may be considered for 
special noncompetitive appointments for which only they are eligible.
Appointment Authorities
    There are three ways veterans can be appointed to jobs in the 
competitive civil service: by competitive appointment through a list of 
eligibles developed by the Office of Personnel Management (OPM) or 
agency equivalent, by noncompetitive appointment under special 
authorities that provide for conversion to a permanent appointment, or 
by Merit Promotion selection under the Veterans Employment 
Opportunities Act (VEOA).
    A competitive appointment is one in which the veteran competes with 
other candidates on an OPM list of eligibles (or agency equivalent 
under delegated examining authority). This is the normal entry route 
into the civil service for most employees. Veterans' preference applies 
in this situation, and those veterans who qualify as preference 
eligibles have an additional 5 or 10 points added to their passing 
examination score under traditional rating and ranking or are listed 
ahead of non-preference eligibles within a category under category 
rating and ranking.
    A noncompetitive appointment under special authority is one such as 
the Veterans Recruitment Appointment (VRA) authority (formerly known as 
the Veterans Readjustment Appointment authority) and the special 
authority for 30 percent or more disabled veterans. Eligibility under 
these special authorities provides veterans a significant advantage in 
that an agency may simply appoint the eligible veteran to any position 
for which he or she is qualified (limited to the GS-11 grade level, or 
equivalent, and below for VRAs.). There is no red tape or special 
appointment procedures. However, use of these special authorities is 
discretionary with the agency. Veterans' preference applies when making 
appointments under these special authorities if there are two or more 
candidates and one or more is preference eligible. These authorities 
provide for noncompetitive conversion to the competitive service after 
a suitable period of satisfactory service.
    A Merit Promotion selection under the VEOA is one in which the 
veteran competes with current Federal employees under an agency's merit 
(or internal) promotion procedures. The VEOA allows preference 
eligibles or veterans to apply under an agency merit promotion 
announcement open to candidates outside the agency. However, agencies 
do not apply veterans' preference when considering individuals under 
merit promotion procedures or under the VEOA. Selection under this 
special authority, as with other authorities, is discretionary with the 
agency. A VEOA eligible who competes under merit promotion procedures 
and is selected will be given a career or career conditional 
appointment.
Recruitment Activities
    To attract a diverse, highly skilled workforce, USDA markets itself 
as the ``Employer of Choice'' in the Federal Government. All USDA job 
opportunities, including announcements identifying noncompetitive 
appointing authorities and merit promotion authorities for veterans, 
are posted on the OPM's USAJobs.gov website. All vacancy announcements 
post the name and telephone number for applicants to contact if they 
want to obtain reasonable accommodation for any part of the application 
process. Vacancy announcements are sent weekly to State Employment 
Services, various Veterans' organizations, and rehabilitation agencies 
to help alert veterans to career opportunities with USDA.
    As a large, decentralized agency, USDA has implemented a myriad of 
recruitment efforts through its individual agencies. The Food Safety 
and Inspection Service (FSIS), for example, often advertises vacancies 
in the Vet Forum and Veteran's Life magazines. In 2006, FSIS entered 
into a partnership with Virginia's Department of Rehabilitative 
Services (DRS) and provided training to DRS employees and other 
affiliated organizations on special hiring authorities for persons with 
disabilities, as well as guidance on resume writing and interviewing. 
The Rural Development State office in Maine developed a relationship 
with the local Department of Defense military installations, forwarding 
vacancy announcements directly to them. They also e-mail all vacancy 
announcements to the American Legion and Veterans of Foreign Wars to 
ensure that local veterans are aware of job opportunities through 
state-wide newsletters and bulletins.
    On behalf of the entire Department, I have become personally 
involved in the ``Coming Home to Work'' initiative sponsored by the 
Department of Veterans Affairs' Vocational Rehabilitation and 
Employment Program (VR&E). This Initiative places a special emphasis on 
assisting Operation Iraqi Freedom and Operation Enduring Freedom 
service members.
    Through the ``Coming Home to Work'' initiative, civilian work 
experience is made available to VR&E eligible service members, pending 
their medical separation from active duty at major military treatment 
facilities. Participants work with a Vocational Rehabilitation 
Counselor to obtain unpaid work experience in a Federal, State or local 
government facility. The goal of this program is for VR&E eligible 
service members facing medical separation to gain or sharpen civilian 
job skills at a point in their recovery when they are deemed ``work-
ready'' by a Vocational Rehabilitation Counselor. The types of work may 
include administrative, clerical, professional, technical, or wage 
grade positions. Work assignments are dependent on the aptitudes, 
interests, and abilities of the participant.
    This program assists veterans in establishing an employment history 
and expands their ability to hone the skills developed under their 
vocational rehabilitation plans. It provides exposure to Federal 
employment opportunities and the special Federal hiring authorities for 
which veterans qualify.
    While USDA has already randomly used this program in our 
Departmental Human Resources Division, we are in the process of 
expanding the Department's involvement with the program. USDA is 
developing administrative, human resources, and procurement position 
descriptions to meet the specific talents and needs of those 
participating in the ``Coming Home to Work'' initiative. Through these 
positions, we hope to provide not only interim work opportunities to 
our Nation's veterans, but a stepping stone to a permanent position in 
the Federal workforce.
    USDA Human Resources offices continue to use various electronic 
national resume databases to establish contact with a variety of 
veterans programs and organizations as well as to participate in 
veteran targeted job and career fairs. However, in many instances, we 
find that our own veteran employees are our best recruiters. Through 
their associations with veteran organizations, our current veteran 
employees serve as conduit to the veteran community to promote 
employment opportunities throughout USDA.
    I am pleased to report that of the 108,840 USDA employees, 11,517 
or 10.6 percent are veterans, of which 6,776 occupy positions at the 
GS-9 salary level or above. In 2006, USDA hired 21,023 new, full-time 
employees of which 1,332 were disabled veterans. More than 10 percent 
of the disabled veterans employed by the Department are 30 percent or 
more compensable.
    Statistics and recruitment efforts, however, only tell a portion of 
the story. In 2003, Steven Dickerson was just completing his masters 
program in social work at the University of Nevada at Reno when he came 
to the attention of the Forest Service who was interviewing candidates 
under the government's Workforce Recruitment Program (WRP). The WRP, 
cosponsored by the Department of Labor and the Department of Defense, 
is a program that identifies college students with disabilities to work 
as interns for Federal Government agencies in summer and permanent 
jobs. As a result of WRP, DoL recently announced the availability of a 
national database of students with disabilities who have expressed 
interest in working for the government.
    Mr. Dickerson, a Vietnam veteran, was injured during the war in an 
aircraft incident resulting in him being both blind and using a wheel 
chair for mobility. In spite of these injuries, he returned to school 
and earned his undergraduate degree in Paralegal Studies--summa cum 
laude--and went on to graduate school to complete his Masters degree, 
as well.
    Gerry McGaughran, the Person's With Disabilities College 
Recruitment Liaison for the Forest Service, recognized Mr. Dickerson's 
potential value to the agency and referred him for consideration for 
vacancies within the agency. Later that same year, Mr. Dickerson was 
competitively selected by the Forest Service's Intermountain Regional 
Office as the Region's Employee Assistance Program Coordinator in 
Ogden, Utah.
    As a member of the Forest Service civil rights staff, Mr. 
Dickerson's duties include administering the Region's alternative 
dispute resolution and employee assistance programs where he mediates 
workplace disputes and trains other agency mediators. He has also 
enhanced the region's employee assistance program, which is now 
available 24 hours a day--7 days a week. He also counsels other 
veterans and people with disabilities having workplace issues. In order 
to perform his job, Mr. Dickerson uses a number of technical 
accommodations including a docking pen that interfaces with a computer 
to download messages and voicing software that converts text to speech.
    Steven Dickerson is a valuable member of the USDA family, not just 
because he's a veteran, but because of who he is, what he has 
accomplished, and what he continues to contribute to the mission of our 
agency.
    At USDA, veterans' preference is not only the law; it is an honor 
and a commitment we make to our National heroes who have sacrificed so 
much to keep our Nation free and safe.

                                 <F-dash>
     Prepared Statement of Anita R. Hanson, Outreach Group Manager,
                  U.S. Office of Personnel Management

    Good afternoon, Chairwoman Herseth Sandlin and Members of the 
Subcommittee. Thank you for the opportunity to appear before you today 
to discuss veterans' preference and the role of the U.S. Office of 
Personnel Management (OPM). I serve as Outreach Group Manager at OPM 
where I have primary responsibility on behalf of Director Linda 
Springer for outreach to returning service members and to all our 
Nation's veterans on the Federal employment hiring preferences they 
have earned. As a disabled Navy veteran, I care deeply about this topic 
and am proud to serve my country helping my fellow veterans.
OPM's Role
    Director Springer and all of us at OPM take very seriously our 
obligation to ensure that veterans have full access to Federal civilian 
jobs following their separation from military service. Our obligation 
is grounded in veterans' preference laws that have been a cornerstone 
of America's civil service since its inception.
    Veterans' preference is also at the very core of OPM's mission, 
which is to ensure the Federal Government has an effective civilian 
workforce. I would like to take a few moments to focus on our efforts 
across Government to promote and preserve veterans' preference and our 
work to educate veterans about Federal job opportunities as we help to 
prepare these American heroes for their transition from military 
service.
Oversignt and Accountability
    As part of our oversight of human capital management 
responsibilities at OPM, we use an audit-based approach to ensure that 
competitive hiring practices used by Federal agencies comply with 
veterans' preference laws and merit system principles. Since 1996, when 
OPM began broadly delegating examining authority to Federal agencies, 
we have conducted almost 1200 audits of agency delegated examining 
units (DEUs). Our audits cover all aspects of competitive examining, 
including the application of veterans' preference. We also annually 
conduct Human Resource Operations Audits that examine a number of 
agency human resources (HR) programs, including competitive examining 
and the use of veteran hiring authorities and practices.
    As part of every OPM audit, we rigorously examine recruitment 
actions, how applications are handled and processed, and how selection 
decisions are made. We carefully examine whether veterans' preference 
was properly applied, and we review certificates of eligible candidates 
to see if there are patterns in how those certificates are used--or not 
used--that would indicate whether or not veterans are receiving 
legitimate consideration.
    For the past 2 years, OPM has been helping agencies establish sound 
internal accountability systems to ensure HR programs operate within 
merit system principles and comply with veterans' preference laws and 
regulations. When agencies conduct their own audits, which are key 
components of these accountability systems, OPM actively participates 
to ensure compliance with laws and regulations, including the 
application of all aspects of veterans' preference.
    When we find violations of law or regulation, we take steps to 
ensure corrective action is taken. We can direct an agency to give a 
veteran priority consideration for the next job vacancy for which he or 
she is qualified if we believe that veteran was denied preference 
previously. If we find evidence that veterans' preference was knowingly 
denied, which is a prohibited personnel practice, we would then refer 
the matter to the Office of Special Counsel or the agency's Inspector 
General. We may also withdraw an agency's delegated examining authority 
if we find systemic problems.
    In our experience, the vast majority of Federal agencies follow 
veterans' preference requirements to the letter of the law. We 
typically do not see systemic violations of veterans' preference across 
an entire agency. When we do find problems, they tend to be isolated to 
a specific installation or organization and are typically caused by 
inadequate direction or lack of adequate accountability systems.
Hiring and Retention
    OPM works diligently to make sure all Federal agencies understand 
the value and importance of hiring those who have answered the call to 
duty. As you may know, we have predicted that more than 60 percent of 
the Federal workforce will be eligible to retire over the next decade. 
As such, we have an enormous recruitment challenge where we simply 
cannot afford to overlook a talent pool as rich and varied as veterans. 
The dedication and professionalism of the men and women who serve in 
the armed forces are without equal. As members of the best trained 
volunteer military in the world, veterans have demonstrated an aptitude 
for excellence, hands-on experience, and teamwork.
    Our most recent annual report to Congress in November, 2006 
indicates that one of every four Federal workers is a veteran--456,000 
out of 1.8 million. 93,000 of those veterans are disabled, nearly 
50,000 of whom are ``seriously'' disabled, meaning they have disability 
ratings of 30 percent or more. It is clear from this report that the 
Federal Government continues to lead the nation as an employer of 
choice for veterans and especially disabled veterans--and we expect 
this will continue to be the case when our next annual report is 
presented to the Congress this coming November. We are particularly 
proud of our record at OPM where nearly 30 percent of our new hires 
have been veterans, making us a leader among independent Federal 
agencies.
    Your letter of invitation also asked OPM to discuss veteran 
retention rates. Our review of available data from 93 Federal agencies 
indicates an average veteran retention rate of 88.4 percent between 
Fiscal Year 2005 and Fiscal Year 2006. Some of the highest retention 
rates are found at the Department of Veterans Affairs, Department of 
the Army, and Department of Homeland Security. Only 9 of the 93 
agencies we reviewed had retention rates less than sixty percent. We 
believe these numbers confirm that, on average, Federal agencies are 
succeeding in retaining veterans as part of the Federal workforce.
Outreach Efforts
    OPM also works directly with veterans to educate them on employment 
opportunities with the Federal Government. Our educational and 
recruitment initiatives provide veterans and agency hiring managers 
with timely and useful information on veterans' preference and Federal 
employment opportunities.
    Most recently, OPM hosted a first-of-its-kind live webcast offering 
comprehensive information on veterans' preference rights and 
eligibilities. A tape of the webcast is now available to veterans and 
their families 24 hours a day, 7 days a week, on OPM's website--
www.opm.gov/veterans.
    OPM staff frequently visit veterans' medical facilities and 
military installations where we speak with transitioning military 
members about opportunities to continue serving their country as part 
of the Federal civilian workforce. We provide training on how to 
effectively use our USAJOBS website where job vacancy announcements and 
applications can be found. We also provide training on resume writing, 
interviewing techniques, and general information on veterans' 
preference and other special appointing authorities for veterans. We 
provide similar employment help to veterans at job fairs across the 
country.
    Over the past 2 years, OPM has established veterans' outreach 
offices at Walter Reed Army Medical Center here in Washington, DC and 
Brooke Army Medical Center in San Antonio, Texas. A third outreach 
office will soon open at Ft. Carson, Colorado. As you know, work at 
these hospitals is aimed at helping wounded veterans recover physically 
and psychologically as they transition back to civilian life. We 
provide these wounded veterans with Federal job information and 
counseling; we offer classes that teach resume-writing and offer tips 
on how to translate military accomplishments into a set of documented 
knowledge, skills, and abilities (KSAs) that can be used when applying 
for Federal jobs.
    As another part of our outreach efforts, OPM meets quarterly with 
the major Veterans' Service Organizations (VSOs) to address important 
veterans' issues and to provide an opportunity for VSOs to share their 
concerns. We work closely with VSO leadership to ensure that veterans' 
preference rights are honored and protected throughout government, and 
we value the constructive working relationships we have developed.
Governmentwide Activities
    Issuing regulations and guidance is another way OPM fulfills its 
obligation to ensure veterans' preference is adhered to throughout the 
Federal Government. For example, we published regulations in January 
2006 making it a prohibited personnel practice to violate veterans' 
preference when using alternative rating and selection procedures 
commonly known as category rating.
    We continue to update our veterans' employment guidance, contained 
in our VETGUIDE and Delegated Examining Operations Handbook. Our 
website contains extensive guidance describing the rights and benefits 
of reservists called to active duty. We have also published a set of 
Frequently Asked Questions on military leave in recognition of the 
significant number of Federal employees currently serving in Iraq and 
Afghanistan.
    OPM has improved our web-based veterans' products in an effort to 
provide better customer service to veterans who are seeking Federal 
jobs. For example, we have enhanced our USAJOBS website to make it more 
veteran-friendly by providing prominent home page links to veterans' 
employment information and web resources at agencies and elsewhere.
    We have partnered with our colleagues in other Federal agencies to 
safeguard veterans' preference entitlements. We are proud of our 
teamwork with the Department of Labor's Veterans' Employment and 
Training Service (VETS) to help resolve veterans' preference and 
veterans' reemployment rights issues. And last year we revised and 
streamlined our most used Federal form--Standard Form 15, Application 
for 10 Point Veteran's Preference--by aligning it with current policy 
of the Department of Veterans Affairs and making it more user-friendly 
for both veterans and agencies.
    Most recently, OPM was proud to play an active role in the 
deliberations of the Task Force on Returning Global War on Terror 
Heroes established by President Bush on March 6, 2007. We believe the 
interagency recommendations produced by this task force will be very 
helpful to veterans as they transition back to civilian life.
Conclusion
    Madam Chairwoman, OPM is proud of its efforts to preserve and 
protect veterans' preference and we are committed to making sure 
Federal employment opportunities are made available to our veterans. I 
would be happy to answer any questions you or other Subcommittee 
Members may have regarding my statement.

                                 <F-dash>
  Prepared Statement of John M. McWilliam, Deputy Assistant Secretary,
      Veterans' Employment and Training, U.S. Department of Labor
    Madam Chairwoman and Members of the Subcommittee:
    I appreciate the opportunity to appear before you today to talk 
about the role of the Department of Labor's Veterans' Employment and 
Training Service (VETS) in assuring Veterans' Preference is applied in 
the Federal Government hiring process. We appreciate the interest of 
the Committee on this very important benefit for veterans, especially 
veterans returning from the Global War on Terror who are interested in 
working for the Federal Government.
    First let me say that we enjoy a very close working relationship 
with officials at the Office of Personnel Management (OPM). Our staffs 
are in regular contact with each other on both investigative and 
educational/outreach efforts. We work collaboratively with OPM to 
implement, enforce and improve Veterans' Preference in Federal hiring. 
We are both champions of Veterans' Preference, and we regularly 
communicate that to all Federal agencies and departments. We believe 
the Federal Government has an excellent record in hiring qualified 
veterans, and both agencies are committed to ensuring veterans receive 
all rights and benefits to which they are entitled under Federal 
employment laws.
Agency Responsibilities
    OPM is responsible for providing information to veterans and 
agencies on Veterans' Preference and the procedures for implementing 
the preference. OPM promulgates the regulations for Veterans' 
Preference and special hiring authorities for veterans, in addition to 
conducting periodic, systemic reviews of agency hiring practices.
    VETS is responsible for investigating and attempting to resolve 
Veterans' Preference complaints against Federal agencies filed under 
the Veterans Employment Opportunities Act (VEOA). The VEOA provides 
that a veteran or other preference eligible who believes that his or 
her rights under any law or regulation related to Veterans' Preference 
have been violated, may file a written complaint with VETS. We carry 
out our responsibility under the VEOA through the use of trained 
investigators in each of our state offices.
    The Merit Systems Protection Board (MSPB) is responsible for 
adjudicating Veterans' Preference complaints filed by a veteran or 
preference eligible person, if VETS has investigated and is unable to 
resolve the issue. The Office of Special Counsel (OSC) is responsible 
for investigating alleged prohibited personnel practices (PPPs) 
relating to failure to comply with Veterans' Preference requirements.
VETS' Investigative Procedures
    VETS investigates all official written Veterans' Preference 
complaints and if the case is found to have merit, we will make every 
effort to work with the agency to resolve it. If resolution cannot be 
achieved within 60 days, the claimant may elect to appeal to the MSPB.
    If VETS determines that a complaint has no merit, or, if the agency 
refuses to comply with VETS' determination that a veteran has presented 
a meritorious claim, the veteran has the right to appeal the original 
Federal agency's action to the MSPB within 15 days after the claimant 
is notified of the unfavorable resolution of his case. If the MSPB has 
not issued a judicially reviewable decision within 120 days, the 
claimant may file a claim in the appropriate U. S. District Court and 
the MSPB will cease all activity on the claim. If the MSPB or the U.S. 
District Court finds in favor of the claimant, the MSPB or the Court 
may order the agency to comply with the applicable provisions of law 
and award compensation for any loss of wages or benefits.
    To further support these efforts, VETS entered into a Memorandum of 
Understanding (MOU) with OSC in December 2000 requiring that any 
meritorious Veterans' Preference cases be automatically referred to OSC 
for review as potential PPPs.
Recent Veterans' Preference Investigative Data
    The table below shows Veterans' Preference investigative actions by 
VETS for Fiscal Years (FYs) 2005 and 2006, and through July for FY 
2007.

------------------------------------------------------------------------
                                                          FY 2007 (thru
                                      FY 2005   FY 2006       July)
------------------------------------------------------------------------
Carried in from previous years            45        67               29
Cases opened                             527       479              338
Cases closed                             506       517              335
Average Days Open                         24        31               30
Merit                                     15        18                9
No merit                                 380       309              220
Merit determination not made (Admin      111       130              106
 .Closure/Withdrawn/Not Eligible)
------------------------------------------------------------------------

    From the table above, it might appear that we are seeing a steady 
decrease in the number of Veterans' Preference cases. However, in FY 
2005, 156 cases were filed by one individual, which skews the data for 
that year. Based on numbers from FY 2006 and thus far in FY 2007, it 
appears there will be a decrease in caseload of approximately 16% in 
the current fiscal year. We believe this decline may be due in part to 
the efforts of Disabled Veterans Outreach Program (DVOP) specialists, 
Local Veterans Employment Representatives (LVERs), and Veterans Service 
Organizations (VSOs) in explaining Veterans' Preference to job-seeking 
veterans. Additionally, the Department's Employment Laws Assistance for 
Workers and Small Businesses (elaws) program (described below) and 
VETS' focus on informing service members of Veterans' Preference during 
Transition Assistance Program (TAP) employment workshops also have been 
instrumental in the decrease.
    The table also shows that most of the recent Veterans' Preference 
complaints filed with the Department have been determined to have no 
merit. There are three primary reasons for this:

    1.  There is significant confusion among veterans regarding the 
difference between open competitive and merit promotion job 
announcements. Since Veterans' Preference does not apply in merit 
promotion situations, many cases are closed with no merit findings 
because Veterans' Preference did not apply.
    2.  Many agencies do not respond to individual inquiries from 
veterans regarding the status of their applications. As a result, we 
receive numerous complaints that were filed before the veteran was 
notified of the results of the hiring process. In these cases, VETS 
opens a case file and then discovers that the position either still is 
pending, has been canceled, or that another veteran has been selected 
for the position and the agency had not yet notified other applicants 
of their hiring decision.
    3.  We also receive many complaints from preference eligible 
veterans because an agency makes a determination that the veteran is 
not qualified for the position. Since Veterans' Preference is only 
applied after an individual is determined to be qualified for the 
position, we cannot conduct an investigation on qualification issues. 
However, we will advise the claimant that he or she may request a 
second level review of their qualification issue with the agency, or to 
contact their OPM Service Center for additional assistance.
Outreach and Education Efforts
    In addition to our investigative responsibility, VETS conducts an 
extensive compliance assistance program. This outreach is focused on 
educating potential Veterans' Preference eligibles and Federal agencies 
with regard to Veterans' Preference rights and responsibilities.
    In 1997, the Department launched its Employment Laws Assistance for 
Workers and Small Businesses (elaws) program. This program consists of 
interactive e-tools or ``Advisors'' that provide easy-to-understand 
information about many of the Federal employment laws administered by 
DoL. The Advisor simulates the interaction a person might have with an 
employment law expert. It asks questions and provides answers based on 
the responses given.
    As part of the elaws program, VETS has developed a Veterans' 
Preference elaws Advisor (http://www.dol.gov/elaws/vetspref.htm). The 
Veterans' Preference Advisor was the first online elaws Advisor 
developed by DoL. This Advisor is consistently among the top five most 
popular elaws Advisors, just behind Advisors for the Fair Labor 
Standards Act and the Family and Medical Leave Act, even though 
Veterans' Preference applies to a much smaller population of eligible 
persons. In FY 2006, the Advisor had an average of over 10,000 visitors 
a month; and through June in FY 2007, an average of over 11,500 
visitors a month. The Advisor has been consistently updated to reflect 
regulatory changes, as well as advances in technology.
Complaints may now be filed electronically
    It is now possible for users to access and file Veterans' 
Preference complaints through the Veterans' Preference Advisor. After 
responding to the questions in the Advisor, and gaining a better 
understanding of his or her Veterans' Preference rights, the veteran or 
preference eligible is given the opportunity to file a complaint 
electronically. The electronic filing goes directly to a VETS 
investigator for processing.
    State of the art technology allows us to serve our customers with 
up-to-date information through the Advisor, 24 hours a day, 7 days a 
week, and to begin the complaint process in a most expeditious manner. 
The Advisor enables us to be at the forefront in providing outreach and 
information on Veterans' Preference, and to more quickly address and 
prevent violations of the law.
Disabled Veterans Hiring Initiative (DVHI)
    VETS also conducts outreach activities through our Disabled 
Veterans Hiring Initiative (DVHI). DVHI was developed several years ago 
to educate Federal agency human resources personnel and agency hiring 
officials on how to better use the available special non-competitive 
hiring authorities to hire certain veterans and disabled veterans.
    The DVHI initiative first focused on Federal agencies in the 
metropolitan Washington, D.C. area. We conducted presentations to the 
Federal Executive Boards in regions where there is significant Federal 
hiring. In addition, we have continued our special emphasis in the 
national capital region by hosting Federal job fairs specifically for 
veterans.
    In response to your questions regarding data about the number of 
veterans and/or disabled veterans applying for positions at DoL, we 
provide the following information:

          In FY 2006, 14,161 veterans applied for employment at DoL 
        (4,970 of them were disabled veterans). Of these veterans, 
        1,311 applied for positions with VETS, of which 630 were 
        disabled. In FY 2007, 15,273 veterans applied for employment at 
        DoL, of which 5, 219 were disabled. Of these veterans, 1,285 
        applied for positions at VETS, of which 571 were disabled.
          As of August, 26, 2007, veterans constitute 17% of DoL's 
        total workforce, and 5.4% are disabled. Veterans comprise 75% 
        of VETS' workforce, of which 53.6% are disabled.
          Further, of the DoL workforce in GS-9 or above positions, 18% 
        are veterans and 4.7% are disabled veterans. In VETS, 80.4% of 
        veterans are in a GS-9 or above positions, and 47.3% are 
        disabled veterans.
          In FY 2006, through Special Hiring Authorities and under the 
        VEOA, the Department hired 35 veterans including 3 veterans in 
        VETS. Under the Veterans Recruitment Authority (VRA) the 
        Department hired 16 veterans, including 8 veterans in VETS. 
        And, under the ``30% or more disabled'' veteran hiring 
        authority, the Department hired 2 such veterans in VETS.
          Through August 27, 2007, the Department hired 28 veterans 
        through the VEOA, 15 veterans under the VRA, 1 veteran in VETS, 
        and 2 veterans under the ``30% or more disabled veteran'' 
        hiring authority in VETS.
Partnership with OPM
    VETS collaborates continuously with OPM to help improve 
representation of veterans in the Federal workforce. Our respective 
staff members are in frequent communication regarding specific 
investigative issues and general trends in Veterans' Preference. 
Moreover, VETS makes regular use of the excellent material that has 
been developed by OPM.
    For example, the OPM ``Veteran Invitational Program'' provides 
information that promotes hiring of veterans and explains how veterans 
can apply for Federal employment. VETS has provided this information to 
all field staff that provide information to veteran employment 
specialists in America's workforce system, as well as directly to 
veterans and disabled veterans. VETS also distributed the OPM-produced 
DVD, ``What Veterans Need to Know About Veterans' Preference,'' to 
field offices for their use in making presentations to veterans.
    Finally, through the TAP Employment Workshops, VETS ensures that 
transitioning service members are provided essential information about 
Veterans' Preference as well as general information about the Federal 
hiring process and resources available. In addition, VETS developed a 
REALifelines (Recovery and Employment Assistance Lifelines) elaws 
Advisor. This Advisor was designed for wounded and injured service 
members and veterans transitioning to the civilian workforce and 
provides specific information on Federal employment, including 
Veterans' Preference and special hiring authorities, as well as one-on-
one employment assistance in each of our states.
    Madam Chairwoman, that concludes my statement and I would be happy 
to respond to any questions.

                                 <F-dash>
                 Prepared Statement of Willie Hensley,
       Deputy Assistant Secretary for Human Resources Management,
                Office of Resources and Administration,
                  U.S. Department of Veterans Affairs

    Madam Chairwoman and Members of the Subcommittee, good afternoon. 
Thank you for your invitation to appear before you this afternoon to 
offer testimony on veterans' preference and the Department of Veterans 
Affairs' (VA) success in recruiting, and hiring veterans.
    At VA, we see veterans every day who have sacrificed to defend and 
support this country. The Department fully supports the laws that place 
veterans, and particularly disabled veterans, in a favorable 
competitive position for government employment. We believe that 
affording veterans their statutory preference in employment is not 
merely the obligation of a grateful nation; it is good government and 
good business. It gives us an advantage in recruiting and retaining 
employees from a pool of the nation's most highly motivated, 
disciplined and experienced candidates. In addition to establishing 
internal policies that address veterans' preference, VA's Human 
Resources Oversight and Effectiveness program reviews specifically 
evaluate compliance with veterans' preference laws, regulations, and 
policies during on-site evaluations of Human Resources Offices 
throughout all parts of VA.
    VA has focused on veteran hiring for many years. In the last 15 
years, our efforts have included tracking the employment of veterans 
and veterans with disabilities by facility and working with lists of 
separating military members to contact and recruit veterans to 
employment in the Department. These programs have developed into much 
broader efforts and more focused programs and have resulted in VA 
placing in the top tier of agencies employing veterans. As of July 31, 
2007, over 77,000, or 31%, of VA's 250,000 employees are veterans. Over 
60,000 of the 31% are veterans' preference eligibles, and 19,000 (7.6% 
of all VA employees) are disabled veterans. VA ranks first among non-
Defense agencies in the hiring of veterans. This data, and all the data 
points that I will note today, are as of July 31, 2007. For cumulative 
data, the period is January 1, 2007 through July 31, 2007. We have used 
this period because in December 2006, VA implemented system changes 
that enable us to improve the accuracy and thoroughness of our veteran 
employment data. We are now able to identify and report on hiring of 
veterans who are not preference eligibles.
    VA regularly uses the special hiring authorities that target 
veterans: Veterans Recruitment Appointment, Veterans Employment 
Opportunities Act appointment, and 30% compensably disabled veteran 
appointment. Veterans are hired using other hiring authorities as well. 
In the first 7 months of 2007, VA has hired 5,094 veterans' preference 
eligibles and another 729 non-preference veterans.
    The Department has established a strategic target of 33% veterans 
in the employee population. One of the challenges that we face is the 
rate at which veterans are leaving the Department. The cohort of 
veterans who joined the Department after the Vietnam War is now 
eligible to retire. The number of Vietnam Era veterans, which was the 
largest veteran category in VA only 2 years ago, will continue to 
decline as our workforce ages. In addition, younger veterans, similar 
to other U.S. workers their age, are frequently more mobile and change 
jobs and employers more often than many older employees. On average, VA 
has lost about 810 veteran employees a month during the past 12 months. 
Countering these losses we have, on average, hired about 787 veterans a 
month during the past year. This has allowed the Department to maintain 
an overall employment rate of 31% for the last year. The success of our 
outreach and recruiting efforts has enabled us to maintain the high 
percentage of veterans in our workforce. Nonetheless, we are concerned 
that VA loses too many new veteran hires within their first year of 
employment. To identify the reasons why, we are developing a work group 
to research and develop solutions.
    VA's success in attracting and hiring veterans is due to a variety 
of programs that have become more sophisticated over the past 6 years. 
In 2001, VA established the National Veterans Employment Program (NVEP) 
within the Office of Human Resources & Administration with the mission 
of developing a VA-wide marketing and recruitment strategy to enhance 
the quality of employment information available to service members and 
veterans. A major goal of the program is to provide greater access to 
VA career information to veterans and separating active duty service 
members. NVEP is the Department's leading advocate for the employment 
of veterans and promotes efforts to assist veterans in understanding 
and using veterans' preference and other special hiring authorities to 
obtain employment in VA and the Federal sector. NVEP staff visit 
military transition centers, participate in military job fairs, and 
attend military association and veteran service organization 
conferences and meetings, as well as, other events that target veterans 
and transitioning military members, such as, the New York Times Salute 
Our Heroes Job Fair and Career Expo. NVEP staff also work with VA Human 
Resources staff throughout the Department to provide guidance and 
assistance in their local efforts to recruit, educate, and hire 
veterans.
    To assist local VA facilities in attracting and recruiting 
veterans, NVEP helped establish the Veteran Employment Coordinator 
(VEC) concept in HR offices VA-wide. NVEP is currently developing a 
recruitment and outreach tracking system, designed to provide VECs with 
some of the tools necessary for an effective outreach program. The 
tracking system provides a means to document and track outcomes of VA 
participation at career fairs or other events targeting veterans. This 
information can then be analyzed to determine the effectiveness of 
those outreach activities. Other NVEP initiatives/collaborations are:
    VA Career Opportunities for Transitioning Healthcare 
Professionals--NVEP works through the Offices of the Surgeon Generals 
of the Air Force, Navy, and Army, to attract separating military 
healthcare professionals to VA career opportunities by providing 
greater access to information on VA healthcare occupations. NVEP also 
looks at methods to establish training programs that enhance the 
training and experience of service members and prepare them to fill 
critical positions in VA's healthcare system.
    VA/Army National Guard Speaker Series--NVEP provides consulting 
services to VA's Veterans Health Administration (VHA) and the Army 
National Guard (ANG) on an initiative to attract physicians to careers 
in both VA and the National Guard. Through the joint partnership, 
physicians are eligible for dual compensation benefits for professional 
education, development and training.
    Community Prosperity Partnership (CPP)--Led by VA's Office of 
Diversity Management and Equal Employment Opportunity, CPP is a 
mutually supportive coalition of Federal, state, and local government 
agencies, veteran service organizations, academic institutions, and 
non-profit community service organizations that work together to 
address the needs of veterans and their dependents through employment, 
education, youth initiatives and business development. NVEP coordinates 
career fairs targeting veterans in support of CPP activities.
Other VA Employment Outreach Efforts
    Coming Home to Work Program--VA's Veterans Benefits Administration 
(VBA) has partnered with the Departments of Defense and Labor (DoD and 
DoL) to reach out to service members and veterans from Operation 
Enduring Freedom and Operation Iraqi Freedom. Coming Home to Work 
provides civilian job skills training, exposure to employment 
opportunities, and work experience to service members pending medical 
separation from the military. This program, now in place at eight 
primary military treatment facilities, gives valuable, practical 
assistance to these separating service members as they prepare to 
rejoin the civilian workforce. As of June 2007, 442 service members 
have participated in the program with the following results:

    <bullet>  26 returned to active duty
    <bullet>  10 were direct hires
    <bullet>  23 are in active work-experience programs
    <bullet>  201 are receiving early intervention services
    <bullet>  182 transferred from military treatment facilities to 
local Regional Office for continued vocational rehabilitation and 
employment services

    Every day at VA, we see the sacrifice that our veterans have made 
for our Nation. It is our responsibility and privilege to support their 
return to employment. We are committed to continue our successful focus 
on veteran hiring in VA.
    Madam Chairwoman, thank you again for the opportunity to testify 
today. I am prepared to respond to any questions Members may have.
   Appendix--Veteran Employment in the Department of Veterans Affairs
    This data was extracted from the Department of Veterans Affairs 
(VA) personnel-payroll system as of July 31, 2007.
    For cumulative data, the reporting period is January 1, 2007 
through July 31, 2007. System changes implemented in December 2006, 
provide improved accuracy and thoroughness of VA's veteran employment 
data. The data now includes veterans who are not preference eligibles.
How many veterans and/or disabled veterans applied for jobs at VA?
    While VA currently does not have a Department-wide automated system 
that captures data on applicants for all VA positions, we can provide a 
count of applications VA processed in CY 2007 under its delegated 
authority to announce Title 5 competitive positions to the general 
public. The 177,555 applications received under these delegated 
examining announcements resulted in 3,706 selections, of whom 1,056 or 
28.5% of the selectees are preference eligibles.
    Over the next 2 years VA is aggressively expanding its use of the 
automated USA Staffing system, which will enable us to more fully 
capture data on veterans' preference and other applicants.
How many vets were hired through each of the various hiring authorities 
        at VA?
    In the first 7 months of 2007, VA hired 23,912 employees, of whom 
5,823 or 24.4% are veterans. 1,769 of these veterans have earned 10-
point disability preference for Federal jobs, including 1,098 who have 
30% or higher service-connected disabilities, and another 515 who have 
disability ratings below 30% but high enough to warrant VA 
compensation. VA also appointed 87 others entitled to 10-point 
veterans' preference based on derived preference as the wife or mother 
of a permanently, totally disabled veteran, or widow or widower of a 
service member who died in a war or campaign-badge military action.
    The Veterans Employment Opportunities Act (VEOA) authority for 
appointing honorably discharged veterans with 3 years military service 
and veterans and others entitled to veterans' preference accounts for 
2,115, or 8.8%, of the total hires in CY 2007 to date.
    Another 769 veterans, or 3.2% of the total hires, were hired under 
the excepted Veterans Recruitment Appointment (VRA) authority.
    VA also appointed 37 disabled veterans under the non-competitive 
hiring authority for disabled veterans with 30% or higher service-
connected disabilities.
What percentage of your employees are veterans and or disabled vets?

------------------------------------------------------------------------

------------------------------------------------------------------------
Non-preference veterans                                  16,336 =  6.5%
------------------------------------------------------------------------
5-point veterans' preference (vp) eligible               41,937 = 16.8%
 veterans
------------------------------------------------------------------------
10-point vp disabled veterans                             1,790 =  0.7%
------------------------------------------------------------------------
10-point vp compensably disabled veterans                 6,196 =  2.5%
------------------------------------------------------------------------
10-point vp 30%-up compensably disabled                  11,050 =  4.4%
 veterans
------------------------------------------------------------------------
Grand total for combined 5 veteran categories            77,309 = 31  %
 above
------------------------------------------------------------------------
(VA Total Population 250,058)

What percentage of your employees in GS 9 and above are veterans?
    VA has 95,547 employees at GS-9 and above, including 19,578 
veterans or 20.5%. We note that many higher-level positions in VA 
require advanced degrees and professional certifications or 
registrations. Since VA does not have a comprehensive applicant count, 
the number of veterans who have applied for such professional positions 
is unknown. We can state that VA employs 67,070 physicians, dentists, 
chiropractors, nurse anesthetists, registered nurses, physician 
assistants and expanded function dental auxiliaries, and 10,458 or 
15.6% of them are veterans.

                                 <F-dash>
                Prepared Statement of Ronald F. Chamrin,
        Assistant Director, Economic Commission, American Legion
    Madam Chairwoman and Members of the Subcommittee:
    The American Legion commends the Subcommittee for addressing the 
important issue and value of veterans' preference in hiring.
    Veterans' Preference is and must always be regarded as an earned 
privilege afforded to those veterans who have answered the call of duty 
and served their country in one of our Nations Armed Forces. It should 
not be categorized as an affirmative action program for veterans in 
order to become competitive and gain employment within the Federal 
Government.
    The American Legion urges this Congress to take action and correct 
the current faults in the administering of veterans' preference in 
hiring. The veteran must be the ultimate benefactor of veterans' 
preference and regulatory laws as compared to the current systems 
limited post violation punishment of non-compliant actions by Federal 
agencies.
Viewpoints on Veterans' Preference
    The American Legion supports the strongest veterans' preference 
laws possible at all levels of government and opposes any attempt to 
weaken such laws.
    The American Legion opposes the outsourcing of all Federal Jobs 
held by veterans and disabled veterans without the protection of 
Reduction in Force policies and veterans' preference.
    The American Legion strongly urges the strengthening of veterans' 
preference in Federal, state, and local government and opposes any 
efforts to reduce or circumvent veterans' preference.
    The American Legion seeks to ensure that veterans receive 
employment preference from employers who receive grants and contracts 
from the Federal Government and employment preference from employers 
that receive funding on all Federally assisted projects.
    The American Legion urges Congress to amend Public Law 101-509 to 
include age waivers or other means to allow those who have served 
honorably in the military as law enforcement officers to continue their 
professional careers in Federal law enforcement positions after 
retirement.
STRENGTHENING THE ENFORCEMENT OF VETERANS' PREFERENCE
    The Office of Personnel Management (OPM), Department of Labor 
Veterans and Employment Training Service (DoL-VETS), and the Merit 
Systems Protection Board (MSPB) all have roles in veterans' preference 
but there is no clear enforcement of the regulatory authority within 
any of these agencies. There are no effective consequences for non-
compliance or proactive regulation of veterans' preference and veterans 
hiring to ensure that veterans do indeed benefit from this earned 
benefit.
OFFICE OF PERSONNEL AND MANAGEMENT (OPM)
    OPM testified to Congress that their role is Oversight and 
Accountability that entails audits and their corrective actions are 
limited. Because they delegated examining authority to Federal 
agencies, one of their main tools is an audit.

          ``As part of our oversight of human capital management 
        responsibilities at OPM, we use an audit-based approach to 
        ensure that competitive hiring practices used by Federal 
        agencies comply with veterans' preference laws and merit system 
        principles. Our audits cover all aspects of competitive 
        examining, including the application of veterans' preference. 
        We also annually conduct Human Resource Operations Audits that 
        examine a number of agency human resources (HR) programs, 
        including competitive examining and the use of veteran hiring 
        authorities and practices.''

    OPM further states that their corrective actions are:

    1.  Direct an agency to give a veteran priority consideration for 
the next job vacancy for which he or she is qualified if OPM believes 
that veteran was denied preference previously.
    2.  If evidence is found that veterans' preference was knowingly 
denied, which is a prohibited personnel practice, the matter is 
referred to the Office of Special Counsel or the agency's Inspector 
General.
    3.  Withdrawal of an agency's delegated examining authority if 
systemic problems are found.

    The American Legion notes that OPM does not state the extent and 
over reaching implications of their corrective actions. Referral to the 
Inspector General of the respective agency must be followed up with an 
assessment of the outcome of the IG's findings and the action taken to 
address the claim of denial. Unfortunately, there appears to be no 
mechanism in place apart from the appropriate Congressional Authorizing 
Committee and their influential legislative power to provide oversight.
    Furthermore, if an agency must then refer to OPM for examinations 
it is unclear what insurances are afforded to veterans to regain their 
competitive advantage within that agency for hiring if OPM must take on 
the examining role. Any anti-veteran reprisal or culture must quickly 
be stopped.
DOL-VETS
    DOL-VETS states that they are an investigatory body of veterans' 
preference laws and may refer cases to the Merit Systems Protection 
Board (MSPB) or the Department of Justice Office of Special Counsel 
(OSC). DOL-VETS has absolutely no enforcement, punishment, or 
regulatory authority over any agency regarding infractions or 
complaints of unjust application of veterans' preference. DoL-VETS can 
question and advise a Federal hiring division but the Federal agency is 
not mandated to follow this advice.
    VETS testified to the Senate Committee on Homeland Security and 
Government Affairs on March 2006 on their veterans' preference actions 
the following:

          ``VETS is responsible for investigating and attempting to 
        resolve Veterans' Preference complaints against Federal 
        agencies filed under the Veterans Employment Opportunities Act 
        (VEOA). The VEOA provides that a veteran or other preference 
        eligible who believes that his or her rights under any law or 
        regulation related to Veterans' Preference have been violated, 
        may file a written complaint with VETS. We carry out our 
        responsibility under the VEOA through the use of trained 
        investigators in each of our state offices.

    DOL-VETS investigatory authority is just that, an investigation, 
however hollow inquiries without the support of enforcing corrective 
actions when a fault is found is non-productive and does not help 
veterans to the full extent possible.
The Merit Systems Protection Board (MSPB)
    The MSPB states:

          ``The relationship of the Special Counsel to the Board is 
        like that of a prosecutor to a judge; the Special Counsel 
        prosecutes cases before the Board. If, after an investigation, 
        the Special Counsel determines that there are reasonable 
        grounds to believe that a violation has occurred or may occur 
        it may seek corrective actions.''

    However, the OSC refutes the responsibility of enforcing orders in 
Title V section 2302 in relation to veterans' preference. (See below)
    While the MSPB serves as an independent, bipartisan guardian of the 
Federal Employees merit system they do not track or have research 
analysis of any veterans' preference cases and violations. The MSPB has 
further stated that they do not work with Federal agencies of which The 
American Legion finds unacceptable.
    The MSPB has stated in testimony the following:

          ``The MSPB has not conducted any studies that systematically 
        address the issue of agencies' adherence to veterans' 
        preference. For this reason, we have no basis to form an 
        opinion on how well other agencies are complying with veterans' 
        preference requirements. Instead, adherence to veterans' 
        preference is best determined on a case-by-case basis, and 
        assessing overall agency adherence to veterans' preference 
        requires an in-depth understanding of each agency's particular 
        hiring practices and decisions.''

    MSPB's failure to conduct studies of veterans' preference is 
counterproductive to enforcing the law. The American Legion urges MSPB 
to study and track compliance with veterans' preference laws in hiring 
within the respective Federal agencies. Tracking by MSPB will not only 
serve to ensure that veterans' preference is indeed being implemented, 
but will also improve oversight of specific cases of denial of this 
benefit.
The Department of Justice Office of Special Counsel (OSC) relation to 
        veterans' preference
    If an agency fails to remedy a prohibited personnel practice upon 
request by the OSC, corrective action may also be obtained through 
litigation before the MSPB. Such litigation begins with the filing of a 
petition by the OSC, alleging that there are reasonable grounds to 
believe that a prohibited personnel practice has occurred, exists, or 
is about to occur. Corrective actions that can be ordered by the MSPB 
include job restoration, reversal of suspensions and other adverse 
actions, reimbursement of attorney's fees, back pay, medical and other 
costs and damages.
    The OSC testified to the Senate Committee on Homeland Security and 
Government Affairs on March 2006 that:

          ``OSC provides relief under Title 5 of the U.S. Code to 
        veterans under our authority granted in the Civil Service 
        Reform Act, also known as a prohibited personnel practices. 
        section 2302 (b) (11) forbids managers from taking, or failing 
        to take, a personnel action if it would violate a veteran's 
        preference law. However, for OSC purposes, the most significant 
        change to title 5 is set forth in section 2302(e)(2), which 
        states that the MSPB does not have authority to order 
        corrective action for (b)(11) violations and, in turn, divests 
        OSC of authority to seek corrective action for such violations. 
        Hence, OSC's role with respect to allegations of violations of 
        Sec. 2302(b)(11) is limited to seeking disciplinary action in 
        appropriate cases.''

    ``Title 5, United States Code, section 2302 (e) states that `no 
authority to order corrective action shall be available in connection 
with a prohibited personnel practice described in subsection (b)(11)' 
[providing that violating veterans' preference requirements is a 
prohibited personnel practice].''
    OSC continues to state:

          ``A person alleging a prohibited personnel practice under 
        Sec. 2302(b)(11) may seek redress by filing a written complaint 
        with the Secretary of Labor within 60 days of the alleged 
        violation. Further, the veterans' preference laws require the 
        Secretary of Labor to investigate the complaint and, upon 
        determining that a violation occurred, to attempt to resolve 
        the complaint by making reasonable efforts to ensure that the 
        agency complies with the statute or regulation relating to 
        veteran's preference. The task of investigating the complaint 
        is delegated to Department of Labor's Veterans' Training and 
        Employment Service (VETS). If VETS is unable to resolve a 
        complaint within 60 days, it is to provide notification of an 
        unsuccessful effort to resolve the complaint to the 
        complainant. Upon receipt of a notification of an unsuccessful 
        effort to resolve the complaint to the complainant, the 
        complainant may elect to appeal the alleged violation to the 
        MSPB.''

    As stated earlier, the MSPB has not conducted any studies and has 
even stated that they do not work with Federal agencies. There is 
clearly a vacuum; there is no clear authority and proactive corrective 
measures or even actions taken.
    The American Legion is deeply concerned with the protection of the 
veteran and the prevention of illegal and egregious hiring practices. 
Currently, veterans are filing claims after the non-compliance 
employment event occurred and therefore may become financially 
disadvantaged.
    The American Legion asserts our position that protection of 
veterans' employment rights should be concurrent and continuous 
oversight must be emplaced to protect veterans from unfair hiring 
practices, not just reactionary investigations and lawsuits. We further 
state that the veteran must be protected at the onset of the hiring 
process, especially because a corrective action to remedy the veteran's 
plight is not guaranteed.
Use of Multiple Certificates for a Single Position Weakens ``Pass 
        over'' Rules
    Title 5, United States Code, section 3318(b) protects veterans' 
preference by requiring a special review process where an appointing 
authority proposes to pass over a preference eligible on a certificate 
in order to select ``an individual who is not a preference eligible. `` 
In addition, certain disabled veterans' are provided notice and the 
opportunity to respond to the proposed pass over. (See 5 U.S.C. 
Sec. 3318(b)(2).)
    When this pass over law was passed, agencies prepared only a single 
certificate for each open position. However, over time agencies began 
to prepare separate certificates for each different hiring flexibility 
option that might be used to fill the position. Agencies began to fill 
a single position by choosing from among multiple certificates. The use 
of multiple certificates at the current time means that an appointing 
authority may pass over a preference eligible, at the top of one 
certificate, simply by choosing from another certificate drawn from a 
hiring authority that does not require application of veterans' 
preference. This weakens veterans' preference and renders impotent the 
important section 3318 protections against pass overs.
    The National Security Personnel System (NSPS) should incorporate 
important pass over protections into its system. Additionally, the NSPS 
should not allow the creation of multiple certificates or lists for a 
single position.
Lack of Hierarchy in Appointment Methods
    A number of hiring flexibility options are available under the 
current Federal hiring system. If hiring authorities that do not apply 
veterans' preference continue to exist, The American Legion believes 
that appointment methods requiring application of veterans' preference 
should explicitly be favored over other methods and top the hierarchy 
of appointment methods. The NSPS should only be able to resort to a 
lower hiring flexibility in limited cases when there is an absolute 
necessity.
RECOMMENDATIONS
TAP recruitment
    The Federal Government should heavily recruit transitioning service 
members because they are qualified and they have at least a 5-point 
veterans' preference if honorably discharged. Hiring agencies can 
easily use the Veteran Recruitment Authority (VRA) to hire veterans. 
OPM regulations state that this can be applied to:

    <bullet>  Veterans who served on active duty in the Armed Forces 
during a war declared by Congress, or in a campaign or expedition for 
which a campaign badge has been authorized;
    <bullet>  Veterans who, while serving on active duty in the Armed 
Forces, participated in a military operation for which the Armed Forces 
Service Medal was awarded; and
    <bullet>  Veterans separated from active duty within 3 years

    Hundreds of thousands of recently discharged veterans have been 
awarded medals for their service to defend our country that make them 
eligible to receive a VRA appointment. These veterans have skills such 
as an accelerated learning curve, leadership, teamwork, diversity and 
inclusion in action, efficient performance under pressure, respect for 
procedures, technology and globalization, integrity, conscious of 
health and safety standards, and the ability totriumph over adversity
    Executive Order 13289 established the Global War on Terrorism 
Service Medal and the Global War on Terrorism Expeditionary Medal that 
is awarded for anti-terrorism operations around the world. (Federal 
RegisterVol. 68, No. 50 Friday, March 14, 2003) The Department of 
Defense can provide more detailed information about the requirements of 
such awards and the number of veterans receiving these awards.
Veterans Employment Opportunities Act VEOA 1998
    The American Legion recommends omitting the ``knowingly'' portion 
of the VEOA.  The wording of knowingly allows for an agency to 
unintentionally, or in some cases, neglectfully, not apply veterans' 
preference. We believe that the word ``knowingly'' be stricken so that 
the law will have the mandatory effect of enforcing veterans' 
preference laws. I.e. The law is now in place and even if an agency 
inadvertently was prejudice against a veteran they failed to adhere to 
the law.
    ``The Veterans Employment Opportunities Act 1998 law gives veterans 
access to Federal job opportunities that might otherwise be closed to 
them. The law requires that:

          ``The law also establishes a redress system for preference 
        eligibles and makes it a prohibited personnel practice for an 
        agency to knowingly take or fail to take a personnel action if 
        that action or failure to act would violate a statutory or 
        regulatory veterans' preference requirement.'' (DoL-VETS)

    Clearly, omitting the verbiage ``knowingly'' would place lawful 
prohibition to offenders even for negligence and inattentiveness of 
veterans' preference.
Disabled Veterans Affirmative Action Program (DVAAP) should be renamed 
        to the ``Warrior Recruitment Act''
    OPM states that most departments and agencies in the Federal 
Government are required to have an affirmative action program for the 
recruitment, employment, and advancement of disabled veterans. The law 
requires agencies to develop annual Disabled Veterans Affirmative 
Action Program (DVAAP) Plans. Each year, agencies must submit DVAAP 
accomplishment reports to OPM. The accomplishment reports must describe 
agency efforts to promote the maximum employment and job advancement 
opportunities for disabled veterans as well as certain veterans of the 
Vietnam era and of the post-Vietnam era who are qualified for such 
employment and advancement. As part of their submission package, each 
agency must include a signed statement certifying that the agency has 
an up-to-date DVAAP plan.
    By amending the DVAAP to ``Warrior Recruitment Act'', the lexicon 
will be harmonious with the current labeling of troops of todays 
military. Removal of the term disabled will assist in eliminating 
unwanted, negative stereotypes and replace it with a confident, 
capable, proven, dedicated, and disciplined individual.
    Furthermore, veterans are not an affirmative action group, do not 
view them selves as one, and have not requested affirmative action. 
They are our Nations heroes who have unfortunately been injured while 
performing duties of our country and should be given every opportunity 
to contribute and thrive in our society.
Accountability for actions--P.I.P. report (project improvement plans)
    A report from each Federal agency to Congress, specifically, the 
authorizing Committees of each Federal department, would mandate that 
each Federal agency have a plan to implement best hiring practices, 
methodology, and accountability for veterans hiring. If the targets of 
hiring veterans are met then the mechanics of how these goals were met 
needs to be shared. If veteran hiring targets are not met, then a plan 
must be immediately enacted to fix the situation to ensure that they 
are met. Positive reports will be visible and positive productions for 
the Federal agencies that meet these goals.
Mandatory training of Veteran Preference laws with competency based 
        tests
    The Human Resources (HR) personnel and hiring decisionmakers of all 
Federal agencies should be required to go through performance 
evaluations on veteran hiring to ensure that each HR and decisionmaker 
is competent in applying veterans' preference. The current system, 
administered by OPM, consists of a tutorial class where simply checking 
a block to verify that an individual knows veterans' preference laws is 
acceptable. The recurring occurrence of knowing veterans' preference 
laws, in contrast to applying veterans' preference laws, will be 
alleviated.
A report and the implementation on the 30% hiring authority of all 
        federal agencies
    Each agency should be able to report their scoring mechanism 
through internal oversight. The scoring mechanism should be uniform 
throughout the agency and for each position of employment. Because a 
report is required, this should uncover any inconsistencies within the 
agencies and force them to ``self reflect'' and correct inequities in 
the hiring practices.
Notification letter of a selection of another applicant or a denial of 
        appointment to a veteran must include why they were not 
        selected for the position
    A veteran deserves to receive notification that their application 
was received, reviewed, the score that they were awarded, and if denied 
the reasons why they were denied for the position. By enacting 
procedural requirements, agencies will also be forced to either revise 
their job descriptions to synchronize with the denial letter and 
therefore ensure that if the veteran is denied, it is because they are 
not qualified or, educate and encourage veterans to improve their 
skills to meet the requirements for certain positions and therefore 
strengthening the applicant pool.
    This letter can be very similar to the Veterans Claims Assistance 
Act of 2000 (VCAA) notice in VA compensation and pension claims. These 
duties would include the duty to notify a applicant of any information 
necessary to complete an application; the duty to notify the applicant 
of any information that is necessary to substantiate the application; 
the duty to notify the applicant of which information the applicant 
must provide and which portion the agency will attempt to obtain, and 
the duty to notify the applicant of their score and the relationship to 
the other candidates.
U.S. Postal Service is contracting jobs out and no longer applying 
        veterans' preference (A-76)
    The longstanding policy of the Federal Government has been to rely 
on the private sector for needed commercial services. To ensure that 
the American people receive maximum value for their tax dollars, 
commercial activities should be subject to the forces of competition.
    This circular from the Office of Management and Budget has 
inadvertently allowed for the Postal Service to contract many of their 
jobs of which do not apply veterans' preference. The contractors are 
gouging the labor market by lowering the salaries and standards and 
therefore are awarded bids by being a low bidder. Because of this, they 
are hiring whomever they want at a low rate however; there have been 
trends of these same contractors are negotiating larger payments in 
sequential years. Another problem arises because the government has 
paid to train postal employees and then pays again to a contractor to 
train more employees thereby doubling the number of qualified 
specialists. Finally, once the contractor is established they hire the 
prior postal employees at lower salaries than they previously made. The 
American Legion reiterates the opposition to outsourcing of all Federal 
Jobs held by veterans and disabled veterans without the protection of 
Reduction in Force policies and veterans' preference.
    The American Legion seeks to ensure that veterans receive 
employment preference from employers who receive grants and contracts 
from the Federal Government and employment preference from employers 
that receive funding on all Federally assisted projects.
The 10-Point Derived Preference (XP) must have a better outreach, 
        visibility, and use by Federal agencies
    OPM regulations allow for ``Ten points to be added to the passing 
examination score or rating of spouses, widows, widowers, or mothers of 
veterans meeting certain requirements. This type of preference is 
usually referred to as ``derived preference'' because it is based on 
service of a veteran who is not able to use the preference.''
    ``Both a mother and a spouse (including widow or widower) may be 
entitled to preference on the basis of the same veteran's service if 
they both meet the requirements. However, neither may receive 
preference if the veteran is living and is qualified for Federal 
employment.''
    The American Legion is concerned for the family members of 
veterans; the 10 point derived preference should be briefed to family 
members at Military Treatment Facilities, TAP sites, family support 
groups, and within each agencies HR division. Recipients of this 
preference should be actively sought to gain employment with the 
Federal Government.
    Enforcement mechanism to hold human resource managers accountable 
for not applying veterans' preference in appointments to the NSPS 
should be added to NSPS regulations
    There is a definite need for the creation of disciplinary action 
under 5 U.S.C. Sec. 1215 or a similar statute, should a violation of a 
veterans'' preference prohibited personnel practice occur in the NSPS. 
Such disciplinary action is available for violations of other 
prohibited personnel practices.
    The NSPS regulations should also establish an Office of Veterans' 
Preference Compliance in order to ensure an ongoing, vigilant review of 
NSPS hiring and RIFs with regard to veterans' preference. The Office of 
Veterans' Preference Compliance within NSPS should have the power to 
investigate and prosecute violations of veterans' preference so that 
there is prompt, appropriate corrective action, such as hiring or other 
actions, to make a veteran ``whole'' again.
CONCLUSION
    There have been estimates that approximately 60% of the workforce 
will retire by 2020 and these people must be replaced by competent, 
educated, and capable individuals in order to assure the United States 
competitive edge in the world. The veterans of this nation make up a 
well-qualified disciplined pool of applicants. Veterans' Preference 
laws must be strengthened and enforced to ensure that veterans seeking 
employment are given their due consideration in hiring.
    The American Legion appreciates the opportunity to present this 
statement for the record.
                                 <F-dash>

                         National Association of Postal Supervisors
                                              Alexandria, VA, 22314
                                                  September 4, 2007

Hon. Chairman Stephanie Herseth Sandlin
Committee on Veterans' Affairs
Subcommittee on Economic Opportunity
House of Representatives
Washington, DC 20515

    Dear Chairman Herseth Sandlin and Members of the Subcommittee:

    On behalf of the National Association of Postal Supervisors, I am 
pleased to submit this statement in connection with the Subcommittee's 
hearing on veterans' preference.
    The National Association of Postal Supervisors represents the 
interests of postal supervisors, managers and postmasters employed by 
the United States Postal Service. Throughout its 99-year history as a 
management association, the Association has sought to improve the 
operations of the Postal Service and the compensation and working 
conditions of postal management employees. Many of our nearly 35,000 
members are involved in the management and supervision of mail 
processing and delivery operations. We also represent the interests of 
men and women engaged in every functional unit in the Postal Service, 
including customer service, marketing, human resources, training, 
corporate relations, law enforcement, and health and safety.
    Significantly large numbers of veterans are employed by the United 
States Postal Service. As of December 31, 2006, approximately 180,000 
military veterans were employed by the Postal Service, accounting for 
over one-quarter of its workforce. Of these, nearly 17,000 veterans' 
preference eligibles were employed by the Postal Service in management 
and supervisory positions.
    The National Association of Postal Supervisors is filing this 
statement to bring to the Subcommittee's attention our strong 
opposition and concern over the Postal Service's establishment of 
personnel rules that violate the spirit of veterans' preference 
protections of postal managers and supervisors. We commend and thank 
you once again, Chairman Herseth Sandlin, for your initiative in 
responding to the Postal Service's arbitrary actions by introducing the 
``Veterans Reassignment Protection Act,'' H.R. 728, to ensure that 
veterans' preference rights are recognized and applied by the Postal 
Service and all executive branch organizations in the course of 
reorganizations or transfers of function.
    The violative Postal Service rules arise against the backdrop of 
initial downsizing efforts undertaken by the Postal Service, involving 
the closure and consolidation of mail processing and distribution 
plants and other facilities. The number and breadth of these postal 
downsizing actions is expected to grow considerably over the next 
several years as the Postal Service proceeds more aggressively to cut 
costs. The Postal Service has euphemistically labeled its violative 
rules ``repositioning rules'' to putatively authorize its involuntary 
reassignment of managers and supervisors to new locations, potentially 
far from their homes--without regard to their protected status as 
veterans' preference-covered employees. These rules blatantly undermine 
the spirit of veterans' preference laws because they abridge the rights 
of veterans' preference eligibles under reduction-in-force actions and 
the preferred status that veterans enjoy in connection with bumping and 
appeal rights under a reduction-in-force. ``Repositioning'' by the 
Postal Service embodies so many of the same characteristics as a 
reduction in force that, regardless of its name, it virtually 
constitutes a reduction in force, requiring the Postal Service to 
uphold the statutory application of veterans' preference rights to 
postal managers and supervisors.
    The Postal Service has initially limited the application of its 
repositioning rules to management employees, not to union-covered 
employees, due to limitations on USPS latitude to institute reductions-
in-force against employees covered by collective bargaining agreements. 
Nonetheless, nearly 17,000 preference eligible managers and supervisors 
within the Postal Service are covered by the rules, a significant 
number. Moreover, substantially greater numbers of preference eligible 
employees are employed throughout the executive branch, and could 
become subject to similar arbitrary actions by their departments and 
agencies were those entities to pursue the same policies as have been 
adopted by the Postal Service. If Federal agencies like the Postal 
Service are permitted to engage in RIF-avoidance as carried out under 
the repositioning rules, they will significantly disregard and 
critically undermine the respect to which veterans' status historically 
has been accorded.
    Congress should step in and forestall such actions and put an end 
to such personnel abuses through passage of The ``Veterans Reassignment 
Protection Act,'' H.R. 728, to amend the veterans' preference statutes 
to ensure that veterans' preference rights are applied in the course of 
reorganizations or transfers of function.
    Thank you for your hearing on veterans' preference and your 
continued leadership in support of these concerns.

            Sincerely yours,
                                                Ted Keating
                                                 National President
                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                 September 17, 2007

Hon. Neil A. G. McPhie,
Chairman,
U.S. Merit System Protection Board,
1800 Diagonal Rd., Suite 205,
Alexandria, VA 22314

    Dear Mr. McPhie:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on Veterans' Preference on 
September 6, 2007, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 17, 
2007. In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Orfa Torres by fax at (202) 225-2034. If you have any questions, please 
call (202) 225-3608.

            Sincerely,
                                  Stephanie Herseth Sandlin
                                                         Chairwoman
                                 ______
                                 
                                U.S. Merit Systems Protection Board
                                             Office of the Chairman
                                                    Alexandria, VA.

Hon. Stephanie Herseth Sandlin, Chairwoman
U.S. House of Representatives
Committee on Veterans' Affairs
Subcommittee on Economic Opportunity
336 Cannon House Office Building
Washington, DC 20515


    Dear Chairwoman Herseth Sandlin:It was an honor to testify before 
your Subcommittee on September 6, 2007 regarding veterans' preference 
issues. As a follow-up to those proceedings, you requested that I 
respond to several post-hearing questions. The responses to those 
questions are enclosed. You will note a significant difference between 
the number of USERRA claims that were filed in 2006 and 2007. I believe 
that this variance stems from a temporary spike in the number of cases 
that were filed which involved the type of military leave issues that 
were addressed in the Federal Circuit's decision in Butterbaugh v. 
Justice, 336 F.3d 1332 (Fed. Cir. 2003) wherein the Court held that 
agencies are not entitled to charge military leave for days when 
employees would not otherwise have been required to work. It is likely, 
that by 2007, agencies ceased the practice and the number of claims 
decreased accordingly. While the numbers decreased sharply in 2007, I 
believe that the Board will experience a gradual increase in the number 
of USERRA claims due to the high number of veterans who will be 
returning to the civilian workforce following service in the Iraq and 
Afghan wars.
    I hope that the information I provided during the hearing and in 
the enclosed documents will be helpful to you and the other members of 
the Subcommittee.

            Sincerely,
                                          Neil A. G. McPhie
                                 ______
                                 

                           Hearing before the

                  House Committee on Veterans' Affairs

                  Subcommittee on Economic Opportunity

               Veterans' Preference in Federal Employment

                       Held on September 6, 2007

                  Responses to Post-Hearing Questions

    Question #1. Could you provide any reasons that you believe can be 
documented or backed up with some evidence as to why the U.S. 
Department of Defense is responsible to 86 percent of all of the hires 
under Veterans Employment Opportunities Act selections, as you stated 
in your written testimony? Why are the other agencies so low?
    Response: I do not have any evidence to explain the high rate of 
employment of veterans by the Department of Defense or the 
comparatively low rate of employment of veterans in other agencies. My 
hearing testimony was intended to report the findings included in one 
of the studies conducted by the Merit Systems Protection Board which 
just looked at the numbers of veterans employed. The study did not 
examine the reasons underlying those staffing levels. The report of 
this study has not yet been released. As soon as we have set a date for 
the release of the report, Rosalyn Wilcots, MSPB's legislative counsel, 
will advise your subcommittee staff. Of course, we will send a copy of 
the report to the subcommittee when it is published. There are no other 
studies addressing veterans' issues planned at this time.
    Question #2. How many appeals did you receive in 2006 and this year 
for USERRA? How many were resolved in favor of the veteran?
    Response: The Merit Systems Protection Board received 953 USERRA 
appeals in calendar year 2006. Out of those appeals, relief was granted 
in 15 cases and an additional 396 cases were resolved by execution of 
settlement agreements. Through September 2007, the Merit Systems 
Protection Board received 352 USERRA appeals. Out of those appeals, 
relief was granted in 2 cases and settlements were achieved in an 
additional 137 cases.\1\
---------------------------------------------------------------------------
    \1\ The Subcommittee will find a significant difference between the 
number of USERRA claims that were filed in 2006 and 2007. This variance 
likely stems from a temporary spike in the number of cases that were 
filed which involved the type of military leave issues that were 
addressed in the Federal Circuit's decision in Butterbaugh v. Justice, 
336 F.3d 1332 (Fed. Cir. 2003) wherein the Court held that agencies are 
not entitled to charge military leave for days when employees would not 
otherwise have been required to work. It is likely, that by 2007, 
agencies ceased the practice and the number of claims decreased 
accordingly. While the numbers decreased sharply in 2007, I believe 
that the Board will experience a gradual increase over time in the 
number of USERRA claims due to the high number of veterans who will be 
returning to the civilian workforce following service in the Iraq and 
Afghan wars.
---------------------------------------------------------------------------
    Question #3. How many VEOA appeals did you have last year and how 
many were resolved in favor of veterans?
    Response: The Merit Systems Protection Board received 92 VEOA 
appeals in 2006. Out of those appeals, relief was granted in 5 cases 
and an additional 12 cases were resolved by execution of settlement 
agreements. In 2007, the Merit Systems Protection Board received 90 
VEOA appeals. Out of those appeals, relief was granted in 1 case and 
settlements were achieved in an additional 4 cases.
    Question #4. The Subcommittee Members would like the United States 
Merit Systems Protection Board to provide data on veterans and what 
agencies receive the most VEOA complaints.
    Response: Please see the chart.

              Number of VEOA Complaints Against Each Agency
------------------------------------------------------------------------
                                    Number of Complaints      Calendar
             Agency                  Calendar Year 2006       Year 2007
------------------------------------------------------------------------
DEPT. OF VETERANS AFFAIRS                              15            17
------------------------------------------------------------------------
UNITED STATES POSTAL SERVICE                           15            14
------------------------------------------------------------------------
DEPT. OF THE ARMY                                      11            15
------------------------------------------------------------------------
DEPT. OF HOMELAND SECURITY                              8             8
------------------------------------------------------------------------
DEPT. OF THE AIR FORCE                                  9             2
------------------------------------------------------------------------
DEPT. OF LABOR                                          4             4
------------------------------------------------------------------------
DEPT. OF THE NAVY                                       3             5
------------------------------------------------------------------------
DEPT. OF HHS                                            2             5
------------------------------------------------------------------------
DEPT. OF THE INTERIOR                                   4             1
------------------------------------------------------------------------
DEPT. OF TRANSPORTATION                                 3             1
------------------------------------------------------------------------
DEPT. OF DEFENSE                                        3             0
------------------------------------------------------------------------
GSA                                                     2             2
------------------------------------------------------------------------
DEPT. OF STATE                                          2             0
------------------------------------------------------------------------
PENSION BENEFIT GUARANTY CORP                           1             0
------------------------------------------------------------------------
HUD                                                     1             0
------------------------------------------------------------------------
DEPT. OF COMMERCE                                       1             1
------------------------------------------------------------------------
DEPT. OF ENERGY                                         1             0
------------------------------------------------------------------------
NASA                                                    1             2
------------------------------------------------------------------------
PEACE CORPS                                             1             2
------------------------------------------------------------------------
DEPT. OF THE TREASURY                                   1             1
------------------------------------------------------------------------
OPM                                                     0             2
------------------------------------------------------------------------
THE WORLD BANK \2\                                      0             1
------------------------------------------------------------------------
EPA                                                     0             1
------------------------------------------------------------------------
SMALL BUSINESS ADMINISTRATION                           0             1
------------------------------------------------------------------------
SOCIAL SECURITY ADMINISTRATION                          1             1
------------------------------------------------------------------------
\2\ In a recent opinion and order, the Merit Systems Protection Board
  found that the World Bank is not an agency within the U.S. Government;
  rather, it is an international organization. Sedgwick v. The World
  Bank, 106 M.S.P.R. 662 (October 4, 2007), on appeal, Fed. Cir. No.
  2008-3044.


                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                 September 17, 2007

Hon. Patricia S. Bradshaw
Deputy Under Secretary of
Defense for Civilian Personnel Policy
U.S. Department of Defense
1300 Defense Pentagon
Washington, DC 20301

    Dear Ms. Bradshaw:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on Veterans' Preference on 
September 6, 2007, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 17, 
2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Orfa Torres by fax at (202) 225-2034. If you have any questions, please 
call (202) 225-3608.

            Sincerely,
                                  Stephanie Herseth Sandlin
                                                         Chairwoman
                                 ______
                                 

                     Hearing Date: August 06, 2007

                             Committee: HVA

                      Member: Congressman Herseth

                         Witness: Ms. Bradshaw

Air Force Audit Agency Hiring Process
    Question #1: Chairwoman Herseth Sandlin requests the U.S. 
Department of Defense to look at Air Force Audit Agency hiring process 
with veterans.
    Answer: The Air Force Audit Agency (AFAA) uses three primary 
methods for hiring new personnel. Regardless of the method, selections 
must comply with Veterans' Preference laws which do not allow selection 
of a non-preference candidate ranked lower than a candidate with a 5-
point or 10-point veteran's preference. The AFAA (like nearly all Air 
Force activities in the National Capital Region) is serviced by the Air 
Force District of Washington civilian personnel office. An external 
servicing arrangement such as this provides additional oversight to 
ensure hiring and personnel laws are properly followed.
    The primary hiring methods are listed below:

    a.  The Student Career Education Program (SCEP) is similar to a Co-
Op program. The AFAA hires student auditors to work part-time while 
attending school. The students primarily come from local universities 
where the AFAA activity is located. Upon graduation and with management 
agreement, the SCEP employees are offered full-time positions with the 
AFAA.
    b.  The Federal Career Intern Program (FCIP) is designed to help 
agencies recruit and attract exceptional individuals into a variety of 
occupations. Created under Executive Order 13162, the program is 
intended for entry-level positions (General Schedule 5-9). In general, 
individuals are appointed to a 2-year internship. Upon successful 
completion, interns may be eligible for permanent placement with an 
agency. The AFAA uses this program for college recruiting. AFAA 
recruiter training emphasizes the hiring of disabled veterans.
    c.  The third primary hiring method is through job announcements 
which are posted on the Office of Personnel Management USAJOBS website. 
Positions are announced either through the Air Force District of 
Washington Delegated Examining Unit or the Air Force Personnel Center. 
After the announcement is closed, one of these two personnel offices 
provides the AFAA with a certificate from which a selection is to be 
made. These two non-AFAA offices ensure compliance with Veteran's 
Preference laws.

    AFAA management is taking proactive steps to implement the Disabled 
Veterans Affirmative Action Program (DVAAP) in their organization.
    The Air Force Fiscal Year 2007 DVAAP Plan established a program 
representation goal of 8.7 percent for disabled veterans. Like most 
other Air Force organizations, the AFAA adopted the Air Force plan. To 
increase awareness and emphasis, the Air Force Auditor General issued a 
memorandum to all AFAA personnel indicating the need to do more in 
recruiting disabled veterans. From October 2006 to June 2007, the 
Auditor General held six meetings to enhance DVAAP within AFAA. The 
AFAA invited Headquarters United States Air Force personnel to the 
meetings to assist in these enhancement efforts. In the last 2 years, 
AFAA hired three individuals who were 30 percent or more disabled 
veterans, with the most recent hired in June 2007. Further, the AFAA 
has recently taken additional initiatives such as:

    a.  Two job announcements for Dover (Delaware) and McGuire (New 
Jersey) Air Force Bases are posted on USAJOBS and close on October 19, 
2007. These job announcements are open to Veterans Employment 
Opportunity Act 1988 (VEOA) and 30 percent Disabled Veteran eligible. 
The AFAA is notifying their Veterans Affairs (VA) contacts to get the 
word out. The AFAA also accessed the United States Army Wounded Warrior 
website and posted the announcements on this site as well.
    b.  The AFAA has also received approval to conduct Federal Career 
Intern Program events at VA centers. The AFAA is determining how to 
best perform these FCIP events to reach disabled veteran accounting 
students.

    A review of the AFAA DVAAP indicates that at the end of FY 2006 the 
AFAA workforce had a disabled veteran representation of 5.6 percent. As 
of August 31, 2007, the AFAA disabled veteran representation increased 
to 6.3 percent. While still below the Air Force goal, the AFAA has made 
progress over the last 11 months and continues to be committed to 
outreach and hiring of our Disabled Veterans.
Veteran E-mail Questions
    Question#2: In your written testimony you mentioned that veterans 
can send questions via e-mail and there would be a respond [sic] within 
48 hours. What type of questions are most often asked?
    Answer: The Civilian Personnel Management Service receives 
questions from veterans and their spouses via an applicant assistance 
e-mail address, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d6d3d3ddf2d1c2dfc19cddc1d69cdfdbde">[email&#160;protected]</a> and toll free telephone calls to its 
888-DoD4USA (1-888-363-4872) telephone number.

    Typical questions asked by veterans are:

    <bullet>  What government employment opportunities are available 
following exit or anticipated exit from the military?
    <bullet>  As a recently separated veteran, what can I do?
    <bullet>  How soon can I start applying for government positions?
    <bullet>  What can I do for the government using my military 
skills? How does veteran's preference help when applying for government 
jobs?
    <bullet>  What assistance can you provide to a disabled veteran 
looking for employment with the Department of Defense?
    1.  How would I find a list of available jobs on a post near where 
I live, and how would I apply for those jobs?
    1.  Where do I find the necessary forms to apply for a job?

    Veterans also ask various questions about disability ratings, 
programs, veteran's preference, GI Bill, and so forth.
Hiring Heroes
    Question #3: How many veterans have been hired by DoD due to the 
hiring Heroes career fair?
    Answer: It is hard to pinpoint an exact number of offers because it 
can take up to a year or more after the career fair for a service 
member to complete their surgeries, physical therapy, separate from the 
service and begin in a new job. We have been experimenting with various 
approaches for determining career fair results; however, accurately 
tracking the number of placements remains a challenge.
    Currently, we track career fair results through both a survey of 
recruiters during the event and follow up with attendees. Below is a 
listing of offers made during recent career fairs as identified through 
our same day recruiter's survey: Fort Dix, 53; Fort Sam Houston, 81; 
Walter Reed, 39; and San Diego, 50.
    Since injured service members may not be ready for employment 
immediately following a career fair, we have recently begun using 
follow up e-mail to track hires that may occur months after the event. 
Information from this approach shows that as of June 2007, 19 service 
members or their spouses were offered employment opportunities within 
DoD and private sector organizations following Hiring Heroes Career 
Fairs. Of those, eleven veterans and one spouse accepted jobs, three 
veterans are awaiting job offers following interviews, and six veterans 
declined employment offers.
    Agencies/organizations that have hired our injured service members 
include the Department of Army, Department of Navy, Defense Finance and 
Accounting Service, Defense Contract Management Agency, Defense 
Logistics Agency, Northrop Grumman, United Services Automobile 
Association, CACI, Incorporated, Arrowpoint Company, Bank of America, 
Western States Fire Protection Company, Wackenhut, Incorporated, 
Cummings Diesel Company, and Brake Check.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                 September 17, 2007

Hon. Boyd K. Rutherford
Assistant Secretary for Administration
U.S. Department of Agriculture
1400 Independence Ave., S.W.
Washington, DC 20250

    Dear Mr. Rutherford:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on Veterans' Preference on 
September 6, 2007, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 17, 
2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Orfa Torres by fax at (202) 225-2034. If you have any questions, please 
call (202) 225-3608.

            Sincerely,
                                  Stephanie Herseth Sandlin
                                                         Chairwoman
                                 ______
                                 

 Questions for the Record from the House Committee on Veterans' Affairs

                  Subcommittee on Economic Opportunity

                    USDA Witness: Boyd K. Rutherford

          Assistant Secretary for Departmental Administration

                    Hearing on Veterans' Preference

                           September 6, 2007

    1. How successful has the USDA been in recruiting veterans by 
sharing vacancy announcements with the American Legion and the Veterans 
of Foreign Wars? How long has this cooperation been underway?
    USDA posts all vacancy announcements on the USAJobs link, which is 
prominently displayed on the Office of Personnel Management website and 
widely known throughout the country amongst job seekers, including 
veterans. Most USDA agencies do not routinely send copies of their 
vacancy announcements to the American Legion and Veterans of Foreign 
Wars organizations; however, some local offices have engaged in this 
process. Applicant data indicates that there are an ample number of 
veterans applying for jobs with USDA agencies. For example, between 
July 1, 2006, and June 30, 2007, USDA delegated examining units 
reported that there were qualified veterans on 1,324 (57%) candidate 
certificates for the 2,306 positions advertised by these units during 
that period.
    2. How many veterans are in the Senior Executive Service?
    As of September 11, 2007, there were 141 veterans in USDA Senior 
Executive Service positions, out of a total of 402 USDA senior 
executives.
    3. How many veterans' preference hires did the Department of 
Agriculture make in the past three years?
    Between January 2005 and 2007, USDA selected 2, 318 veterans to 
fill positions at USDA
                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                 September 17, 2007

Anita R. Hanson
Outreach Group Manager
U.S. Office of Personnel Management
1900 E. Street, N.W.
Washington, DC 20415

    Dear Ms. Hanson:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on Veterans' Preference on 
September 6, 2007, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 17, 
2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Orfa Torres by fax at (202) 225-2034. If you have any questions, please 
call (202) 225-3608.

            Sincerely,
                                  Stephanie Herseth Sandlin
                                                         Chairwoman
                                 ______
                                 

          Questions from House Committee on Veterans' Affairs

                  Subcommittee on Economic Opportunity

                    Hearing on Veterans' Preference

                           September 6, 2007

    1. OPM is charged with conducting the periodic systemic reviews of 
agency hiring oversight practices, which include audits. Please provide 
us with the results from your 2006 and 2005 visits with the Air Force 
Audit Agency and the Air Force?
    OPM did conduct an audit of the Air Force in Fiscal Year (FY) 2005, 
but did not conduct an audit of the Air Force Audit Agency in FY 2005 
or 2006. On September 10, 2007, OPM received an email from Mr. Tadsen 
requesting a copy of the audit report referenced at the hearing. OPM 
contacted Mr. Tadsen on October 1, 2007 and upon learning the report 
did not contain information specific to the Air Force Audit Agency, he 
withdrew his request. Additionally, OPM referred Mr. Tadsen to Mr. 
James Carlock, Affirmative Employment and Special Employment Program 
Manager for the Department of the Air Force and the individual who 
certified the FY 2006 Disabled Veterans Affirmative Action Program 
(DVAAP) plan to obtain information on the questions related to the 
DVAAP requirements under the law and whether the Air Force Audit Agency 
plan met those requirements.
    OPM's FY 2005 review of Air Force found most human resources 
systems operating in accordance with merit system principles and the 
standards set fourth in civil service laws, rules, and regulations. 
OPM's FY 2005 audit report of Air Force contained the following 
required actions to bring practices into compliance with OPM 
regulations.
REQUIRED ACTIONS:
Talent
    In making veterans recruitment appointments, provide for 
consideration of all available eligibles, beyond the individual name 
requested, and that this consideration is consistent with provisions of 
5 CFR 302, including level of veterans' preference. Establish and 
implement procedures to ensure provisions of 5 CFR 302 are followed. (5 
CFR 302)
Results-Oriented Performance Culture
    In the redesign of the position descriptions and the performance 
management program under the National Security Personnel System (NSPS), 
ensure that the performance plans are strategically aligned, based on 
work assignments and responsibilities, and results-oriented. (5 CFR 
430.206 (b)(3))
    Implementation of NSPS not withstanding, ensure that the 
performance plans are based on work assignments and responsibilities; 
i.e., thatthe number of critical duties in the core personnel documents 
(position description, performance plan, evaluations, and so forth.) 
matches the number of critical elements on Air Force Form 860A for all 
employees. (5 CFR 430.206(b)(3))
    Ensure that performance plans are communicated to employees at the 
beginning of each appraisal period. (5 CFR 430.206 (b) (2) and AFI 36-
1001)
    Ensure that progress performance appraisals are completed. (5 CFR 
430.207 (b))
    Ensure all employees receive their performance appraisals within a 
reasonable length of time after the end of the appraisal period, such 
as 30 days. (5 CFR 430.208 (a) and AFI 36-1001)
    Evaluate the performance appraisal systems and performance 
programs. (5 CFR 430.209(d)
    Evaluate the effectiveness of the United States Air Force awards 
programs. (5 CFR 451.106(d))
    Ensure that SF-fifties processed for time-off awards are properly 
documented with the required standard remarks. (5 CFR 451.106 (e) and 
OPM's The Guide to Processing Personnel Actions)
Leadership/Knowledge Management
    Evaluate training to determine how well it meets short- and long-
term program needs by occupations, organization, or other appropriate 
group. (5 CFR 410.601)
Accountability
    Establish and maintain a system of accountability for merit system 
principles that sets standards for applying merit system principles, 
measures effectiveness in meeting these standards, and corrects any 
deficiencies in meeting these standards. (5 CFR 10.2)
    NOTE: OPM is charged with the statutory responsibility for 
establishing and maintaining an oversight program of the Federal 
personnel system. One way OPM has met this responsibility is to conduct 
periodic audits. (USC 1104 (b)(2): The Office shall establish and 
maintain an oversight program to ensure that activities under any 
authority delegated under subsection (a) of this section are in 
accordance with the merit system principles and the standards 
established under paragraph (1) of this subsection.)
    2. How often does each Federal agency get a periodic review from 
OPM?
    OPM has been on a 4-year cycle for conducting oversight reviews of 
Federal (executive branch) agencies. (However, with OPM's initiative to 
Strengthen Agency Accountability systems, which was started in FY 2006 
and implemented in FY 2007, OPM has accompanied agencies that have an 
OPM-approved accountability system [including the Department of 
Defense] on internal audits agencies lead on a regular basis, in 
accordance with the agency schedule. Since all President's Management 
Council (PMC) agencies have an OPM-approved accountability system, 
there are currently no large agencies on OPM's review schedule for the 
coming Fiscal Years.)
    3. What does a periodic systemic review entail?
    A periodic systemic review entails a human resources operations 
audit and a delegated examining audit which focus on adherence to merit 
system principles and civil service laws, rules, and regulations, 
helping agencies improve their human capital management and supporting 
the human capital management transformation initiative.
    In conducting these reviews, we gather information in advance of 
the on-site audit, conduct onsite fact-finding to include interviews 
with managers, supervisors, employees and human resources officials, 
reviews of policies procedures, program assessments, audits of a sample 
of personnel actions and supporting documentation, and other fact-
finding activities intended to assess and determine whether an agency/
installation is in compliance with merit system principles and 
supporting Federal personnel laws, rules, regulations, and Executive 
Orders.
    At the conclusion of our audits, we issue written reports of our 
findings which are used by agencies to correct or improve their 
operations. When we have required actions, we follow up to ensure the 
agency carries out these required actions.
    4. How often do agencies cancel a vacancy announcement after 
receiving applications for the position?
    OPM does not collect information on how often agencies cancel 
vacancy announcements after receiving applications for a position.
    5. How many audits did OPM conduct last year of agency delegated 
examining units (DEU)?
    In FY 2006, OPM conducted, or participated on agency-led audits of 
agency DEUs, in 141 DEU audits. These 141 audits consisted of 109 OPM-
led audits of agency DEUs, and OPM participation on 32 DEU audits led 
by agencies reviewing their own DEUs.
    6. When was OPM's last audit of the Air Force and was OPM satisfied 
with the results?
    OPM's last audit of the Air Force was in the fourth quarter of FY 
2005. OPM's overall report of the Air Force included 11 required 
actions (see response to Question 1 above). In addition, OPM found many 
individual cases that needed corrective action from our audit at the 
Air Force Personnel Center, which processes most of the personnel 
actions in Air Force. The Air Force Personnel Center has complied with 
most of the case corrections, and only a few remain to be completed.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                 September 17, 2007

Willie Hensley
Deputy Assistant Secretary
Human Resources Management
U.S. Department of Veterans Affairs
810 Vermont Ave. NW
Washington, DC 20240

    Dear Mr. Hensley:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on Veterans' Preference on 
September 6, 2007, I would appreciate it if you could answer the 
enclosed hearing questions by the close of business on October 17, 
2007.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Orfa Torres by fax at (202) 225-2034. If you have any questions, please 
call (202) 225-3608.
            Sincerely,
                                  Stephanie Herseth Sandlin
                                                         Chairwoman
                                 ______
                                 

                        Questions for the Record

           The Honorable Stephanie Herseth Sandlin Chairwoman

                  Subcommittee on Economic Opportunity

                  House Committee on Veterans' Affairs

                           September 6, 2007

                          Veterans' Preference

    Question 1: Have any Federal agencies, such as the Department of 
Health and Human Service, Department of Education, Department of 
Treasury, Department of Agriculture, approached the VA for formal 
assistance in implementing veterans' preference?
    Response: Since establishing the Department of Veterans Affairs 
(VA) National Veterans Employment Program (NVEP) in 2001, VA has hosted 
several briefings for Federal agencies seeking information on best 
practices to hire veterans. Most recently, the Federal Aviation 
Administration sought VA's assistance in helping to develop their 
veteran employment program, using VA's program as their model. VA 
continues to provide assistance to any agency expressing an interest in 
increasing their veteran workforce or establishing programs similar to 
NVEP. Agencies briefed or assisted with veterans outreach efforts 
include:

    <bullet>  Department of Commerce
    <bullet>  Department of Energy
    <bullet>  Department of Treasury
    <bullet>  Department of Homeland Security (U.S. Secret Service)
    <bullet>  Defense Logistics Agency
    <bullet>  Social Security Administration
    <bullet>  U.S. Army (Training and Doctrine Command)

    Federal agencies who have contacted VA indicating an interest in 
partnering under VA's ``Coming Home to Work Program'' are:

    <bullet>  Department of Defense
        <bullet>  Operation Warfighter*
    <bullet>  Department of State
    <bullet>  Department of Housing and Urban Development
    <bullet>  Federal Aviation Administration
    <bullet>  Department of Commerce
    <bullet>  Department of Energy

    *DoD's Operation Warfighter program was developed using VA's 
``Coming Home to Work Program'' as the model and now expands volunteer 
work assignments for wounded service members to any Federal agency with 
the desire to participate in their program.
    Question 2: In regards to the ``Coming Home to Work Program,'' what 
eight facilities are using this program?
    Response: The national deployment of the ``Coming Home to Work 
Program'' occurred during 2006. The program is currently being managed 
through VA's Office of Vocational Rehabilitation under the Veterans 
Benefits Administration. VA's Regional Office in Washington, DC, 
assumed responsibility of providing services to injured service members 
from Walter Reed Army Medical Center and the National Naval Medical 
Center in Bethesda, Maryland, These services were formerly provided by 
VA Headquarters, Six other VA Regional Offices began providing services 
to major military treatment facilities as follows:

    <bullet>  VA Regional Office, San Diego, CA, serves Balboa Naval 
Medical Center
    <bullet>  VA Regional Office, Houston, TX, serves Brooke Army 
Medical Center
    <bullet>  VA Regional Office, Atlanta, GA, serves Eisenhower Army 
Medical Center
    <bullet>  VA Regional Office, Denver, CO, serves Fort Carson Army 
Medical Center
    <bullet>  VA Regional Office, Waco, TX, serves Fort Hood and 
William Beaumont Army Medical Centers
    <bullet>  VA Regional Office, Seattle, WA, serves Madigan Army 
Medical Center

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
